<html>
<title> - OVERSIGHT HEARING ON CLIMATE CHANGE: PREPARING FOR THE ENERGY TRANSITION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


          CLIMATE CHANGE: PREPARING FOR THE ENERGY TRANSITION

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       Tuesday, February 12, 2019

                               __________

                            Serial No. 116-3

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-198 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="deb9aeb19ebdabadaab6bbb2aef0bdb1b3f0">[email&#160;protected]</a>                         
          
      

                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                    DEBRA A. HAALAND, NM, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
               ROB BISHOP, UT, Ranking Republican Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Paul Cook, CA
TJ Cox, CA                           Bruce Westerman, AR
Joe Neguse, CO                       Garret Graves, LA
Mike Levin, CA                       Jody B. Hice, GA
Debra A. Haaland, NM                 Aumua Amata Coleman Radewagen, AS
Jefferson Van Drew, NJ               Daniel Webster, FL
Joe Cunningham, SC                   Liz Cheney, WY
Nydia M. Velazquez, NY               Mike Johnson, LA
Diana DeGette, CO                    Jenniffer Gonzalez-Colon, PR
Wm. Lacy Clay, MO                    John R. Curtis, UT
Debbie Dingell, MI                   Kevin Hern, OK
Anthony G. Brown, MD                 Russ Fulcher, ID
A. Donald McEachin, VA
Darren Soto, FL
Ed Case, HI
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Vacancy
Vacancy
Vacancy

                     David Watkins, Chief of Staff
                        Sarah Lim, Chief Counsel
                Parish Braden, Republican Staff Director
                   http://naturalresources.house.gov
                                 
                                 ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                      ALAN S. LOWENTHAL, CA, Chair
              PAUL A. GOSAR, AZ, Ranking Republican Member

Mike Levin, CA                       Doug Lamborn, CO
Joe Cunningham, SC                   Bruce Westerman, AR
A. Donald McEachin, VA               Garret Graves, LA
Diana DeGette, CO                    Liz Cheney, WY
Anthony G. Brown, MD                 Kevin Hern, OK
Jared Huffman, CA                    Rob Bishop, UT, ex officio
Vacancy
Raul M. Grijalva, AZ, ex officio

                                
                              ----------                                
                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, February 12, 2019.......................     1

Statement of Members:
    Cunningham, Hon. Joe, a Representative in Congress from the 
      State of South Carolina, prepared statement of.............    74
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona...........................................     5
    Lowenthal, Hon. Alan S., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement of....................................     4

Statement of Witnesses:
    Bissett, Bill, President and CEO, Huntington Regional Chamber 
      of Commerce, Huntington, West Virginia.....................    19
        Prepared statement of....................................    20
    Dennison, Brandon, Founder and CEO, Coalfield Development, 
      Huntington, West Virginia..................................    31
        Prepared statement of....................................    32
    Farley, Chandra, Director, Just Energy, Partnership for 
      Southern Equity, Atlanta, Georgia..........................     8
        Prepared statement of....................................    10
    Hille, Peter, President, MACED, The Mountain Association for 
      Community Economic Development, Berea, Kentucky............    22
        Prepared statement of....................................    23
    Mason, Joseph, Professor, Department of Finance, Louisiana 
      State University, Baton Rouge, Louisiana...................    38
        Prepared statement of....................................    40
    Shrader, Sarah, Owner and Co-Founder, Bonsai Design; 
      President, Outdoor Recreation Coalition of the Grand 
      Valley, Grand Junction, Colorado...........................    14
        Prepared statement of....................................    15

Additional Materials Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................    83

    Submission for the Record by Rep. Cheney

        Overview and FAQs, Green New Deal........................    62

    Submissions for the Record by Mr. Dennison

        Forbes article, ``Solar Employs More People In U.S. 
          Electricity Generation Than Oil and Gas Combined,'' by 
          Niall McCarthy, January 25, 2017.......................    82

        Statement in Response to Dr. Mason.......................    83

    Submissions for the Record by Rep. Gosar

        Financial Times article, ``China's demand for electric 
          vehicles charges copper,'' February 12, 2019...........    75

        Financial Times article, ``Australia hopes to cash in on 
          new cobalt rush,'' February 12, 2019...................    76

    Submission for the Record by Rep. Graves

        January 2019 Electricity Prices by State.................    58

    Submission for the Record by Rep. Lowenthal

        Energy Jobs--Current Employment Statistics from the 
          Bureau of Labor Statistics, February 13, 2019..........    80
                                     


 
     OVERSIGHT HEARING ON CLIMATE CHANGE: PREPARING FOR THE ENERGY 
                               TRANSITION

                              ----------                              


                       Tuesday, February 12, 2019

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 1324, Longworth House Office Building, Hon. Alan S. 
Lowenthal, [Chairman of the Subcommittee] presiding.
    Present: Representatives Lowenthal, Levin, Cunningham, 
Brown, Huffman, Gosar, Lamborn, Westerman, Graves, Cheney, and 
Hern.
    Also present: Representatives Case and Neguse.

    Dr. Lowenthal. Welcome, everybody. We are now in the first 
Energy and Mineral Resources Subcommittee in the 116th 
Congress. I want to welcome everyone. I am really looking 
forward to all of us working together.
    The Subcommittee is meeting today to hear testimony on 
climate change and preparing for the transition to a clean 
energy economy. This is where we are starting from today.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to myself as the Chairperson and the 
Ranking Minority Member, or my dear friend, Mr. Gosar.
    I ask unanimous consent that all other Members' opening 
statements be made part of the hearing record if they are 
submitted to the Subcommittee Clerk by 5 p.m. today.
    Hearing no objection, so ordered.

 STATEMENT OF THE HON. ALAN S. LOWENTHAL, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Dr. Lowenthal.  To begin with, I would like to thank my 
partner and congratulate Ranking Member Gosar on his 
Subcommittee leadership position. We have developed a good 
relationship. I served as the Ranking Member with Mr. Gosar 
previously, and I found it very positive. I think we work very 
well together--not always agreeing on things, but we work 
together well on things. We also have mutual likes--tamales, 
coffee--as I just took some, as well as opportunities to work 
together on this Subcommittee. I look forward to sharing with 
the members of this Committee ways on how we can work together. 
I am going to mention one of those things in the statement.
    I think--I haven't checked with anyone in the Capitol, the 
historians, but I think this is the only Subcommittee with both 
the Chair and the Ranking Member who are doctorates but don't 
have a doctorate in juris prudence. You know, we are a 
psychologist and a dentist. Exactly what the Congress needs at 
this moment is a psychologist.
    Before I turn to the topic of today's hearing, I want to 
emphasize that, even though we are not going to have any 
shortage of policy disagreements on this Subcommittee, it is my 
intention to run it in ways that keep discussions thoughtful 
and respectful, based upon facts, not putting people down, and 
with an eye to wherever we can find agreement, let's go for it. 
If we can't find agreement, let's respect each other and 
understand that.
    This Subcommittee is going to have a tremendously important 
role in our country's debate over energy and climate. I know it 
is doubted by some of my colleagues. I think that is their 
position where they are starting, not all, who say we have no 
jurisdiction over climate change and no reason to discuss it. 
Well, I totally disagree with that point of view, and I think 
that is just not right.
    In addition to the tremendous impacts from climate change 
that are affecting our public lands, these lands are 
responsible for nearly one-quarter of the Nation's greenhouse 
gas emissions, which we have jurisdiction over. They are also 
home to some of the best renewable resources in the country, if 
not on this planet, which we have jurisdiction over. We are 
talking about geothermal. We are talking about large-scale 
solar. We are talking about major offshore wind which is 
beginning to become a reality.
    Managing our Nation's vast energy resources, addressing the 
health and the environmental impacts of energy production, and 
understanding the role of public lands in mitigating climate 
change are just some of the issues we will discuss.
    I want this Subcommittee to be a forum where we can discuss 
these issues and develop solutions that have the buy-in from 
the communities across the country, because we are really 
talking about beginning to embark on an adventure where we will 
not solve it all here. We have to have buy-in from our 
communities.
    In the coming weeks, I look forward to meeting with 
individuals on this Subcommittee to get to know them, to 
discuss your goals and priorities. But I have also talked to my 
Ranking Member about maybe periodic--maybe once a quarter--
having an off-the-record, informal, no press, no public 
prepared statements way of getting to know each other, whether 
they are round tables we could find someplace, where we can 
really hear each other's story. What are you passionate about? 
What do you want to do? Why are you here?
    The more you know each other's story, the more difficult it 
is to dehumanize in this situation. We have enough differences 
that we don't need to dehumanize each other in that process. We 
need to hear and respect where people are coming from. Plus, it 
makes it the most enjoyable parts of a committee if we kind of 
know the other members and why they are here and what they--it 
makes the formal aspects, which we will be focusing on, more 
interesting to do and more fun.
    So, when I meet with you individually, I want to ask about 
some--we are not going to do a lot of them. We are going to do 
some where it is off the record, folks. You come when you want 
to come. You don't prepare anything. You want to share who you 
are and who you are in relationship to some of these issues 
that are important to you and your community, not to the 
committee or to anybody else.
    I really look forward to that. And plus, Paul said he is 
going to help us with making sure we have the tamales and 
coffee. So, we are going to work on that.
    I would also like to give a warm welcome to our witnesses 
and thank them for testifying this morning. This month, in the 
entire Natural Resources Committee, we are discussing the 
impacts of climate change, whether it is tribes we are talking 
about, oceans, national parks, forests, wildlife. All of these 
are seeing huge consequences, and I think from most people's 
perspective, the worst is yet to come.
    There must be changes in how we produce and use energy in 
this country. And there is no doubt that a transition away from 
fossil fuels to zero-emission energy sources is essential if we 
are to leave a recognizable world for our grandchildren and 
great-grandchildren. They are usually not at the table. But 
these are issues that they have to be considered at the table 
from now on, that anything that we do has to understand how it 
is going to have that impact.
    I think this transition has to happen quickly. My 
colleagues on the other side of the aisle may not feel the same 
urgency. That is why we have different--not that they are any 
different, but they may not feel the same urgency. They may not 
worry or they may have different concerns about the disruption 
of jobs and what this means for the economy or that their local 
economies will be greatly affected or it doesn't really impact 
them as much.
    I hope in using science and listening to each other, that 
we grow more, that we come closer in looking at we don't have a 
lot of time. Time is not on our side, and we need to figure out 
what we can work together on and how we can move forward.
    One of the things I think we all are going to agree upon is 
the need to help the people that are most impacted by that 
transition, that there are different parts of the country that 
are going to be impacted the most. And we don't want to leave 
people out of that transition, and what is happening is not 
new. We have already gone through--in 1943, we had over half a 
million coal miners in the country; 130,000 in West Virginia 
alone. And for decades, Appalachia and workers and families 
that call this region home supplied the United States with coal 
that kept the lights on, powered the world's largest economy, 
and were instrumental in winning World War II and protecting 
democracy. So, we are talking about something that is part of 
the Nation's fabric.
    But today, there are barely one-tenth as many coal mining 
jobs. It has not been due to government policies. It is because 
of the sense of the economics that is going on, automation that 
is going on and other alternatives. But the cause of it is 
irrelevant. What is really relevant, I think right now, not 
that it is all irrelevant in the causes because it is not. But 
the real thing is the effect that there are out-of-work coal 
miners. Their families are unsure of what they are going to do 
for a living. Whole communities are practically vanishing, and 
if we use as the mantra the solution is to provide false hope 
that there is going to be a resurrection of coal, we are not 
doing our responsibility. We are not acting responsibly.
    The solution is going to be to provide new opportunities 
for these workers and new options for towns to grow and thrive. 
As we move toward clean energy, other regions of the country 
are going to be impacted in a different way, and we are going 
to have to understand how we are going to deal with that. Some 
areas are already preparing for this.
    Wyoming, a major coal-producing state in the Nation, just 
recently released an ambitious 20-year plan to diversify their 
economy and to reduce the state's over-reliance on coal. We do 
have doubters and those that think we should be doubling down 
now on fossil fuel. I think personally that is a recipe for 
even more hardship if we double down, whether it is because of 
climate change, resource depletion, or normal boom-or-bust 
cycles of fuel prices. Putting all your chips on fossil fuels I 
think now is a bad bet, and we need to at least address those 
issues. We need to support American communities and workers 
with the same effort and urgencies that we need to confront 
climate change. And I think that there is one sense that we are 
hearing is there is an urgency to what we do, and we have to 
deal with that.
    Thank you. And I will assure you in the future I will not 
talk this long.

    [The prepared statement of Mr. Lowenthal follows:]
      Prepared Statement of the Hon. Alan S. Lowenthal, Chairman, 
              Subcommittee on Energy and Mineral Resources
    The Subcommittee on Energy and Mineral Resources will come to 
order. Good morning, and welcome to the first Energy and Mineral 
Resources Subcommittee hearing in the 116th Congress.
    The Subcommittee is meeting today to hear testimony on climate 
change and preparing for the transition to a clean-energy economy.
    To begin, I'd like to congratulate Ranking Member Gosar on his 
Subcommittee leadership position. We've developed a good working 
relationship over the past few years, in Congress and on this 
Subcommittee. We have already sat down together to discuss our mutual 
love for tamales, coffee, as well as opportunities to work together on 
this Committee. I look forward to talking to you more on our shared 
priorities and ways we can work together moving forward.
    I haven't actually checked this, but I believe this is the only 
committee or subcommittee in the House with a Chair and Ranking Member 
with Doctorates other than a JD. I don't know about you, but I think 
what the country needs now is a psychologist and a dentist.
    Before I turn to the topic of today's hearing, I want to emphasize 
that even though we will have no shortage of policy disagreements on 
this Subcommittee, it's my intention as Chairman to run this 
Subcommittee in a way that keeps the discussion thoughtful and 
respectful, based on facts, and with an eye toward finding agreement 
whenever possible.
    We have moved a number of bills through this Subcommittee on a 
bipartisan basis in the last two Congresses, and I want to thank 
Ranking Member Gosar for working with our side on many of those bills, 
and I intend to continue and build on that cooperation in this 
Congress.
    This Subcommittee has a tremendously important role in our 
country's debate over energy and climate. I know this is doubted by 
some of my colleagues on the other side, who say we have no 
jurisdiction over climate change and no reason to discuss it. That is 
flat-out wrong.
    In addition to the tremendous impacts from climate change that are 
affecting our public lands, those lands are responsible for nearly one-
quarter of this country's greenhouse gas emissions. They also are home 
to some of the best renewable resources in this country, from 
geothermal to large-scale solar to offshore wind.
    Managing our Nation's vast energy resources, addressing the health 
and environmental impacts of energy production, and understanding the 
role of public lands in mitigating climate change are just a few of the 
critical issues we will discuss.
    I want this Subcommittee to be a forum where we discuss these 
issues and develop legislative solutions that have the buy-in from 
communities across the country.
    In the coming weeks I look forward to sitting down individually 
with each member of this Subcommittee, from both parties, to get to 
know them and discuss their own goals and priorities in Congress and in 
this Subcommittee.
    I would also like to hold periodical, off-the-record, roundtables 
with the members of the Subcommittee to help foster frank and honest 
conversation to help all of us understand each other's approach, 
interest, and, priorities.
    Finally, I want to give a warm welcome to our witnesses and thank 
them for testifying this morning.
    This month in the Natural Resources Committee we are discussing the 
impacts of climate change. Tribes, oceans, national parks, forests, and 
wildlife are already seeing huge consequences, and unfortunately worse 
is yet to come.
    There must also be changes in how we produce and use energy in this 
country.
    There is no doubt that a transition away from fossil fuels to zero-
emission energy sources is essential if we are to leave a recognizable 
world for our grandchildren, our great-grandchildren, and beyond.
    I believe this transition must happen quickly. My colleagues on the 
other side may not feel the same urgency. Whether this is because of 
the worries over disruption of jobs and their local economies or 
something else entirely, I hope the scientists, and storms, and floods, 
and climate refugees convince them there is no time to waste. I assure 
you--we can push for a zero-carbon energy future and have economic 
growth.
    One thing we certainly agree on is the need to help people who may 
be left behind or left out as this transition occurs.
    This is not new. In 1941, there were nearly 550,000 coal miners in 
this country, with roughly 130,000 in West Virginia alone.
    For decades, Appalachia and the workers and families that call this 
region home supplied the United States with the coal that kept the 
lights on and powered the world's largest economy. Appalachian coal 
miners were instrumental in winning World War II.
    Today, there are barely one-tenth as many coal mining jobs. This 
hasn't been due to any government policy. It was because of economics 
and automation. But the cause is irrelevant. The effect is thousands of 
out-of-work coal miners, families unsure what their children will do 
for a living, and whole communities practically vanishing.
    The solution to this is not to provide false hope that there will 
be a resurrection of coal. The solution is to provide new opportunities 
for workers and new options for towns to grow and thrive.
    As we make the necessary transition to clean energy, other regions 
and other workers will face some of the same challenges. We cannot 
simply sit back and watch. We must take actions to help those who may 
be hurt.
    Some areas are already preparing. Wyoming recently released an 
ambitious 20-year plan to diversify their economy and reduce the 
state's over-reliance on coal.
    Some, however, believe they should double down on fossil fuels and 
hope for the best. This is a recipe for even more hardship. Whether 
it's because of climate change, resource depletion, or just the normal 
boom-and-bust cycle of fuel prices, putting all your chips on black 
gold is a losing bet.
    We need to support American communities and workers with the same 
effort and urgency that we need to confront climate change.

                                 ______
                                 

    Dr. Lowenthal. I now recognize Mr. Gosar for his opening 
statement.

   STATEMENT OF THE HON. PAUL A. GOSAR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Dr. Gosar. I thank the gentleman.
    And, yes, my good friend Dr. Lowenthal brings a smile every 
morning. And as a recovering dentist, I will tell you: A smile 
tells me everything I need to know. A smile tells me you are 
happy with yourself; you are willing to engage. If you are 
willing to engage, you are willing to communicate. If you are 
willing to communicate, you can solve a problem. So, if you 
want to solve a problem, smile.
    So, thank you again, and thank the witnesses for being 
here.
    Before I get into my opening statement, Mr. Chairman, I 
would like to reflect on the Majority's non-compliance with 
Committee Rule 4(c) by failing to provide a public memo on the 
scope of today's hearing. Without a memo, the public is kept in 
the dark and members of this Committee are unable to prepare 
for an informed debate. I ask my Democratic colleagues to 
please return to a transparent process so that we can do the 
deliberative work of this body in a more effective manner.
    I think my colleagues on both sides of the aisle would 
agree that legislating shouldn't be done in the dark.
    Now, for the matter at hand. The title of this hearing, 
``Climate Change: Preparing for the Energy Transition,'' 
implies our country is on the cusp of a sweeping transformation 
into a green economy and that communities with vibrant energy 
economies today should be planning accordingly. This 
implication is manifested by the dramatic socialist resolution 
that was introduced last week, the Green New Deal. This 
proposal calls for net-zero emissions in the next 10 years 
through Federal mandates, 100 percent clean and renewable 
energy, a phaseout of plane travel. And according to the bills 
accidentally uploaded frequently asked questions, guaranteed 
economic security for all those unable or unwilling to work.
    This is just what it sounds like: a socialist fairytale 
right up there with ``if you like your healthcare plan, you can 
keep it.''
    Let me be clear. Though the Green New Deal may not be our 
primary topic today, the Majority will see this hearing to 
bolster the case for why and how we can replace 6-figure energy 
jobs with bioenergetic hemp farms and wind-powered coffee shops 
through a Federal takeover of the country.
    Indeed, many members of this Committee have co-sponsored 
this radical resolution, including the Chairman of the 
Committee, Mr. Grijalva, as well as my friend and Chairman of 
this Subcommittee, Mr. Lowenthal, and fellow Subcommittee 
members, Mr. Huffman and Mr. Neguse.
    We will hear testimony today from several witnesses 
regarding their efforts to create jobs in the Appalachia and 
the Mountain West outside of the fossil fuel industry. I 
appreciate their efforts and their commitment to getting 
Americans back to work, particularly after so many Americans 
were laid off from their high-paying energy jobs after the 
regulatory assault of the previous administration.
    I do believe there are wonderful opportunities that can 
help regions that are dependent on traditional sources to 
diversify their economies and to prevent devastation afflicting 
regions like Appalachia due to failed Federal mandates.
    Despite what the Majority's intent with this hearing, I 
want to assure the American people about our energy economy and 
its importance for the foreseeable future. From the 10.3 
million jobs in the United States supported by the oil and gas 
economy to the geopolitical certainty we can provide our 
European, Asian, and other allies, and to continued domestic 
investments, such as ExxonMobil's announcement last week of a 
$10 billion LNG export facility in Texas, conventional energy 
sources have played an overwhelmingly positive role in defining 
our country. Innovation in these fields has reduced emissions. 
At the same time, production has increased. Moreover, energy 
demand in the United States and around the world is strong. The 
void left by America would be filled by opportunistic countries 
with far worse environmental standards if the United States 
exited the conventional energy market. Even saying that, these 
words feel ridiculous, but these are strange times.
    Let's take a moment to talk about what a green economy 
really means. If I may borrow a term, an inconvenient truth 
about renewable energy is a need for vast amounts of critical 
minerals and rare earth elements to make them work. For 
example, wind power requires neodymium and dysprosium, and 
demand for these minerals is expected to go up by 700 percent 
to 2,600 percent, while solar panels rely almost solely on 
minerals the United States currently imports from countries 
like China, despite being a Nation blessed with many of the 
resources that can be mined here.
    In the last several years, America has experienced an 
energy renaissance. U.S. natural gas, oil production and 
exports are at record levels. In 2017, the United States also 
led the world in carbon emissions reductions. This occurred 
because of American ingenuity and in spite of anti-energy 
policies of the previous administration and seemingly the 
agenda of the new House Majority.
    Delusional Federal mandates proposed in the Green New Deal 
will only topple America's dominance in the energy economy, 
creating unemployment, high energy costs, and weakening our 
position globally. It would be a mass tax and a mass 
displacement of the poorest among us.
    My Democratic colleagues in the past have claimed to 
support an all-the-above energy strategy. It turns out this was 
just an election year talking point as many now wage war on 
nuclear energy, natural gas, and even hydropower.
    The irony with the Green New Deal's facts page proposing an 
end to the use of nuclear energy is nuclear energy is one of 
the cleanest and most reliable sources in America.
    I am glad we are able to highlight the good work our 
witnesses are doing back in Appalachia and across the country. 
But we should be discussing ways to remove red tape, empower 
job creators, pursue innovative technologies that bolster our 
strong status as the leader in emissions reductions. If the 
Majority has their way and the policies of the green dream 
somehow are magically enacted, then the economic plight of 
Appalachia will be a microcosm of the rest of our great Nation.
    And, with that, Mr. Chairman, I yield back.
    Dr. Lowenthal. Thank you. And I take it you won't be a co-
sponsor.
    Dr. Gosar. No, I don't think so. You can probably take that 
to the bank.
    Dr. Lowenthal. Thank you, Paul.
    Now, I would like to introduce today's witnesses.
    But first I would like to ask unanimous consent for 
Congressman Case and Congressman Neguse to sit on the dais and 
participate in this morning's hearing.
    Hearing no objections, so ordered.
    I am going to introduce our first witness. First, we have 
Chandra Farley. Ms. Farley is the director of Just Energy, the 
Just Energy program for the Partnership for Southern Equity.
    Our second panelist is Sarah Shrader. Ms. Shrader is the 
owner and co-founder of Bonsai Design and the president of the 
Outdoor Recreation Coalition of the Grand Valley.
    Next, we have Dr. Bill Bissett. Dr. Bissett is the 
president and the CEO of the Huntington Regional Chamber of 
Commerce.
    Our fourth witness is Peter Hille. Mr. Hille is the 
president of the Mountain Association for Community Economic 
Development.
    Our fifth witness is Brandon Dennison. Mr. Dennison is the 
founder and the CEO of Coalfield Development Corporation.
    And, finally, we have Dr. Joseph Mason. Dr. Mason is a 
professor in the Department of Finance at the Louisiana State 
University.
    Let me remind our witnesses that, under our Committee 
Rules, they must limit their oral statements to 5 minutes but 
that their entire statement will appear in the hearing record. 
When you begin, the lights on the witness table in front will 
turn green. And then, after 4 minutes, the yellow light will 
come on. Your time will then have expired after 1 more minute 
when the red light comes on, and I will ask you to please 
complete your statement.
    I am also going to allow the entire panel to testify before 
Members up here on the dais begin questioning.
    I will now recognize Ms. Farley to testify. Welcome.

STATEMENT OF CHANDRA FARLEY, DIRECTOR, JUST ENERGY, PARTNERSHIP 
             FOR SOUTHERN EQUITY, ATLANTA, GEORGIA

    Ms. Farley. Thank you.
    Honorable Chairman Lowenthal, Ranking Member Gosar, and 
members of the House Subcommittee on Energy and Mineral 
Resources, thank you for inviting me here today.
    My name is Chandra Farley, and I am the Just Energy 
director at the Partnership for Southern Equity based in 
Atlanta, Georgia. I am honored to provide this testimony in 
support of a just and equitable transition to the clean energy 
economy.
    We know with data-informed certainty that systematically 
disenfranchised under-resourced communities and communities of 
color in the South bear a disproportion burden of the negative 
impacts of the changing climate and carbon-based energy 
production. Three of the top five biggest carbon polluters are 
in the South. This is compounded by the fact that four southern 
cities, Memphis, Birmingham, Atlanta, and New Orleans, hold the 
greatest energy burdens for low-income households but face the 
greatest barriers to weatherization assistance and energy 
efficiency programs that can reduce these high burdens.
    Also, the Southeast region serves as home to 84 percent of 
all U.S. counties that experience persistent poverty. This is 
defined as a county in which at least 20 percent of the 
population experiences poverty for three decades or more. Pile 
on the fact that the South experiences a higher frequency of 
billion dollar weather and climate disaster events than any 
other region, we can begin to contextualize the constant 
struggle and mounting barriers that historically marginalized 
communities face in this era of changing climate and rapid 
energy transition.
    Despite bearing an inequitable portion of negative impacts 
due to climate change and carbon-based energy production, 
disenfranchised communities are virtually unrepresented in the 
energy planning and decision-making processes that drive 
inequitable outcomes in energy regulation, distribution, and 
policy.
    While unfamiliar to many citizens, these policies 
significantly impact household economic stability and impinge 
upon the overall quality of our air, water, and other natural 
resources that affect our health and well-being.
    Directly related to the health and well-being stressors of 
carbon-based energy production is the rising cost of energy. 
The resulting energy burden or percentage of household income 
spent on energy bills is a crippling financial burden for 
working families. According to the American Council for Energy-
Efficient Economy, the energy burden on African American and 
Latino households with lower incomes is up to three times as 
high as others.
    When you consider that the median energy burden in the 
ACEEE sample was 3.5 percent, we can see the paralyzing effects 
of increasing energy costs on many families' ability to thrive. 
With eliminated funding for weatherization assistance programs 
and financial barriers to cost-saving energy efficiency 
upgrades, the mounting cost of energy bills translate to 
unimaginable choices for our working families and senior 
citizens. Do you pay the light bill and go without your 
medicine, or do you buy groceries or heat your home?
    Collectively, these conditions stem from the underlying 
forces of structural and institutional racism that are embedded 
in our land use policies and energy systems. From the siting of 
carbon-based energy production facilities and the resulting 
negative health impacts to the disproportionate burden of 
rising energy costs on low-wealth communities, these societal 
barriers have hampered the opportunity for marginalized 
communities to lend their perspective to the shaping of their 
clean energy future and fully benefit from rapidly expanding 
clean energy markets. For instance, only 7 percent of solar 
workers in 2017 were African American while the percentage of 
solar workers in the United States grew 168 percent since 2010 
according to The Solar Foundation.
    Against the backdrop of global climate change, these 
disparities have driven equity and justice to the forefront of 
the energy transition conversation and made Just Energy a top 
priority. When utilized as a framework for mobilizing advocacy 
around energy equity issues, Just Energy represents an equity 
ecosystem of frontline communities, subject-matter experts, 
houses of worship, youth movements, and academia organizing 
together to ensure that the benefits of a clean energy economy 
include fair prices, freedom from negative health impacts, and 
access to thriving wage employment. We believe that this 
approach is central to the energy equity movement and that the 
future of our communities is dependent upon collective action 
toward an equitable inclusive just energy future for all.
    Thank you.

    [The prepared statement of Ms. Farley follows:]
Prepared Statement of Chandra Farley, Just Energy Director, Partnership 
                          for Southern Equity

    We know with data-informed certainty that systematically 
disenfranchised, under-resourced communities and communities of color 
in the South bear a disproportionate burden of the negative impacts of 
the changing climate and carbon-based energy production. Three of the 
top five biggest carbon polluters in the power sector are in the South 
where investments in consumer-directed clean energy continue to lag. 
This is compounded by the fact that four southern cities--Memphis, 
Birmingham, Atlanta and New Orleans, hold the greatest energy burdens 
for low-income households but face many barriers to the energy 
efficiency programs that can reduce these high burdens. Also, the 
Southeast regions serve as home to 84 percent of all U.S. counties that 
experience persistent poverty (defined as a county in which at least 20 
percent of the population experiences poverty for three decades or 
more). Pile on the fact that the South experiences a higher frequency 
of billion-dollar weather and climate disaster events than any other 
region, we begin to contextualize the constant struggle and mounting 
barriers that historically under-resourced and marginalized communities 
face in this era of changing climate and energy transition.

    Despite bearing an inequitable proportion of negative impacts due 
to climate change and carbon-based energy production, disenfranchised 
communities are virtually unrepresented in the energy planning and 
decision-making processes that drive inequitable outcomes in energy 
regulation, distribution and policy. While unfamiliar to many citizens, 
these policies significantly impact household economic stability and 
impinge upon the overall quality of our air, water and other natural 
resources that affect our health and well-being. This is evidenced by a 
report from the NAACP noting that 68 percent of African-Americans live 
within 30 miles of a coal-fired power plant. In addition to lower 
property values, proximity to these coal plants carries health risks 
such as increased infant death, heart disease, lung disease, asthma 
attacks and asthma associated deaths. Plus, the disproportionate 
impacts reach the healthcare and education sectors as emergency room 
visits, hospitalizations and missed school days (that leads to missed 
work and job insecurity for parents) all increase due to these harmful, 
life-threatening emissions.

    Adding to the worsening impacts of climate change is carbon-based 
energy production. Climate change pressures on the energy system result 
in increased demand for electricity as heatwaves worsen, power failures 
caused by storms and flooding increase and system failures and 
inefficiencies caused by extreme heat mount. These shocks and stressors 
are exacerbated by the destruction of local economies due to short-
sighted, extractive practices by the coal, oil and gas industries. With 
fossil fuels still supplying nearly two-thirds of the United States' 
electricity, the increased demand will increase the carbon emissions 
that disproportionately impact marginalized communities.

    Directly related to the health and well-being stressors of carbon-
based energy production is the rising cost of energy. The resulting 
``energy burden,'' or percentage of household income spent on energy 
bills, is a crippling financial burden for families with lower incomes. 
According to the American Council for an Energy-Efficient Economy 
(ACEEE), the energy burden on African-American and Latino households 
with lower incomes is up to three times as high as other homes. In my 
home state of Georgia, nearly 300,000 households with incomes of below 
50 percent of the Federal Poverty Level pay 41 percent of their annual 
income for their home energy costs. When you consider that the median 
U.S. energy burden across the cities in the ACEEE sample was 3.5 
percent, we can see the paralyzing effects of increasing energy costs 
on family's ability to thrive. With limited funding for weatherization 
assistance programs and financial barriers to cost-saving energy 
efficiency upgrades, the mounting costs of energy bills translate to 
unimaginable choices for working families and senior citizens. Do you 
pay the light bill and go without your medicine? Do you buy groceries 
or heat your home?

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

   Figure 1: City of Atlanta energy burden. Source: Farley, C., 
 Garret, C., & O'Neil, M. (2018). Atlanta: Equity and Policy Overview. 
                   Presentation, New York, New York.

    Collectively, these conditions stem from the underlying forces of 
structural and institutional racism that are embedded in our land-use 
policies and energy systems--from the siting of carbon-based energy 
production and the resulting negative health impacts, to the 
disproportionate burden of rising energy costs on under-resourced 
communities and communities of color. Against the backdrop of global 
climate change, a reckoning with the South's history of racial 
inequality is driving equity and justice to the forefront of the energy 
transition narrative.
    In order to frame the intersection of race and energy and act on 
the resulting inequitable impacts, the Partnership for Southern Equity 
(PSE) created the Just Energy Initiative to focus on energy equity. 
Founded in 2008, PSE was established to advance policies and 
institutional actions that promote racial equity and shared prosperity 
for all in the growth of metropolitan Atlanta and the American South--a 
region riven by racial, economic and class disparities. While equal 
rights under the law, or equality, have afforded many opportunities to 
those previously denied ``certain unalienable rights,'' an equity 
agenda works to combat these disparities and advance just and equitable 
outcomes that are sensitive to the needs and circumstances of 
disenfranchised populations. As one of four strategic focus areas 
including equitable development, economic inclusion and health, PSE 
defines ``energy equity,'' or Just Energy, as the fair distribution of 
the benefits and burdens from energy production and consumption. 
Utilized as a framework for mobilizing advocacy around energy equity 
issues, individuals, businesses and organizations representing 
frontline communities, subject-matter experts, houses of worship, youth 
movements and academia are working together and organizing to forge 
collective action toward a more equitable, inclusive, clean energy 
future for all.
    Certainly, advocacy for energy equity and climate justice issues 
focused on the South are gaining an increasing amount of attention in 
the public, private and philanthropic sectors. However, our frontline 
communities must quickly learn to advocate on their own behalf as many 
traditional environmental conservation institutions struggle to make 
inroads because they often lack the cultural competency to 
authentically confront the South's history of racial supremacy and 
exploitation. Centuries of oppressive power structures have stifled 
even modest attempts by communities of color to organize, generating an 
inherent mistrust of anyone seeking to do so even within communities 
much in need of advocacy. These societal barriers have hampered the 
opportunity for marginalized communities to lend their perspective to 
the shaping of their clean energy future and fully benefit from rapidly 
expanding clean energy markets. For instance, only 7 percent of solar 
workers in 2017 were African-American while the percentage of solar 
workers in the United States grew 168 percent since 2010 according to 
The Solar Foundation. On the deployment of solar technology itself, a 
report published in the Nature Sustainability journal found that census 
areas with over 50 percent African-American or Hispanic populations 
have close to 40 percent less solar panel installations than white-
majority census tracts, even when controlling for household income. 
These examples further demonstrate the impact of societal barriers on 
the ability of marginalized Americans to access clean energy benefits 
such as lower bills, more jobs and cleaner air.
    By highlighting the inequities present across the energy sector and 
connecting the dots between energy, racial injustice, economic 
disinvestment, health disparities and other associated equity 
challenges, PSE has been able to organize with community to channel 
their civic power for energy equity advocacy. Strengthened by the deep 
relationships resulting from the organizing as well as education and 
engagement, coalition building and leadership development offerings, 
PSE is building a ``Southern Equity Ecosystem'' positioned to connect, 
educate, and build power with all who support a just and equitable 
transformation of the energy sector. A sector that no longer depends on 
the extreme extraction of human, natural and economic resources from 
distressed communities, but one that supports a regenerative, clean 
energy economy rooted in shared principles of social, environmental, 
economic and racial justice.
    To advance this reality, the Just Energy Circle (JEC) anchored by 
PSE was created in 2013. The mission of the JEC is to build power with 
communities and encourage participation in developing clean energy 
solutions that benefit everyone. The JEC also seeks to inspire new, 
diverse, authentic leadership that is recognized in prominent decision-
making positions in both civic and private sectors. We aim to establish 
structures that ensure clean energy opportunities are available to all, 
including low-income protections, fair prices, freedom from negative 
health impacts and access to thriving wage employment. We represent an 
equity ecosystem of diverse business, political, and community 
representation and interests. We believe that this approach is central 
to the energy equity movement and that the future of our communities is 
dependent upon ``Just Energy'' for all.

    Building upon this vision, the JEC is guided by the following 
principles:

    <bullet> We believe that community partnerships are vital for the 
            equitable progression toward self-sufficient people and 
            neighborhoods.

    <bullet> We believe in access to high-quality energy at a fair 
            price for all.

    <bullet> We believe in transformational relationships and 
            sustainable solutions for ever-pressing issues in the 
            American South.

    <bullet> We believe in transparency and accountability for energy 
            providers and policy makers.

    <bullet> We believe that equity is the superior growth model for 
            the American South.

    <bullet> We believe in honoring the idea that all people must have 
            a part to play in our emerging clean energy economy.

    <bullet> We believe in utilizing and leveraging a combination of 
            the best field and scientific research to find the best 
            energy solutions.

    Amplifying the knowledge shared amongst our partners, we work 
collaboratively to build political and community capital to champion 
the racial, social, environmental and economic benefits that clean 
energy investments can produce when centered in equity. Many 
organizations committed to advancing more equitable outcomes have 
fought hard for national, state and local level climate and energy 
policies designed to lower energy costs, strengthen local economies and 
build healthier, more resilient communities. However, first and most 
impacted communities remain the least likely to benefit from the clean 
energy advancements and energy efficiency policies and programs that 
can reduce the burden of rising energy costs and offset the harmful 
effects of climate change and carbon-based energy production.
    As demonstrated by the generational consequences and 
disproportionate burdens of energy policy decisions, the South is 
undoubtedly on the frontlines of struggles for climate justice, 
economic justice, racial justice, and inclusive democratic 
participation. Nevertheless, communities spanning from the Gulf Coast 
to Appalachia continue to advance equity and opportunity through 
education and engagement on energy, climate and environmental justice. 
As the subject-matter knowledge base grows across the region, so does 
the number of well-informed, first-person advocates prepared to 
mobilize for expanded investment in clean energy, energy efficiency and 
other renewable energy strategies that support economic development for 
low-wealth communities.
    Without a doubt, preparing for the energy transition must also 
address the harmful, disproportionate impacts of climate change and 
carbon-based energy production. Especially in the Southeast, which is 
at significant risk to four particular climate change-related hazards: 
drought, flooding, hurricane force winds, and sea-level rise. But what 
about the energy system itself? How will we truly be able to confront 
the systemic disenfranchisement and under-resourcing of communities of 
color without addressing the underpinnings of the energy system as a 
whole?
    Any equity-centered climate solutions strategy must include the 
democratization of our energy systems. Energy democracy is a 
foundational component of a just and equitable transition from a 
carbon-based energy economy to a regenerative, clean energy economy 
grounded in racial, economic and social justice. Energy Democracy is 
centered on the premise that you can't build a new energy economy on an 
old energy model. As discussed in the book, Energy Democracy: Advancing 
Equity for Clean Energy Solutions, we must not only champion the 
technological strategies that will decarbonize the energy system, but 
we must also transform the system itself. Nathaniel Smith, the founder 
and Chief Equity of Officer of PSE defines true equity as a way, not a 
what. In this vein, we understand that clean energy for all is but one 
step on the journey toward a decentralized energy system built upon the 
principals of cooperative economics and community-based decision making 
for resource allocation. Ultimately, this community-determined, energy 
equity ecosystem will strengthen household economic stability and build 
healthier, wealthier communities.
    Now more than ever, it is time for an intentional expansion of the 
South's civic engagement infrastructure to ensure authentic inclusion 
at all points of the energy transition. Historically disenfranchised, 
under-resourced communities and communities of color are increasingly 
hungry to speak and act; not only for transition, but transformation of 
the energy system. We stand ready to wield our civic power in demand of 
equitable access to the benefits of the clean energy economy. The 
future of our communities is dependent upon ``Just Energy'' for all.
                               resources
2017 Greenhouse Gas (GHG) Emissions from Large Facilities. Retrieved 
from https://ghgdata.epa.gov/ghgp/main.do.

ACEEE. (2016). Data Gauge Impact of Energy Costs on Low-Income, 
African-American, Latino, and Renter Residents; Low-Income Households 
in Memphis, Birmingham, Atlanta, New Orleans, Providence, Pittsburgh, 
Dallas, Philadelphia, Kansas City, and Cleveland Suffer Heaviest 
``Energy Burden''. Retrieved from https://aceee.org/press/2016/04/
report-energy-burden-low-income.

Billion-Dollar Weather and Climate Disasters: Mapping. Retrieved from 
https://www.ncdc.noaa.gov/billions/mapping.

Drehobl, A., & Ross, L. (2016). Lifting the High Energy Burden in 
America's Largest Cities: How Energy Efficiency Can Improve Low Income 
and Underserved Communities. Retrieved from https://aceee.org/sites/
default/files/publications/researchreports/u1602.pdf.

Fairchild, D., & Weinrub, A. (2017). Energy Democracy: Advancing Equity 
in Clean Energy Solutions. Island Press.

FSC's HEAG--Affordability Gap Data. (2017). Retrieved from http://
www.homeenergyaffordabilitygap.com/03a_affordabilityData.html.

National Solar Jobs Census--The Solar Foundation. Retrieved from 
https://www.thesolarfoundation.org/national.

Sunter, D., Castellanos, S., & Kammen, D. (2019). Disparities in 
rooftop photovoltaics deployment in the United States by race and 
ethnicity. Nature Sustainability, 2(1). doi: 10.1038/s41893-018-0204-z.

Oxfam America. (2009). Exposed social vulnerability and climate change 
in the US Southeast. Retrieved from https://policy-
practice.oxfamamerica.org/static/oa3/files/Exposed-Social-
Vulnerability-and-Climate-Change-in-the-US-Southeast.pdf.

What is U.S. electricity generation by energy source?--FAQ--U.S. Energy 
Information Administration (EIA). Retrieved from https://www.eia.gov/
tools/faqs/faq.php?id=427&t=3.

Wilson, A. (2012). Coal Blooded Putting Profits Before People. 
Retrieved from http://www.naacp.org/wp-content/uploads/2016/04/
CoalBlooded.pdf.

Zach, E. (2018). How Persistent Poverty Masks the Reality of Many Rural 
Poor. Retrieved from https://caseygrants.org/evn/how-persistent-
poverty-masks-reality-of-many-rural-poor/.

                                 ______
                                 

    Dr. Lowenthal. Thank you very much.
    Our second panelist is, as I mentioned, Sarah Shrader. Ms. 
Shrader is the owner and co-founder of Bonsai Design and the 
President of the Outdoor Recreation Coalition of the Grand 
Valley.
    Welcome to the Committee.

   STATEMENT OF SARAH SHRADER, OWNER AND CO-FOUNDER, BONSAI 
 DESIGN; PRESIDENT, OUTDOOR RECREATION COALITION OF THE GRAND 
                VALLEY, GRAND JUNCTION, COLORADO

    Ms. Shrader. Chairman Lowenthal, Ranking Member Gosar, and 
distinguished members of the Subcommittee, thank you so much 
for the opportunity to discuss rural economic change in western 
Colorado today.
    I live in a town called Grand Junction on the western slope 
of the Rocky Mountains. Our community is 74 percent public 
lands and is named after the junction of two mighty rivers, the 
Gunnison and the Colorado, that flow through the center of our 
town. Our valley has been on the leading edge of change that is 
playing out in rural communities across the United States.
    Like many other rural communities in America, our area has 
had a volatile economic history driven largely by the fossil 
fuels industry, oil, gas, coal, shale, and uranium. Each wave 
of extraction has provided jobs and prosperity only to be 
followed by the inevitable bust when commodity prices fall or 
policies change.
    This boom-and-bust cycle of extraction takes a toll on the 
economy and the psyche of our community. It creates a sense of 
hopelessness that persists even into new boom cycles because we 
are trained to believe that economic prosperity is fleeting and 
temporary.
    The results over time have been devastating. Our county's 
medium household income is $13,000 below the state average and 
56 percent of jobs where I live pay less than $17.50 an hour. A 
full 22 percent of children live in poverty compared to 15 
percent in the state.
    An extraction-based economy also inadvertently diminishes 
the importance of a college education. The number of kids 
graduating high school who obtain any kind of post-secondary 
education is 20 percent below the national average. At a time 
when companies chase skilled and educated work force, we are at 
a significant competitive disadvantage. Yet, the economic 
reliance on extraction industries has been changing in Grand 
Junction in the past few years. A new trend is emerging as our 
community shifts toward diversified employment, an outdoor-
centric identity, a growing university, and an economy that has 
the potential to break this insidious cycle of poverty.
    In 2004, my family relocated to Grand Junction, and shortly 
after, we started our company, Bonsai Design, out of our 
basement deploying a small crew to build aerial adventures from 
ziplines to challenge courses, aerial playgrounds, and canopy 
tours all over North America. Now we are a turnkey operation 
with over 50 employees that provides everything from concept 
design to engineering, installation, training, inspections and 
maintenance, and we even manufacture our own components.
    Like many other outdoor rec manufacturers in our community, 
we are proud to work with local fabricators, machinists, and 
employees that have historically worked for the oil and gas 
industry. Our employees and subcontractors have grit, tenacity, 
and a strong work ethic, and they love creating outdoor 
adventure experiences for people to enjoy for years to come.
    Bonsai also works in similar communities which, like ours, 
have been long dependent on extraction and are now 
diversifying. Our clients are, for example, the Boy Scouts of 
America jamboree site in Mount Hope, West Virginia, where we 
built 26 Bonsai courses between 2011 and 2013. Our company is 
currently working with several municipalities, including the 
city of Rocklin, California, in an old quarry, and the city of 
Farmington, New Mexico, as well as Pipestem State Park in West 
Virginia. These communities are rebranding themselves as 
outdoor adventure hubs.
    The outdoor recreation industry is a powerhouse economic 
force in America at almost 3 percent of the GDP. In Colorado, 
it is a $62.5 billion industry employing over 500,000 
Coloradans. In our community alone, the outdoor rec industry 
contributes over $300 million annually and thousands of jobs. 
And rural communities all over the country are realizing the 
important role that the outdoor recreation industry could play 
in helping their economies thrive.
    In addition to providing jobs, the outdoor recreation 
industry in Grand Junction is leading efforts to redevelop and 
ignite our riverfront on the Colorado River.
    Long neglected, the riverfront was populated with 
junkyards, old tires and appliances, and an old uranium mill. 
We are turning a barren stretch of land into a business park 
surrounded by green space, a river recreation area, and an 
amphitheater with miles of trails around, a place where 
businesses can thrive and residents and visitors can enjoy the 
outdoors right in the heart of town.
    The irony in a community like ours is that we have focused 
below the surface of the land to find economic prosperity, yet 
the absolute best part of western Colorado is the access to 
public lands and wild spaces for recreation on the surface. In 
our community, you can hunt, fish, paddle the rivers, mountain 
bike, ski, rock climb and hike within minutes of your front 
door. Our community is now looking at outdoor recreation, a 
sustainable use for our lands, to drive the economy. The 
outdoor recreation industry brings pride and opportunities back 
to a community that has struggled for decades.
    Essential to this transition is that we protect our public 
lands and act swiftly to combat climate change as the economy 
in these areas depends on it.
    Thank you.

    [The prepared statement of Ms. Shrader follows:]
   Prepared Statement of Sarah Shrader, Owner and Co-Founder, Bonsai 
  Design; President, Outdoor Recreation Coalition of the Grand Valley
    Chairman Lowenthal, Ranking Member Gosar, and distinguished members 
of the Subcommittee, thank you for the opportunity to appear before you 
to discuss rural economic change in western Colorado. I live in Grand 
Junction, which is the largest community between Denver and Salt Lake 
City. This ``Grand Valley,'' in Mesa County, Colorado--with Palisade to 
the east and Fruita to the west--is defined by vast red rocks and high 
desert vistas, an 11,000-foot snow-capped mesa home to 300 natural 
lakes, with the mighty Colorado and Gunnison Rivers flowing through its 
heart. The Grand Valley has been on the leading edge of a change that 
is playing out in rural communities across the western United States.
                 economic history on the western slope
    Like many other western communities, our area has had an unsteady 
economic history throughout the 20th century, driven largely by the 
extractive fossil fuels industry. Historically, this industry has been 
the core economic driver in our community. This sector of economic 
activity has included oil, gas, shale development, coal mining, and the 
mining and milling of uranium and vanadium. Each of these waves of 
extractive development has provided jobs and prosperity when commodity 
prices have been high. Each period of prosperity has been followed by 
the inevitable bust when commodity prices fall or policies change. The 
damage in lost jobs, income, and associated social problems puts a 
tremendous strain on the community. This boom-and-bust cycle of 
extraction has taken a toll on not only the economy, but also the 
psychology of our community. Bust cycles create a sense of hopelessness 
that persists even into boom cycles, because it trains us to believe 
that economic prosperity is temporary. Furthermore, the pollution and 
other impacts to public land from the extraction industry threaten the 
quality of life and environmental attributes that are so closely 
connected to our region's emerging economic success as a center for 
outdoor recreation and magnet for new industries such as tech or 
advanced manufacturing.
    The results over time have been devastating. Mesa County's median 
household income is $13,000 below the state average. Fifty-six percent 
of jobs here pay less than $17.50 per hour. A full 22 percent of 
children here live in poverty, compared to 15 percent for the state. 
And the cycle is very hard to break. Without quality work force, it's 
hard to grow the economy, which makes it hard to improve schools, which 
makes it harder to improve the work force. Furthermore, an inadvertent 
consequence of dependence on an extraction economy is that it 
temporarily diminishes the importance of diverse skill sets and a post-
secondary education. Over time, communities like these end up with 
significantly less of the work force having a higher education. 
Locally, the number of kids graduating high school who obtain any kind 
of post-secondary education is 20 percent below the national average. 
In a time when companies chase a skilled and educated work force, we 
are at a significant competitive disadvantage.
    Like many states in the United States, Colorado's rural areas are 
struggling. Rural economies often depend on one industry. If that 
industry suffers economically, the entire community is left without a 
contingency plan. Sustainable economic success comes from a diversified 
economy, and many rural communities across the United States have not 
had these opportunities. Businesses are incentivized to grow and 
relocate to urban and suburban areas where there is a better work force 
and more infrastructure and commerce. But this has left large swathes 
of our country, mostly in rural areas, behind.
    The economic reliance on extraction industries--and the inevitable 
boom-and-bust cycle accompanying it--has been changing here in the past 
few years. A new trend is emerging as the Grand Valley shifts toward an 
outdoor-centric identity and economy that has potential to break the 
insidious cycle of poverty described above.
                             bonsai design
    In 2004, my family relocated to Grand Junction when my husband was 
offered a job as an airline captain with a regional airline. Shortly 
after, we started Bonsai out of our basement, deploying a small crew in 
the field to build aerial adventures, from ziplines to challenge 
courses, playgrounds, and canopy tours all over North America. To date, 
we've installed more than 500 ziplines, drawing tens of thousands of 
adventure seekers each year. We are a turnkey operation, providing 
everything from concept design to engineering, installation, training, 
inspections and maintenance, and component manufacturing.
    As our company grew and the North American aerial adventure 
industry flourished, we began innovating, testing, and manufacturing 
our own components like braking systems, trolleys, and other equipment. 
We also have been a part of developing and creating regulations for 
safety and participant experiences in the United States. Our company 
continues to grow, designing and constructing projects across the 
country, and becoming a leader in creating standards and efficiencies 
within the industry. Our notable projects include the Boy Scouts of 
America Jamboree site at the Summit Bechtel Reserve in Mt. Hope, West 
Virginia, where we built 26 courses between 2011-2013. To this day, 
that property has the most ziplines in one place in the world. We also 
have built our courses in ski areas all over the country. Currently, we 
are working with several municipalities, including the city of Rocklin, 
California and the city of Farmington, New Mexico, as they work to 
rebrand their communities as outdoor adventure hubs in their regions. 
These communities, too, have long been dependent on extraction and are 
now diversifying.
    Bonsai currently has over 50 people on the payroll, with 24 based 
at our headquarters in Grand Junction. Most of our employees are hired 
locally, with a talent pool emerging from outdoor enthusiasts as well 
as energy and construction workers. We are also proud to work with 
local fabricators, machinists, and engineers to create inspiring 
adventures for participants. Many highly skilled vendors, 
subcontractors, and workers who have historically worked for the oil 
and gas industry are now working with Bonsai.
    And we are not alone in building an emerging growth company in the 
Grand Valley. From manufacturers like Leitner-Poma and MRP, to 
agritourism businesses like Rooted Gypsy Farms and Carlson Vineyards, 
to service providers like Powderhorn Mountain Resort--the outdoor 
recreation industry is a growing force in western Colorado. In the 
Grand Valley alone, the outdoor industry contributes more than $300 
million annually to the local economy, providing thousands of jobs.
              the outdoor recreation industry in colorado
    The outdoor recreation industry is a $62.5 billion dollar industry 
in Colorado alone, employing about 511,000 Coloradoans.\1\ Meanwhile, 
the entire energy sector generates about $14.9 billion and creates jobs 
for about 274,000 people.\2\ In Mesa County, the oil, gas, and mining 
sector currently accounts for only about 3 to 4 percent of local 
employment.\3\ There has been a statewide effort to develop our outdoor 
recreation economy, and Colorado was one of the first states in the 
Nation to establish an Office of Outdoor Recreation to nurture the 
industry. Now there are over 10 similar offices in other states, and 
they are working together nationally to develop best practices in 
helping states and communities diversify their economies with outdoor 
recreation. Parks and protected public lands form a critical 
infrastructure for this emergent sector.
---------------------------------------------------------------------------
    \1\ https://cpw.state.co.us/Documents/Trails/SCORP/Final-Plan/
SCORP-AppendixF-Economic Contributions.pdf.
    \2\ https://www.colorado.gov/pacific/energyoffice/energy-colorado.
    \3\ https://www.coloradomesa.edu/business/documents/mesa-county-
economic-newsletter-q4-2018.pdf.
---------------------------------------------------------------------------
    In cooperation with and complementary to these statewide efforts, 
we developed a local Outdoor Recreation Coalition (ORC) to encourage 
and educate local elected leadership to the important role that the 
outdoor recreation industry could play in diversifying our economy and 
improving health and wellness. The ORC is a grassroots organization 
that represents a voice for not only outdoor recreation manufacturers, 
service and event providers, and retailers, but also for those who 
envision our valley developing into a thriving and vibrant economy for 
young families and growing businesses to relocate. Our mission is to 
expand and enhance the economy of the Grand Valley through 
collaborative support and promotion of outdoor recreation businesses 
and resources.
    During the ORC's first year, we worked on recreational development 
along the Colorado River and efforts to increase world-class mountain 
bike trails, as well as the recruitment of new businesses into the 
area. We were the first coalition of this kind in the state, and almost 
immediately accrued statewide recognition. When we connected with Luis 
Benitez, Director of Colorado's Outdoor Recreation Industry Office, the 
ORC became an example of what we could do across the state in rural 
communities to promote the outdoor recreation industry and help rural 
economies grow and thrive. We have built relationships with then-
Governor John Hickenlooper, Senators Michael Bennet and Cory Gardner, 
and current Governor Jared Polis, who have encouraged the promotion of 
the outdoor recreation industry and rural economic development.
    A business climate analysis in 2015 \4\ found that Mesa County 
possesses qualities unique to its location that are hard to duplicate 
and highly valued by local businesses. These include a strong sense of 
place; unique physical region; and outdoor activities such as river 
sports, skiing, climbing, hiking, camping, road biking, and mountain 
biking. Further, 74 percent of the county is public land. The nearby 
opportunities for outdoor activities not only bring people and 
companies to the area, but also make Mesa County a unique place to 
live. Our public lands have fueled growth in the outdoor recreation 
sector, and the access that we enjoy to the outdoors will continue to 
make our area a desirable place to live.
---------------------------------------------------------------------------
    \4\ https://www.gjcity.org/contentassets/
b29a975bdf804d5aa8ad258be6eb5b36/northstarreport. pdf.
---------------------------------------------------------------------------
    Outdoor recreation is not only a robust sector, but a growing one. 
Since 2014, total economic output and tax revenue from outdoor 
recreation in Colorado nearly doubled, and jobs increased by almost 
200,000. Outdoor recreation is ingrained in Colorado's culture, 
landscape, and quality of life, as well as its economic stability.\5\
---------------------------------------------------------------------------
    \5\ https://cpw.state.co.us/Documents/Trails/SCORP/Final-Plan/
SCORP-Executive-Summary.pdf.
---------------------------------------------------------------------------
    The irony in Grand Junction is that we have focused below the 
surface of the land to find economic prosperity. It has given some, 
yes; but as we have learned, it was a Faustian bargain. With a pivot to 
outdoor recreation, we are now looking at a sustainable use of our 
lands to drive the economy--without the punishing boom-and-bust 
vagaries of an extraction economy.
    Parks and protected public lands form a critical infrastructure for 
this emergent sector. And the threat of climate change poses an 
existential risk to the outdoor recreation industry, with our winter 
recreation sports already significantly impacted, losing an estimated 
$154 million in lost revenue and 1,900 fewer jobs statewide in low 
snowfall years.\6\
---------------------------------------------------------------------------
    \6\ https://protectourwinters.org/take-action/pow-colorado/.
---------------------------------------------------------------------------
    This growth in the local outdoor recreation industry occurred in 
tandem with development in our local higher education opportunities. 
Our community is home to one of the Nation's fastest growing 
institutions of higher learning, Colorado Mesa University, which now 
serves over 11,000 students each year. Naturally, a thriving university 
plays a critical role in diversifying our economy, enhancing the 
vibrancy of our town, and helping employers like Bonsai have access to 
top-notch talent across a variety of academic programs. It's not a 
coincidence that students from all over the country choose CMU so they 
can paddle the river and bike our trails. Recreation has become 
increasingly important to such students, and our incoming work force in 
general. Doctors, executives, software developers, and business owners 
are now choosing communities with wild spaces ripe for recreation over 
higher paying jobs in urban areas. The quality of life an outdoor-
centric community provides is compelling for the emerging work force.
                a different path: riverfront development
    In addition to providing local jobs, the outdoor recreation 
industry is leading efforts to redevelop and ignite Grand Junction's 
riverfront on the Colorado River. Long neglected and blighted, the 
riverfront was populated with junkyards, abandoned equipment, and an 
old uranium mill and Superfund Site. The community has worked hard to 
redevelop the riverfront, establishing a Riverfront Trail and 
encouraging parks and redevelopment.
    A central piece of the transition for our river has been the 
Riverfront at Las Colonias Business Park. With the city of Grand 
Junction, Bonsai is working to turn a barren stretch of land that was 
once home to literally tons of uranium mill tailings into a 15-acre 
business park featuring outdoor industry businesses like Bonsai Design, 
along with an amphitheater, green space, river recreation area, and 
boat ramp. Soon, it will also have a zipline over the Colorado River. 
This public-private partnership will attract other outdoor businesses 
and provide a space for residents and visitors alike to come together 
and enjoy the outdoors right in the heart of town.
                                summary
    Our community understands that the key to wealth is diversifying 
our economic base. Energy, tech, health care, and manufacturing jobs 
are crucial to economic vibrancy on the Western Slope. And these 
industries have a work force that demands access to recreation and the 
outdoors--both of which the Grand Valley has in abundance. We will 
continue building connections to our outdoor amenities and protecting 
the public lands that surround us in order to invest in our economy and 
the next generation. The outdoor recreation industry brings pride and 
opportunities back to a community that has struggled for decades. Even 
at a time when legacy industries, such as coal, are in decline, we are 
optimistic about what our future will look like.

    Thank you for your time today.

                                 ______
                                 

    Dr. Lowenthal. The Chair now recognizes Mr. Bissett.

   STATEMENT OF BILL BISSETT, PRESIDENT AND CEO, HUNTINGTON 
    REGIONAL CHAMBER OF COMMERCE, HUNTINGTON, WEST VIRGINIA

    Dr. Bissett. Mr. Chairman, Ranking Member Gosar, members of 
the Committee, my name is Dr. Bill Bissett. I am the president 
and CEO of the Huntington Regional Chamber of Commerce. Please 
know that my chamber represents more than 550 businesses and 
more than 30,000 employees in our region.
    It is also important to remember that West Virginia is the 
only state completely contained within Appalachia. And as an 
Appalachian, we like to think that where I am from is a gateway 
to a wonderful place that we call Appalachia.
    Economically, I bring you good news today from West 
Virginia. Since my return home to my home state more than 2 
years ago, we have gone from catastrophic job losses and 
declining state revenues to job growth in a state that is now 
stable and growing financially. Much of this previous economic 
downturn related to a severe decrease in the production of 
fossil fuels. But we are now witnessing a rebirth in both coal 
and natural gas production.
    With coal, we continue to be concerned with our Nation's 
inability to build new coal-fired power plants. Until this fact 
changes, the domestic market for steam coal, coal used to 
create electricity, will continue to decrease as coal plants 
are retired.
    However, the story is not often told that, in the southern 
coal fields of West Virginia, the economy is doing well due to 
metallurgical coal, or coal that makes steel, which is also 
known as met coal. This coal, which sells at a higher price and 
burns much hotter, is in great demand both in the United States 
and around the world.
    As we Americans discuss not only new infrastructure but 
also the maintenance of roads, bridges, and other large 
structures, large amounts steel will be needed, and I would 
hope that that steel would be made in the United States. And to 
make that steel, I would want us to use met coal from West 
Virginia.
    To the north in West Virginia, we see an expansion of 
natural gas production and tremendous investments in our 
state's future. From new wells to new pipelines, the jobs 
revenue and additional economic development related to this 
production of natural gas has spiked optimism and opportunity 
in our state.
    While I bring you good news economically from West 
Virginia, it comes with a caveat. As I talk to business leaders 
and job providers back home, many of them are thrilled to see 
this uptick, but they also find it fragile. In West Virginia, 
in the heart of Appalachia, we worry that, as a global issue 
like climate change is addressed, we worry that it will damage 
our economy in West Virginia far greater than any other state.
    My chamber is located outside the coal fields in West 
Virginia, but we are all too familiar what a downturn to coal 
production does to our regional. At a time when our country and 
the world needs steel and electric, met and steam coal 
production provides high-paying jobs not just for coal miners 
but engineers, lawyers, accountants, machinery workers, and 
numerous other service jobs that are dependent on the mining of 
coal for their existence.
    While we have witnessed the last downturn, we worry that 
actions here in Washington will damage West Virginia's 
rebounding economy, job growth, and long-term economic 
development.
    I believe and would suggest that many of my fellow West 
Virginians believe that we can produce coal and natural gas 
while also creating new economic opportunities for our 
citizens. We simply do not have to sacrifice one industry to 
create new opportunities.
    Some final thoughts. As a person fascinated with how we 
electrify this country every day in a reliable, low-cost way, I 
would suggest to you that what works for one state might not 
work well for other states. What works for Arizona and its 
economy probably doesn't work well for West Virginia. We are 
very different places.
    When the wind doesn't blow and the sun doesn't shine, we 
still need to power our homes and businesses, and fossil fuels, 
especially through combine cycle plants using both coal and 
natural gas, can provide this critical backbone of that 
electricity production.
    In my opinion, we need all forms of energy production. To 
make windmills and solar panels, you are going to need a lot of 
materials that come from underground, and that involves 
extraction of minerals and the use of land. As a senior 
engineer told me early in my career, every form of energy 
production has an economic and environmental cost to it.
    I think everyone in this room and on this panel would agree 
that no one wants to create poverty and hopelessness by their 
actions. As many of us Appalachians try to tell our stories 
beyond our borders, we worry that the future of our region and 
how impediments to our ability to produce natural resources 
will return us to what was a very dark period in my home state 
and in Appalachia.
    As climate change is a global issue, we must consider its 
impact in a global way and with a global solution. Sacrificing 
the economic future of West Virginia and Appalachia will have 
little impact on global man-made carbon, but you will succeed 
in creating more poverty, more hopelessness, and an uncertain 
future for those of us lucky enough to call West Virginia home.
    Thank you again for allowing me to share my thoughts with 
you today. It has been an honor.

    [The prepared statement of Dr. Bissett follows:]
  Prepared Statement of Dr. Bill Bissett, President & CEO, Huntington 
                      Regional Chamber of Commerce
    Mr. Chairman, members of the House Natural Resources Committee--my 
name is Doctor Bill Bissett and I am the President and C.E.O. of the 
Huntington Regional Chamber of Commerce in my hometown of Huntington, 
West Virginia.
    Please know that my Chamber represents more than 550 businesses and 
30 thousand employees in our region. It is also important to remember 
that West Virginia is the only state completely contained within 
Appalachia, and, as an Appalachian, we like to think that where I'm 
from is the gateway to this wonderful place we call Appalachia.
    Economically, I bring you good news from West Virginia. Since my 
return to my home state more than 2 years ago, we have gone from 
catastrophic job loses and declining state revenues to job growth and a 
state that is now stable and growing financially. Much of this previous 
economic downturn related to a severe decrease in the production of 
fossil fuels, but we are now witnessing a rebirth in both coal and 
natural gas production.
    With coal, we continue to be concerned with our Nation's inability 
to build new coal-fired power plants. Until this fact changes, the 
domestic market for steam coal--coal used to create electricity--will 
continue to decrease as coal plants are retired. However, the story 
that is not often told is that, in the southern coalfields of West 
Virginia, the economy is doing well due to metallurgical coal, or coal 
that makes steel, which is also known as met coal. This coal, which 
sells at a higher price and burns much hotter, is in great demand both 
in the United States and around the world. As we Americans discuss not 
only new infrastructure but also the maintenance of roads, bridges and 
other large structures, large amounts of steel will be needed, and I 
would hope that we would use steel made in the United States. And to 
make that steel, I would want us to use met coal from West Virginia.
    To the north in West Virginia, we see the expansion of natural gas 
production and tremendous investments in our state's future. From new 
wells to new pipelines, the jobs, revenue and additional economic 
development related to the production of natural gas have spiked 
optimism and opportunity in our state. While I bring good news to you 
economically from West Virginia, it comes with a caveat. As I talk to 
business leaders and job providers back home, many of them are thrilled 
to see this uptick, but they also find it fragile. In West Virginia, in 
the heart of Appalachia, we worry that, as a global issue like Climate 
Change is addressed, it will damage the economy of West Virginia far 
greater than any other state.
    My Chamber is located outside of the coalfields in West Virginia, 
but we are all too familiar with what a downturn in coal production 
does to our region. At a time when our country and the world needs 
steel and electricity, met and steam coal production provides high-
paying jobs, not just for coal miners, but engineers, lawyers, 
accountants, machinery workers, and numerous other service jobs that 
are dependent on the mining of coal for their existence. While we have 
withstood the last downturn, we worry that actions here in Washington 
will damage West Virginia's rebounding economy, job growth, and long-
term economic development.
    I believe, and would suggest that many of my fellow West Virginians 
believe, that we can produce coal and natural gas while also creating 
new economic opportunities for our citizens. We simply do not have to 
sacrifice one industry to create new opportunities.

    Some final thoughts.

    <bullet> As a person fascinated with how we electrify this country 
            every day in a reliable and low-cost way, I would suggest 
            to you that what works for one state might not work for 
            other states. What works for Arizona and its economy 
            probably doesn't work well for West Virginia. We are very 
            different places. When the wind doesn't blow and sun 
            doesn't shine, we still need to power our homes and 
            businesses, and fossil fuels, especially through combined 
            cycle plants using both coal and natural gas, can provide 
            this critical backbone of electricity production.

    <bullet> In my opinion, we need all forms of energy production. To 
            make windmills and solar panels, you're going to need a lot 
            of materials that come from underground. And that involves 
            the extraction of minerals and the use of land. As a senior 
            engineer told me early in my career, every form of energy 
            production has an economic and environmental cost to it.

    <bullet> I think everyone in this room and on this panel can agree 
            that no one wants to create poverty and hopelessness by 
            their actions. As many of us Appalachians try to tell our 
            story beyond our borders, we worry about the future of our 
            region and how impediments to our ability to produce 
            natural resources will return us to what was a very dark 
            time in my home state and in Appalachia. As Climate Change 
            is a global issue, we must consider its impact in a global 
            way, and with a global solution. Sacrificing the economic 
            future of West Virginia and Appalachia will have little 
            impact on global man-made carbon, but you will succeed in 
            creating more poverty, more hopelessness, and an uncertain 
            future for those of us lucky enough to call West Virginia 
            home.

    Thanks you again for allowing me to share my thoughts with you 
today. It has been an honor.

                                 ______
                                 

    Dr. Lowenthal. The Chair now recognizes Mr. Hille.

   STATEMENT OF PETER HILLE, PRESIDENT, MACED, THE MOUNTAIN 
ASSOCIATION FOR COMMUNITY ECONOMIC DEVELOPMENT, BEREA, KENTUCKY

    Mr. Hille. Mr. Chairman, Mr. Ranking Member, members of the 
Subcommittee, my name is Peter Hille. I am the president of 
MACED, and I am glad to be talking with you today about a just 
transition to a new economy for coal-impacted communities.
    This is a map of Appalachia showing the economically 
distressed counties in red. They fall into the bottom 10 
percent of all the counties in the Nation. And this map has 
remained largely unchanged for decades. The long history of 
coal mining in Appalachia did not create prosperous communities 
because, in the early days, these were not jobs that paid well. 
You load 16 tons, and what do you get? Another day older and 
deeper in debt. That is why Lyndon Johnson declared war on 
poverty from a front porch in eastern Kentucky.
    By the end of World War II, we had 75,000 coal mining jobs 
in Kentucky. But in the 1950s, the jobs began to be mechanized. 
Over the next several decades, coal production went up and 
down, and mostly up. But as the jobs became more technical, 
they paid better. But with bigger machines, more coal could be 
produced with fewer workers.
    On this chart, the upper line shows production. The lower 
line shows jobs declining. Then, in 2012, something 
unprecedented happened. For the first time, natural gas per BTU 
became cheaper than coal. When these lines crossed, the coal 
industry collapsed. Suddenly we lost 10,000 jobs, half the 
remaining jobs of mining in our state. This has been a very 
real tragedy for the miners, their families, their communities, 
and all the other businesses that relied on those earnings.
    But this is a tragedy that sits on top of a disaster. The 
disaster is the fact that, even before we lost those 10,000 
jobs, this region had been economically distressed for 
generations.
    So, the question is not how do we replace those 10,000 
mining jobs and get back to where we were; the question is, how 
do we go forward? How do we build a new economy for Appalachia, 
an economy that is more diverse, resilient, sustainable, and 
equitable, because the old economy was none of those things.
    We call this just transition. And the justice we call for 
in this transition is based on the reality that these 
communities and communities like ours literally fueled the 
growth of this great Nation. And they sacrificed lives, 
families, health, water, prosperity, even as they gave us the 
timber that built our towns, the coal that fired our 
industries, and the steel that made our cars.
    They are owed a debt, and we can repay that debt with the 
new investments that are needed to grow the new economy. We 
must reinvest in our communities, many of which have lost more 
than half of their population to out-migration. We must make 
them places where the young people growing up there want to 
stay, where those who went off to college or their first job 
want to come back, where people who left to find work and had 
successful careers somewhere else might come back to retire, 
and where the tourist who comes to visit decides they would 
like to stay.
    All of the amenities and resources needed to revitalize 
these communities are themselves economic drivers, creating 
jobs and livelihoods: the local food restaurant, the coffee 
shop, the farmers market, the craft brewery, housing, health 
care, and the quality of life that many people are looking for 
today.
    So, we envision an economic transition driven by 
entrepreneurs whose businesses create goods and services to 
drive diverse local economies and focus on sectors that not 
only generate economic activity but also generate benefits for 
the community.
    For example, at the nexus of food and energy, Gwen Christon 
owns a grocery store at a crossroads in Letcher County, 
Kentucky. She invested half a million dollars in energy 
efficiency and now saves $40,000 a year in utility costs. The 
store looks so much better that her sales are up 7 percent, and 
she has hired two more full-time workers.
    Here is Scott Shoupe. Scott is a fourth-generation coal 
miner. But after 22 years in the mines, he is now participating 
in our new energy interns program, which is funded by an ARC 
power grant. Scott is learning to do energy audits and 
retrofits and plans to start his own energy efficiency 
business.
    This is Tim Robinson. He started a drug treatment program 
that now has facilities across eastern Kentucky. We financed 
one of those centers and also implemented energy efficiency 
measures that resulted in enough savings for them to buy a new 
van.
    There are many more examples to share, but the important 
thing is this: There is hope in these communities, and there 
are people who are digging in hard to create a brighter future. 
Investments like the Appalachian Regional Commission's power 
grants, the AML pilot program, and the proposed RECLAIM Act 
represent important investments that can support these 
grassroots efforts.
    And as we build this new economy, we need to ensure that it 
creates a future with opportunities for all, meeting diversity 
with equity, and that we attend to the sustainability that is 
needed for our children and our grandchildren to thrive and for 
our planet to survive.
    Thank you.

    [The prepared statement of Mr. Hille follows:]
   Prepared Statement of Peter Hille, President, MACED, The Mountain 
    Association for Community Economic Development, Berea, Kentucky
    Mr. Chairman, Mr. Ranking Member, members of the Subcommittee, 
thank you for the opportunity to present this testimony about our work 
and the conditions in coal impacted communities. MACED is a Community 
Development Financial Institution certified by the CDFI Fund of the 
U.S. Treasury. We manage a loan portfolio of nearly $20 million 
invested in small business across Appalachian Kentucky. We are deeply 
engaged in a range of initiatives to advance a Just Transition to a new 
economy for coal impacted communities in Appalachia and beyond.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    This is a map of Appalachia showing the economically distressed 
counties in red. They fall into the bottom 10 percent of all the 
counties in the Nation as measured by per capita income, poverty rate 
and 3-year average unemployment. Despite this map has remained largely 
unchanged for decades. That doesn't negate the value of vast 
investments that have been made--there have been many improvements and 
much work has been done. The Appalachian Regional Commission has been a 
key player ever since it was created and recent increases to its budget 
through the POWER Initiative have helped a lot. But we still have a 
long way to go.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    The long history of coal mining in Appalachia did not create 
prosperous communities partly because in the early days these were not 
jobs that paid well--``You load 16 tons and what do you get, another 
day older and deeper in debt.'' That's why Lyndon Johnson launched the 
War on Poverty from a front porch in eastern Kentucky.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    At the end of WWII, we had 75,000 coal mining jobs in Kentucky. 
But in the 1950s the UMWA signed an agreement with the mine operators 
for the mines to be mechanized. Over the next several decades coal 
production went up and down, overall increasing significantly until 
recent years (blue line above). And as the jobs became more technical, 
they paid better, a high school graduate could make $60,000 to $80,000 
per year, making these some of the best-paying jobs in the region. But 
with long-wall mining machines underground, then the advent of strip 
mining and finally mountaintop removal mining, more coal could be 
produced with fewer workers. On the chart above, lower line shows how 
jobs continued to drop relative to production. By 2011 we were down to 
fewer than 20,000 jobs.

    Meanwhile, the dominance of coal largely displaced other large 
scale approaches to economic development that would have created a more 
diverse and resilient economy. Through decades of boom and bust in the 
coal industry, it was too easy to believe, with each downturn, that 
coal would come back. There was little effort put into developing other 
sectors of the economy, not enough major investment in education, 
health care, child care, housing and civic infrastructure. To the 
extent we did see progress, it was often the result of relatively small 
local efforts or the work of regional non-profits supported largely by 
private philanthropy.

    We also saw significant retrenchment on the part of both private 
philanthropy and the Federal Government in rural America in general and 
Appalachia in particular as attention and resources were redirected to 
pressing problems in urban areas. Disparities in essential new economy 
assets like broadband and cell service compounded the other problems 
cited above. All these factors contributed to a growing sense among 
rural people that they were being left behind.

    Almost 20 years ago, then-Governor Paul Patton, himself a former 
coal operator, made this observation: ``As much as coal has meant to 
us, it still has not built for us a self-sustaining economy. It's got 
to be more varied--got to be more broad. In the early 1970s we had an 
economic developer's dream come true. We had more high tech jobs than 
we could ever imagine in the coal industry, and it still didn't solve 
the chronic problems of the region. So we have to build that basic 
economic foundation.'' But we didn't do that, and it set the scene for 
what came next.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    In 2012, something unprecedented happened. For the first time, 
natural gas, became cheaper than coal as a result of the boom in 
fracking. The graph above shows the prices for coal and natural gas in 
MMBTUs. When these lines crossed, the coal industry collapsed. Suddenly 
we lost 10,000 jobs, half of the remaining coal mining jobs in our 
state. Bankruptcies of several major coal companies followed as natural 
gas took on an increasing share of electrical generation.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    The collapse of the coal industry has been a very real tragedy 
for the miners, their families, their communities and all the other 
businesses that relied on those earnings, from grocery stores to car 
dealers to home builders. It has also devastated local government 
budgets, as they saw reduced local tax revenues compounded by a sharp 
decline in coal severance taxes which they had come to rely upon as a 
significant source of revenue for local services.
    The collapse of the coal industry is a tragedy, but it is a tragedy 
that sits on top of a disaster. That disaster is the fact that even 
before we lost those 10,000 jobs, this region had been economically 
distressed for generations. These economic realities have predictable 
correlates in other areas as well--low educational attainment, among 
the worst health statistics in the Nation, and demographic shifts due 
to outmigration because of a lack of good paying jobs, resulting in a 
population that is disproportionately made up of the very old, the very 
young, and many who are unable to participate in the labor force. We 
also face the same opioid epidemic that plagues many other rural areas. 
All of that was true before the collapse of the coal industry.
    So the question is not how do we replace those 10,000 or more jobs, 
and get back to where we were. The question is how do we go forward, 
how do we build a new economy for Appalachia and for other coal 
impacted communities--an economy that is more diverse, resilient, 
sustainable and equitable. Because the old economy was none of those 
things.

    A diverse economy will rely on many small businesses in different 
sectors. These provide the goods and services needed in the community 
and keep more money circulating in the local economy.

    A resilient economy will be less reliant on a large single industry 
so we are not vulnerable to sudden shifts in that sector as we have 
been in the past.

    A sustainable economy will be built on balance rather than 
unchecked growth, respecting the natural ecologies of place--air, land, 
water, people and culture.

    An equitable economy will provide opportunities for all and, 
perhaps even more importantly, the benefits of the economy will be more 
widely shared. We need to address all the ways that people have been 
marginalized, including race, age, gender and gender identity, 
ethnicity and socio-economic status.

    We call this Just Transition. And the justice we call for in this 
transition is based on the reality that our communities, and 
communities like ours, literally fueled the growth of this great 
Nation. And they sacrificed--lives, families, health, water, 
prosperity--even as they gave us the timber that built our towns, the 
coal that fired our industries, the steel that made our cars.
    These communities are now bearing the brunt of global changes in 
the energy economy. They are owed a debt for the sacrifices they have 
made, and we can repay that debt with the new investments that are 
needed to grow the new economy. We must reinvest in our communities, 
many of which have lost more than half of their population to 
outmigration. We must make them places where the young people growing 
up want to stay; where those who went off to college or their first job 
want to come back; where people who left to find work and had 
successful careers elsewhere might come back to retire; and where the 
tourist who comes to visit decides they'd like to stay.
    All of the amenities and resources needed to revitalize these 
communities and make them attractive and livable places are themselves 
economic drivers creating jobs and livelihoods--the farmers market, the 
local foods restaurant, the coffee shop, the music venue, the craft 
brewery, the retirement community, housing, healthcare, and recreation 
all contribute to a quality of life that many people are looking for 
today.
    So we envision an economic transition driven by entrepreneurs whose 
businesses create goods and services to drive diverse local economies, 
and focus on sectors that not only generate economic activity but also 
generate benefits for the community.
    The dynamic relationship between entrepreneurial ecosystems, 
enterprises, market sectors and community benefits are captured in 
MACED's Economic Transition Model (following page). This model 
recognizes that investment in key sectors cannot only generate economic 
activity but also results in additional benefits to the community and 
the people who live there. For example, local healthcare facilities 
provide jobs, but also make care more accessible if residents don't 
have to travel to get the care they need--and the dollars spent on 
health care remain in the community. Similarly, retrofits to increase 
energy efficiency create jobs for the installers while also making 
homes healthier, safer and more comfortable and make businesses more 
profitable. The reduction in carbon output benefits all of us. Similar 
multiple benefits apply to the other market sectors identified in the 
model.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    The five gears in this model represent the dynamic relationship 
between the entrepreneurial ecosystem, enterprises and markets. The 
entrepreneurial ecosystem supports new entrepreneurs, who in turn 
create enterprises that produce goods and services, which feed into 
markets.
    The small arrows pushing the gears represent active measures that 
can be implemented to accelerate the process and magnify the impacts. 
At the right-hand side of the model are promising market sectors that 
MACED has identified and the additional community.
    A functioning entrepreneurial ecosystem generates new entrepreneurs 
and also builds models for success in communities, which raises local 
capacity. Enterprises create goods and services that feed into markets, 
but also produce jobs and local spending power that help support local 
markets.
    The five arrows at the bottom (increased community capacity, 
livelihoods for families, sustainable local economies, diverse regional 
economy and stronger communities) are all results of the various
Examples
    There are many examples of exemplary work that illustrate the 
potential to grow a new economy:

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    At the nexus of local food and energy, Gwen Christon owns a 
grocery store at a rural crossroads in Letcher County, Kentucky. She 
invested half a million dollars in energy efficiency and now saves 
$40,000 a year in utility costs. The upgrade was financed with a 
$100,000 USDA REAP grant and $400,000 in financing from MACED. The 
energy savings cover the debt service. The store looks so much better 
that her sales are up 7 percent and she has hired two more full-time 
workers.
    The energy savings have also helped her cut some of her prices 
which also contributes to the increased sales. The next nearest grocery 
store is 10 miles away, so without this store the surrounding area 
would be a food desert. By including more local produce in her store, 
Gwen is also helping to support local growers, keeping more money 
circulating in the local economy.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Scott Shoupe is a fourth generation coal miner. After 22 years 
in the mines he is now participating in MACED's New Energy Interns 
program, funded by a 2016 ARC POWER grant. Scott is learning to do 
energy audits and retrofits, and plans to start his own energy 
efficiency business. Commercial energy retrofits can pay for 
themselves, often rapidly, by reducing both the energy usage and the 
demand charges on the utility bills. One grocery warehouse in Kentucky 
is now saving $100,000 per year after investing $200,000 in a lighting 
retrofit.

MACED'S New Energy Interns were recently featured in a video by Fortune 
Magazine:

    https://maced.org/energy/new-economy-work-featured-by-fortune-
magazine/

New Energy Interns in Yes! Magazine:

    https://www.yesmagazine.org/planet/energy-conservation-jobs-come-
to-coal-country -20181005

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    This is Tim Robinson, pictured here with Congressman Hal 
Rogers. Tim started a drug treatment program that now has facilities 
across eastern Kentucky. MACED financed one of those centers and also 
implemented energy efficiency measures that resulted in enough savings 
for them to buy a new van.

    https://www.arccenters.com/

    https://www.youtube.com/watch?v=hkiWwO3TFFY

MACED Program Innovations
    How$martKY is a MACED program that provides residential on-bill 
financing for energy efficiency retrofits. The customer pays nothing 
upfront, the utility pays the contractor, and places a charge on the 
customer's bill to recover the investment, plus interest. The annual 
savings are greater than the charge on the bill, so the customer comes 
out ahead and the utility benefits from the demand reduction. 
Contractors get jobs and the customer gets a healthier and more 
comfortable home. Everybody wins.

    Energy Efficient Enterprises (E3) provides energy efficiency for 
commercial enterprises as well as the financing needed to implement the 
measures. Payback for commercial efficiency is often much faster than 
residential retrofits due to reduction in demand charges alongside of 
the reduction in kWh usage. Currently MACED is developing a new 
financing tool to support solar installations for small commercial 
enterprises. Rising electric rates are increasing the interest in solar 
for these businesses in our region.

    Creative application of capital is needed to support economic 
transition in economically distressed regions. MACED has been 
pioneering several tools designed to allow us to finance start-ups and 
business. We have created a Venture Capital Loan Fund that can make 
higher risk investments and offer flexible repayments so as not to 
cash-starve the enterprise in the early stages. We have also created a 
collateral support fund as a donor-advised fund at a regional community 
foundation. Another innovation is our crowd-match loan through which we 
can match crowd-sourced capital (from platforms like Kiva or 
Kickstarter) one-to-one up to $10,000 with a loan that doesn't require 
credit score or collateral. We use the ability to crowd source the 
other funds as a proxy for the credit-worthiness of the enterprise. The 
CDFI Fund and the ARC POWER fund have provided important support for 
these innovations.
New Federal Investment
    The Appalachian Regional Commission's POWER Initiative, the AML 
Pilot Grants and the proposed RECLAIM Act are important examples of how 
new Federal investment can support work on the ground in these 
communities. POWER has added capacity to organizations large and small 
across the coalfields of Appalachia and spurred new and expanded 
programs to support entrepreneurship and a range of innovative 
approaches to economic transition. A recently announced AML Pilot Grant 
for the town of Benham in Harlan County will upgrade and expand 
facilities there related to coal heritage tourism. We appreciate the 
fact that programs like this have gotten, and continue to get, support 
from both sides of the aisle.

    There are many more examples to share, but the important thing is 
this--there is hope in these communities, and there are people who are 
digging in hard to create a brighter future.
    Investments like the ARC POWER grants, the AML Pilot Program and 
the RECLAIM Act represent important investment that can support these 
grassroots efforts. And as we build this new economy, we need to ensure 
that it creates a future with opportunities for all, meeting diversity 
with equity, and that we attend to the sustainability that is needed 
for our children and grandchildren to thrive, and for our planet to 
survive.
Links for more information
Information about MACED programs

    <bullet> https://maced.org/

    <bullet> ACED Five-year Impact Report:

      https://maced.org/wp-content/uploads/MACED-
            ImpactReport_Nov2018_final_ sm.pdf

    <bullet> Fortune Magazine video featuring MACED's New Energy 
            Interns:

      https://maced.org/energy/new-economy-work-featured-by-fortune-
            magazine/

    <bullet> Strategies for Just Transition:

      https://maced.org/wp-content/uploads/2018/05/
            MACED_strategy_briefs_ web.pdf

Appalachian Regional Commission reports
    <bullet> Distressed Counties maps FY2002-FY2019:

      https://www.arc.gov/research/MapsofAppalachia.asp

    <bullet> Appalachian Coal Industry Ecosystem:

      https://www.arc.gov/assets/research_reports/CIESummary-
            AppalachianCoal IndustryEcosystemAnalysis.pdf

    <bullet> Entrepreneurial Ecosystems:

      https://www.arc.gov/research/
            researchreportdetails.asp?REPORT_ID=147

    <bullet> Additional reports:

      https://www.arc.gov/research/ResearchReports.asp

Appalachia Funders Network
    <bullet> https://www.appalachiafunders.org/

Kentucky Coal Data from the Kentucky Energy and Environment Cabinet
    <bullet> http://energy.ky.gov/Pages/CoalFacts.aspx

                                 ______
                                 

    Dr. Lowenthal. Thanks.
    The Chair now recognizes Mr. Dennison to testify.

   STATEMENT OF BRANDON DENNISON, FOUNDER AND CEO, COALFIELD 
             DEVELOPMENT, HUNTINGTON, WEST VIRGINIA

    Mr. Dennison. Thank you, Mr. Chairman, Ranking Member, 
Committee members.
    Investing in the economic revitalization of the communities 
that have been extraction-based, that have sacrificed the most 
to fuel, this country must be front and center in the shaping 
of policy addressing climate change. Doing so cannot be an 
afterthought.
    As I think about this issue, I think about Wilburn. Wilburn 
is an on-the-job trainee with Coalfield Development. He was a 
miner for 17 years in Mingo County, West Virginia. And like so 
many other miners, in 2015, he was laid off when his mine shut 
down. He had to go on public assistance, something he would 
tell you he hated to do but had to do to feed his family.
    Coalfield Development was able to put Wilburn back to work 
through a sustainable agriculture business that we incubated. 
This business converted a former mountaintop removal mine site 
into a sustainable farm where we sell fresh food products 
throughout the region.
    Wilburn and his fellow crew members work by what we call 
our 33-6-3 model: 33 hours a week of paid work, just like you 
would for any other business; but 6 hours a week of higher 
education classroom time working toward an associate's degree; 
and 3 hours a week of personal life skill development.
    At the end of their 2.5 year contract, crew members 
transition from being unemployed and in need of public 
assistance to being trained workers with an associate's degree. 
We have started new businesses in biobased manufacturing, 
solar, construction, arts and culture in retail sectors. We 
have helped start over 50 new businesses and retrained over 800 
formerly unemployed people.
    The farm where Wilburn works sits next to an active 
mountaintop removal site. And one morning, without trying to be 
profound, Wilburn was feeding the hens and the hogs. And you 
could see the active mountaintop removal happening just a 
couple acres away. And this is a process of huge equipment, 
equipment the size of a building moving just massive amounts of 
earth, what is called overburden. And the overburden tumbles 
down these steep ledges, and massive dust clouds go up.
    And Wilburn looked up and watched this happening. And he 
said: Well, I reckon that there is the past, and this here is 
the future.
    The coal industry will never again be the dominant industry 
it once was. And this fact creates deep pain for those of us 
living in Appalachia, especially our miners. The transition 
away from coal, which is already underway, by the way, isn't 
just creating an economic crisis. It is a social crisis 
directly related to the opioid epidemic. And it is an 
environmental crisis leaving massive scars on our landscape 
that have to be dealt with.
    But the fact that coal isn't coming back doesn't mean that 
Appalachia has no future. The void left by coal's collapse is 
actually making room for new entrepreneurial spurts to grow up. 
And Appalachia can be a vital contributor in the fight against 
climate change. And Appalachia is no more guilty of 
contributing to climate change than most people in this country 
who have had to flip on their lights at night.
    With smart Federal policy and investment, our country can 
accelerate these new sprouts of entrepreneurship. We need a 
national just transition task force to give focus. We need to 
create a national program to support coal communities in 
transition. The power program is a great start. We can grow 
from there. And we need to pass Federal legislation, exactly 
what Peter mentioned, that improves conditions for former coal 
workers and distressed Appalachian communities especially 
relating to the black lung crisis.
    If we don't pay attention to the economic hurt of 
extraction communities and invest in solutions that show there 
is a viable path forward, we will only deepen the division in 
our country. We in Appalachia need to know we are valued, and 
the country needs to know we have more to offer than just coal. 
Too often, when discussing economic transitions, policy makers 
announce: ``Well, we can just retrain those people.''
    And I do need to say that that is always way easier said 
than done.
    There are thousands of laid-off miners who have 
participated in Federal training programs. They got a new 
certificate. But it doesn't matter because there aren't 
businesses left to take that certificate and get employed in.
    So, at Coalfield Development, we have had to be much more 
holistic. We have to create new businesses at the same time as 
training new employees to staff those businesses and have a 
modern work force. We need maximum flexibility at the ground 
level to pull this off.
    Wilburn is one of thousands of miners whose life was rocked 
by the shutdown of his mine. But at age 45, he is about to 
become a college graduate. He has helped us start an entire new 
business that sells food products throughout the region. 
Wilburn has transformed a moment of crisis into a 
transformational opportunity for himself and his family. With 
your support, an entire region can do the same.

    [The prepared statement of Mr. Dennison follows:]
  Prepared Statement of Brandon Dennison, CEO, Coalfield Development 
                              Corporation
    Chairman, Ranking Member, and distinguished members of the 
Subcommittee, thank you for the opportunity to talk with you today.
    My name is Brandon Dennison. I am the founder and CEO of Coalfield 
Development Corporation, As a non-profit, Coalfield serves as an 
umbrella for a family of social enterprises in southern West Virginia. 
Coalfield is working to rebuild the Appalachian economy from the ground 
up, trying to show what a healthier and more diversified economy can 
look like in a place long, long dominated by the coal industry.
    The transition from coal is happening. And it has to happen. For 
economic, environmental, and social reasons, our communities must make 
this transition. But while there's lots of talk about ``greening our 
economy'' and ``transitioning off coal,'' there's much less 
understanding about how hard this really is. Today, I want to provide 
concrete examples of what a just transition can and should look like.
                        the view from appalachia

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Wilburn is an on-the-job trainee, a crew member with Coalfield 
Development. Wilburn worked for 17 years as a coal miner in Mingo 
County, West Virginia. Like so many other coal miners, Wilburn was laid 
off in 2015 and had to be placed on public assistance.
    Coalfield was able to put Wilburn back to work on a sustainable 
agriculture project, which converted a former mountaintop removal mine 
into an active farm. Today, local farmers sell fresh and healthy food 
products from this site throughout West Virginia. Wilburn and his 
fellow crew members work by our 33-6-3 model each week: 33 hours of 
paid work, 6 hours of higher education, and 3 hours of life-skills 
development.
    At the end of their 2.5 year contract, crew members transition from 
being unemployed and in need of public assistance, to trained workers 
with an Associate's Degree. Many have even developed business plans for 
new start-ups. This model has been proven to work. It's been used to 
start new businesses in the bio-based manufacturing, solar, 
construction, arts and culture, and retail sectors. Coalfield 
Development has helped start over 50 new businesses and created 190 new 
jobs. We've retrained over 800 formerly unemployed people.
    The farm where Wilburn worked sits next to an active mountaintop 
removal mine. As we fed hogs and chickens each morning, equipment the 
size of buildings moved massive amounts of dirt (called over-burden) 
off of high, steep ledges, as dust clouds ballooned up into the sky. 
One morning as he worked, without meaning to be profound, Wilburn 
watched as this over-burden tumbled down. He then looked over at new 
crops growing up on our site and said, ``I reckon that there is the 
past, and this here is the future.''
                          the decline of coal
    I'm here today as a young man born and raised in West Virginia. My 
wife and I are raising our 2-year-old son in West Virginia, and we're 
expecting another boy in a matter of weeks. Coalfield Development was 
born out of much love by West Virginians for West Virginians. And my 
view from the ground--deep in coal country--is this: Coal is not coming 
back.
    The coal industry will never be the dominant industry in Appalachia 
that it was for generations. This fact creates deep pain for those of 
us living in Appalachia, especially for our miners. The transition away 
from coal is creating an economic crisis, causing high unemployment and 
low labor participation. It's creating a social crisis, leading to an 
addiction epidemic. And it's creating an environmental crisis, as 
closed coal mines leave scarred and polluted landscapes in their wake.

    We know the coal industry is shrinking, and institutions from the 
government's own Energy Information Administration to Standard and 
Poors--and more--all agree:

  1.  The U.S. coal-mining industry is in a permanent structural 
            decline. The industry is facing a new market order, and it 
            can't compete with less expensive and more flexible rival 
            fuel sources. For these reasons, it won't likely regain its 
            once-predominant market position. This shift in markets is 
            occurring because the economics of coal-fired generation no 
            longer make the same sense they once did. A decade and a 
            half ago, coal provided more than 50 percent of all fuel 
            for U.S. power generation. Today that share is less than 30 
            percent. Renewables have taken a bite out of coal's 
            traditional hold on power markets. In an outlook published 
            just last month,\1\ the Energy Information Administration 
            sees 24 gigawatts of new, renewable generation capacity 
            coming on-line this year, 46 percent from wind, 18 percent 
            from solar, the rest from natural gas--and none from coal.
---------------------------------------------------------------------------
    \1\ https://platform.mi.spglobal.com/web/client?auth=inherit#news/
article?id=49528076&key productlinktype=2.

  2.  Initiatives to reverse coal's decline are unlikely to succeed. 
            The structural changes in the U.S. domestic coal market 
            have caused the industry to scramble to regain its footing 
            by promoting expansion of exports and by embracing the 
            potential of ``clean coal,'' or carbon capture and 
            sequestration (CCS) projects. Neither the export nor the 
            CCS initiatives have a very good chance of succeeding. In 
            addition, hoped-for regulatory relief in the guise of 
            Federal policy reversals has been realized only 
            theoretically. While the Trump administration has moved to 
            ease emissions restrictions on power plants and 
            environmental rules on mining, neither activity has slowed 
            the decline of coal. There are still far fewer coal-mining 
            jobs today than there used to be--the overall trend is 
            toward fewer and fewer--and coal-fired power generation is 
---------------------------------------------------------------------------
            less competitive than it was 2 years ago.

  3.  More plants and mines will close as the economics of coal-fired 
            power generation no longer make sense. According to 
            research from the Institute for Energy Economics and 
            Financial Analysis, a leading energy markets think tank, at 
            least 36.7GW of coal-fired capacity stand to be retired 
            from 2018 through 2024--117 units in total--and that is a 
            highly conservative estimate.\2\ Announced retirements will 
            cut coal-fired capacity by at least 15 percent through 
            2024, a figure that very likely understates the trend. 
            Fully two-thirds of 2018's retirements were only announced 
            in 2017, a clear indication that utilities have shortened 
            their lead time on closures.
---------------------------------------------------------------------------
    \2\ http://ieefa.org/ieefa-report-u-s-likely to-end-2018-with-
record-decline-in-coal-fired-capacity/.

  4.  A resurgence in coal mining is unlikely. Further restructuring of 
            the coal mining industry appears inevitable in the face of 
            a shrinking customer base, fleet overcapacity, and intense 
            competition--mainly from natural gas and renewables. The 
            structural decline of the coal industry will drive more 
            coal-fired power plants out of business. A resurgence in 
            coal production--regionally or nationally--is unlikely. 
            Domestic demand for coal will continue to drop, export 
            strategies will not save producers, carbon capture and 
            storage schemes meant to sustain the industry are not 
            viable, and regulatory relief will continue to prove 
            ineffective. Without a robust customer base of the type it 
            has historically had, the U.S. coal industry will continue 
            to contract and consolidate. As demand for coal continues 
---------------------------------------------------------------------------
            to shrink, so too will production.

                     an action agenda for congress
    But hidden in the pain and fear is opportunity and renewal. Like 
Wilburn converting a former surface mine into a sustainable farm, we 
can find the solutions to our problems within these very problems 
themselves. The national attention on Appalachia--and the plight of 
former coal workers and the economic hurt of coal communities--presents 
an opportunity. Congress should immediately act to:

  1.  Create a national just transition task force. A smart, just, and 
            fair transition away from coal will be difficult, and the 
            transition will affect the entire country, in places where 
            coal mining and coal plants are closing. While Appalachia 
            has been first and hardest hit, other regions aren't far 
            behind. We could and should learn from other countries, 
            like Canada and Germany, and create a national just 
            transition task force, which could comprehensively assess 
            this energy and economic transition, and work with leading 
            public and private sector partners to identify relevant 
            regional solutions. This effort should put grassroots 
            organizations and for-profit innovators in leadership 
            positions.

  2.  Create a national program to support coal communities in 
            transition. In 2015, President Obama introduced his POWER + 
            program, a portion of which made economic and work force 
            development grants available to help support coal 
            communities in transition. POWER focused on economic 
            development and diversification; the effort wasn't just 
            about creating new jobs, but it focused on diversifying and 
            strengthening local economies, so they could more 
            resilient. While pieces of this original program still 
            exist, total funding allocations are small. Congress could 
            immediately put resources to work, and build off of the 
            excellent work of the Appalachian Regional Commission, 
            which has awarded more than $120M since 2015 to innovative 
            strategies, like Coalfield, that have the potential to 
            scale and be replicated.

        The Appalachian Regional Commission is a particularly effective 
            Federal agency and represents the kind of ``place-based'' 
            policies that can have an out-sized impact.\3\ Regional 
            entities such as Appalachian Regional Commission are more 
            in touch with the on-the-ground complexities and nuances in 
            ways national agencies just can't be.
---------------------------------------------------------------------------
    \3\ https://www.brookings.edu/bpea-articles/saving-the-heartland-
place-based-policies-in-21st-century-america/.

        POWER funding created opportunities that allowed people to 
            stay--being Appalachian is our culture and our identity. We 
            just have to make sure that jobs exist for the miners and 
            affected community members that have been trained. That's 
            why Coalfield Development has worked closely with a solar 
            company, Solar Holler, which has recently hired eight of 
            the workers we've trained. These programs work if the 
            private sector (and other potential job creators) are 
---------------------------------------------------------------------------
            engaged from the beginning.

        In places like West Virginia, we put all our eggs into one 
            basket--ironically made of coal. When the bottom fell out, 
            we were stuck in black slurry. Now, many ask, ``What's the 
            next big thing? What can replace coal?'' But I believe this 
            is the wrong question. Relying too heavily on one industry 
            is how we ended up with some of the highest poverty rates 
            in the country. The right solution isn't to find one new 
            industry, but to support entrepreneurs and new businesses 
            in a diversified number of financially, environmentally, 
            and socially sustainable fields. At Coalfield Development, 
            we're pioneering what these diversified sectors can look 
            like. Federal investment in solutions and communities like 
            ours can help us scale create solutions to our economic 
            challenges.

  3.  Pass Federal legislation that improves the conditions of former 
            coal workers and distressed Appalachian communities. The 
            most important efforts focus on helping miners suffering 
            from black lung disease, promoting reclamation by 
            stimulating economic development, and connecting rural and 
            urban areas by improving broadband access.

Black Lung
    There is another issue related to addressing the legacy cost of 
coal mining as we work through this economic transition. Rates of black 
lung disease have hit a 25 year high in Appalachian coal mining 
states.\4\ One in five veteran working coal miners in Central 
Appalachia now has this fatal and incurable disease. Since 2000, the 
rate of black lung disease has doubled across the United States. The 
Black Lung Disability Trust Fund pays for benefits to coal miners 
disabled by black lung and their surviving spouses in cases where the 
miners' employer has gone bankrupt or not been found responsible. But 
because of congressional inaction, this Trust Fund is in jeopardy. The 
Trust Fund is supported by a small excise tax paid on coal sold 
domestically, at a rate that was unchanged for more than three decades. 
But Congress failed to extend the tax rate before the end of 2018, and 
it has now been cut by more than half. This will create a long-term 
financial crisis for the Black Lung Disability Trust Fund unless it's 
corrected. A May 2018 Government Accountability Office report projected 
that, if the tax rate were to be slashed, the Trust Fund's revenue 
would be unable to cover beneficiary payments and administrative costs 
as soon as 2020 and Trust Fund debt would balloon to over $15 billion 
by 2050.\5\ I urge members of this Committee to work toward extending 
the black lung excise tax immediately.
---------------------------------------------------------------------------
    \4\ https://www.npr.org/2018/07/19/630470150/black-lung-rate-hits-
25-year-high-in-appalachian-coal-mining-states.
    \5\ https://www.gao.gov/products/GAO-18-351.
---------------------------------------------------------------------------
The RECLAIM Act
    We must restore the lands degraded and polluted by the coal mining 
industry. As we've found at Coalfield, there's economic opportunity in 
reclamation. The RECLAIM Act, which would open up $1B for reclamation, 
has the potential to create thousands of new jobs, and stimulate 
millions more in local economic development activity across the 
country. According to the Department of the Interior's Office of 
Surface Mining Reclamation and Enforcement, the RECLAIM Act could 
create 4,600 direct jobs in areas hard hit by losses in the coal 
industry. Reclamation of abandoned mine lands generate thousands of 
other jobs in agriculture, recreation, tourism, renewable energy, and 
retail. The RECLAIM Act doesn't use a cent of taxpayer money. It 
imposes no new fees or taxes.
    Miners can be put back to work restoring the land they love. As 
Wilburn's fellow crew member, himself a former surface miner, remarked 
one day: ``I just blow the mountains up, and now I'm putting them back 
together.'' And importantly, these sites, if properly restored, can 
help mitigate climate change by capturing carbon and connecting diverse 
ecosystems. Indeed, over 1,200 miles of streambed have been permanently 
destroyed by mountaintop removal mining in Appalachia alone. More than 
1 million acres of mountaintop have been blown up. Enough mountaintop 
has been removed in West Virginia alone to bury all of Manhattan.\6\
---------------------------------------------------------------------------
    \6\ https://pubs.acs.org/doi/abs/10.1021/acs.est.5b04532.
---------------------------------------------------------------------------
    The RECLAIM Act uses existing funds to create jobs and clean up 
dangerous mines. The RECLAIM Act was originally introduced in February 
2016, then again introduced last Congress as H.R. 1731 and reported out 
of the House Natural Resources Committee in October 2017. Still, 
largely because of industry opposition, it has not progressed despite 
its bipartisan support in both chambers. The AML Fund has an explicit 
purpose to clean up dangerous and polluting mines that were left behind 
by coal operators over 40 years ago and continue to burden surrounding 
communities. The RECLAIM Act simply releases these funds so that long 
overdue cleanup can happen now.
    I'd like to extend my thanks to the House Natural Resources 
Committee for passing the bipartisan RECLAIM Act in the 115th Congress. 
Chairman Lowenthal, I know you were a co-sponsor of that legislation, 
as were a number of other members of this Subcommittee. RECLAIM would 
also catalyze longer term economic growth in coal communities by 
helping to lay a foundation for the building new industries in parts of 
the country that badly need a broader economic base.
AML Pilot Program
    The flexibility and innovation aspired to by RECLAIM has been tried 
out through the AML Pilot program, launched in 2015. This program chose 
six states in which AML funds were allowed to be used on projects 
having a ``nexus'' between mine-cleanup and economic development. For 
example, in West Virginia we've been able to kick-start an aquaponics 
facility, solar installations, and quality housing development on 
former minelands.
    Coalfield Development recently worked with partners throughout 
Central Appalachia to identify and develop 20 development projects in 
communities plagued by abandoned mine lands.\7\ Projects would cost 
over $38 million; however, if these projects were funded, total 
economic output from project spending would be valued at nearly $84 
million. These projects would provide over $22 million in wages to 
employees, support nearly 543 full- and part-time jobs across the 
region, and improve regional GDP (value-added) by over $44 million. 
Further, most projects plan for direct/on-site employment after 
construction/development. See the Reclaiming Appalachia report for more 
info.
---------------------------------------------------------------------------
    \7\ http://appvoices.org/resources/AML-RAC/
AML_RAC_report_Many_Voices_Many_Solutions-11-13-18-lo-res.pdf.

    These proposals (as well as projects that have already been funded) 
demonstrate the potential for jobs and broader community benefits 
through innovative mine reclamation. Importantly, restoring these lands 
can contribute significantly to reductions in greenhouse gases. The 
---------------------------------------------------------------------------
Nature Conservancy reports:

        A study by The Nature Conservancy and others showed that 
        ``natural climate solutions''--such as growing taller trees, 
        improving soil health, protecting grasslands and restoring 
        coastal wetlands--can amount to 37 percent of the removal of 
        carbon dioxide from the atmosphere needed in the next few 
        decades.

        In West Virginia, the third most forested state in the United 
        States, there is massive potential to contribute to these 
        natural climate solutions. And the Central Appalachians is one 
        of the most critical landscapes in the country for this 
        important work.

        In 2012, The Nature Conservancy completed a study of all the 
        forests on the East Coast, identifying the areas predicted to 
        withstand the growing impacts of climate change and help ensure 
        nature's survival. Among the most resilient landscapes were 
        highland forests in West Virginia.\8\
---------------------------------------------------------------------------
    \8\ https://www.nature.org/en-us/about-us/where-we-work/united-
states/west-virginia/stories-in-west_virginia/natural-climate-
solutions-in-west-virginia/.

    While AML Pilot and other Federal programs have been helpful, there 
is a need for improvement in execution. In many places, implementation 
of the program should increase public awareness and outreach, increase 
transparency in application criteria, review, and decision making, and 
increase emphasis on projects including a mine reclamation component. 
It's important that Federal dollars not be allowed to go to 
politician's pet projects, but rather engage community members and 
advance truly worthy projects that actually have that key ``nexus'' 
mentioned above.
National Rural Broadband
    Finally, we must connect our communities. Integral to stimulating 
economic development, particularly in rural places, is access to 
broadband. While the F.C.C. and Rural Utilities Service provide 
broadband subsidies, and private sector companies like Microsoft are 
rolling out programs, a coordinated, national broadband plan could go a 
long way in helping creating new opportunities in economically 
distressed areas like Appalachia.
    A group in West Virginia called Generation West Virginia has 
launched an important new program called NewForce. NewForce is a 
tuition-free, in-person, team-based intensive tech training program in 
Huntington, West Virginia.\9\ It was created by employers, community 
colleges, and non-profits to ensure West Virginians have the right tech 
skills for companies who are ready to hire in the Mountain State. 
Through the intensive 6-month curriculum, NewForce students work 
together, receive mentorship, and graduate with in-demand software 
development skills and direct connections to jobs. The program finishes 
with a Job Interview Day where the program's employer partners 
interview NewForce graduates for open positions. But a robust broadband 
infrastructure is needed for this to really take off. A coordinated, 
national broadband initiative targeted at rural areas could jump start 
economic development. Congress can make that happen.
---------------------------------------------------------------------------
    \9\ https://globenewswire.com/news-release/2018/10/16/1622190/0/en/
Generation-West-Virginia-Mountwest-Jobcase-Partners-Launch-Training-
Program-to-Build-Tech-Talent-Pipeline.html.
---------------------------------------------------------------------------
          the need for a new way of doing economic development
    You must understand just how deep and real the pain and hardship is 
that has been caused by the coal industry's decline. Usually, when 
discussing economic transitions, policy makers announce: ``Well, we can 
just retrain those people.'' The reality is this is so much easier said 
than done. There are hundreds of laid-off miners who got certified in 
new trades, but it doesn't matter because there are not many businesses 
outside the coal industry and therefore not many jobs to be entered 
with that new certification. Some ask, ``Why can't those people just 
move away?'' Well, for one that questions totally ignores that value of 
community and culture and identity. But that question also ignores the 
economic realities of ``land-poor'' homeowners and the unaffordability 
of relocating to high-cost urban areas.
    The right question isn't, ``How do we retrain those people?'' The 
right question is, ``How we strengthen these places which have given 
our country so much and have so much more to give?'' There are smart 
and much-needed government investments that we'll need to answer this 
question, but we aren't asking for handouts. Ultimately, we need 
market-driven solutions that are financially sustainable. We haven't 
lost sight of this, and it's why creating new businesses is central to 
our strategy.
    A question that drives me crazy is, ``Why do those people vote 
against their own interests?'' By ``own interests'' the questioner 
usually means government programs. Well, we don't want to have to 
depend on government programs to feed our families. We are proud to 
have powered this country's development for generations, and we want to 
keep doing so.
    The problem has never been our work ethic. The problem is that we 
put all our eggs in to one basket made of coal, and when the bottom of 
that basket fell out we found ourselves stuck. Now, many ask, ``What's 
the next big thing? What can replace coal?'' This is the wrong 
question. Relying on one industry too heavily is how we got some of the 
highest poverty rates in the country. So, the solution is not to find 
one new industry, but to support entrepreneurs and new businesses in a 
diversified array of sustainable fields. By sustainable, I mean 
financially sustainable, environmentally sustainable, and social 
sustainable. At Coalfield Development, we're pioneering what these 
diversified sectors can look like. We and our partner organizations are 
not asking for charity. We're pitching an investment opportunity.
    Poverty in our region is complex. Even when coal was booming, we 
were still one of the poorest regions in North America.\10\ Such socio-
economic challenges are wrapped up in issues of power, equity, and 
fairness. For example, huge swaths of West Virginia land is owned by 
corporate land holding companies.\11\ It's very difficult for fresh 
investment and redevelopment to occur when this is the case. Strategies 
for our region can't just be about one industry at one point in time. 
Strategies for our region have to be about justice and opportunity.
---------------------------------------------------------------------------
    \10\ For a thorough analysis poverty in Appalachia and the Federal 
Government's role in it, read Uneven Ground: Appalachia Since 1945 by 
Ronald D. Eller (2008) University of Kentucky Press.
    \11\ https://www.wvgazettemail.com/news/special_reports/w-va-still-
owned-by-absentee-companies-report_says/article_f3dd4a64-19a1-59b7-
bc6d-ee2b49d6bd9b.html.
---------------------------------------------------------------------------
    Simply using government dollars to ``retrain'' people is not 
enough. There has to be a broader place-based strategy which 
simultaneously creates new businesses and provides the wrap-around 
support needed by workers to overcome poverty.
    In developing such programs, much flexibility will be needed for 
local innovation to flourish. By local I do not mean state governments, 
I mean place-based, grassroots organizations. Program income 
requirements should be loosened. More general operating funds should be 
granted to organizations trying to survive in extremely distressed 
economic environments. Public/private partnerships should be 
encouraged, not discouraged. In many ways, this work is more like early 
phase, basic research and development. This is economic research and 
development to test what is possible and what isn't in this complex 
places. Put more directly, those of on the ground trying to improve 
conditions for our place need to be allowed to be as innovative and 
entrepreneurial as is necessary for real opportunity to flourish.
                                summary
    While I'm here to say that coal is not coming back, I'm also here 
to say that doesn't mean Appalachia has no future. In fact, the void 
left by coal's collapse has made room for new sprouts of 
entrepreneurship and innovation. While the short-term prognosis is a 
painful transition off coal, if we can approach this transition smartly 
and fairly, the long-term outlook is really bright.
    Appalachia has important assets the rest of the country needs: 
large swaths of forests that are carbon sinks, a dedicated and creative 
work force, a unique and distinctive culture, and a good quality of 
life within driving distance of a significant portion of the country's 
population. We can realize our bright future, albeit with a little help 
and outside investment. But our leaders hold us back from realizing our 
bright future when they promise coal will return. This only dampens the 
latent entrepreneurial spirit that lies dormant among our hills and 
hollers. But that spirit is there.
    Wilburn is one of thousands of former miners whose life was rocked 
by the shut down of his mine. But at age 45 he's about to become a 
college graduate. He's helping us start a sustainable business called 
Refresh Appalachia, which is selling fresh, healthy produce throughout 
the region. Wilburn has transformed a moment of crisis in his life into 
a transformational opportunity.
    Now you have the opportunity to do the same.
    Please don't ignore the economic hurt in Appalachia--or in any 
other coal communities across the country. To ignore us would only mean 
deepening the fissures that are breaking our country apart.
    I hope you'll consider Wilburn, as you consider my suggestions. 
Thank you for your time.

                                 ______
                                 

    Dr. Lowenthal. Thank you.
    And now the Chair recognizes Dr. Mason to testify.

 STATEMENT OF JOSEPH MASON, PROFESSOR, DEPARTMENT OF FINANCE, 
       LOUISIANA STATE UNIVERSITY, BATON ROUGE, LOUISIANA

    Dr. Mason. Good morning.
    Thank you, Chairman Lowenthal, Ranking Member Gosar, and 
members of the Committee for holding this hearing to discuss 
this very crucial transition.
    The Green New Deal resolution seeks, among other things, to 
achieve net-zero greenhouse gas emissions through a fair and 
just transition for all communities and workers while ensuring 
clean air and water, a sustainable environment, and justice and 
equity. While laudable, those objectives conflict in dimensions 
that just can't be reconciled.
    In recent years, wind turbine and transmission line sites 
located far from population centers have largely been 
developed. Further development will require working with 
communities and citizens to ensure a fair and just balance of 
access and resource generation closer to cities and homes.
    Such a process takes time, and jobs will not be created 
until that process comes to a conclusion. A fair and just 
process will take many years. There will be jobs dealing with 
batteries and generation technology, but those will be 
environmentally dirty in different ways. Rechargeable 
batteries, including lead acid, nickel, metal hydride, nickel 
cadmium and lithium ion batteries, all contain toxic materials 
that are hazardous to human health and the environment if 
disposed of inappropriately.
    Wind turbines use considerable amounts of rare earth 
elements to build permanent magnets and electric generators; 
solar photovoltaic installations use similar ingredients. All 
of those are either valuable, in short supply, or both.
    Rather than mining those from conflict areas of the world 
like the Democratic Republic of the Congo, they can be obtained 
through recycling. But jobs and industries related to that 
recycling will require handling concentrated quantities of 
heavy metals and other carcinogenic and mutagenic materials 
risking humans lives as well as soil and groundwater 
contamination.
    Without occupational safety rules, we risk exposing workers 
in those new jobs to both new and known safety hazards like we 
did when exposing miners to black lung disease, construction 
workers to asbestos exposure, and workers and residents of 
nearby neighborhoods to birth defects and cancer arising from 
chemical and heavy metals.
    Residential solar contracts already involve terms similar 
to those that caused the recent real estate bubble, bust, and 
recession. Without consumer protection from rampant 
development, mandating green energy without protecting 
consumers violates the notion of a just and fair transition.
    While the green bond sector is booming, there is no 
assurance that investments funded in the sector are really 
green in any meaningful sense. Bonds and funds selling on the 
popularity of the green moniker usually underperform their 
benchmarks and charge high investor fees. Like the tech bubble 
glamour stocks in the 1990s, a green investment bubble could 
arise that, when popped, could devastate the sector and 
forestall needed development, hurting both jobs and the 
environment.
    If the proposed mandate of carbon neutrality cannot be met 
with production cuts, then achieving that goal will have to 
rely upon offsets. But offsets aren't locally green and 
sometimes arise from poor policy making and fraud. It is not 
clear that the United States should accept other countries' 
offsets, but there is currently no mechanism by which to accept 
or reject their fiat permits. Diplomacy will be necessary to 
establish eligibility requirement, and that will take time.
    The proposed mandate will alter international patterns of 
trade and strategic resources and disrupt global supply chains. 
As markets adapt to the new patterns of energy resource trade, 
market failures will occur. Because energy affects every 
consumer and business in the Nation, such failures may be even 
more disruptive than the recent credit crisis. Even without 
market failures, the mandate will impose widely varying effects 
upon states and their citizens as some states pay more of the 
price for the adjustment than others.
    Because those costs are a complex function of existing 
fossil fuel use as well as energy imports from other states, 
the sponsors of this resolution cannot today say which states 
will suffer worse losses and which others will not. And they 
cannot, therefore, guarantee the social or distributional 
justice that they claim, or even the basis by which such 
justice will be meted out.
    The New Deal created jobs in an economy with more than 20 
percent unemployment. We don't have 20 percent unemployment. 
According to Federal Reserve Chairman Jerome Powell, 
unemployment is low, and prices are near 2 percent inflation. 
We are in a good place.
    The proposed resolution is not a New Deal, nor do we 
necessarily need a New Deal. A better historical roadmap might 
be the National Monetary Commission. Following the financial 
panic of 1907, Congress convened the Commission to study in 
depth best central banking practices around the world in order 
to make recommendations for meaningful reform. The result of 
that investigation, the Federal Reserve System, still stands as 
a major innovation that is one of the leading central banks in 
the world in terms of both effectiveness and stability. Our 
environment deserves the same thought and consideration.
    In closing, I would like to note I was first included in 
the congressional greenhouse gas debate almost 10 years ago 
now. I agree that the issue is more important 10 years on, 
absolutely. I applaud Chairman Lowenthal's remarks about the 
need to begin a meaningful discussion here to lead this process 
forward.
    Thank you.

    [The prepared statement of Dr. Mason follows:]
 Prepared Statement of Dr. Joseph R. Mason, Louisiana State University 
                   and the University of Pennsylvania
    Economics is built upon comparative statics. Statics is the 
comparison of one economic equilibrium with another. While it is easy 
to say that one equilibrium is better than another, the question of how 
we make the transition is important. Thus, I want to acknowledge that 
this hearing is crucial to the Nation's economic well-being.

    According to the proposed resolution, the Green New Deal seeks:

  (A)  to achieve net-zero greenhouse gas emissions through a fair and 
            just transition for all communities and workers;

  (B)  to create millions of good, high-wage jobs and ensure prosperity 
            and economic security for all people of the United States;

  (C)  to invest in the infrastructure and industry of the United 
            States to sustainably meet the challenges of the 21st 
            century;

  (D)  to secure for all people of the United States for generations to 
            come----

          (i)  clean air and water;

          (ii)  climate and community resiliency;

          (iii)  healthy food;

          (iv)  access to nature; and

          (v)  a sustainable environment; and

  (E)  to promote justice and equity by stopping current, preventing 
            future, and repairing historic oppression of indigenous 
            communities, communities of color, migrant communities, 
            deindustrialized communities, depopulated rural 
            communities, the poor, low-income workers, women, the 
            elderly, the unhoused, people with disabilities, and youth 
            (referred to in this resolution as ``frontline and 
            vulnerable communities'')

    Mandating ``net-zero greenhouse gas emissions'' over a 10-year 
period alone, however, will not ensure a smooth transition. Mandates 
will not curtail CO<INF>2</INF> emissions and encourage the push to 
renewables. Often, in fact, mandates instead produce perverse 
incentives.
    The proposed mandate also runs counter to the other resolution 
goals regarding fairness and equality. The tension arises because the 
only way to achieve the mandate in such a short period of time will be 
to take rights and property from some citizens and reallocate that to 
others.

I. Green Jobs Will Take a Long Time to Develop and Will Involve 
        Handling Toxic Metals That Are the Dirty Foundation of Green 
        Energy

A. Rapid Development and Planning for Wind Turbines, Solar Farms, and 
        High-Voltage Lines Will Alienate Local Citizens and Violate 
        Distributional Justice

    Jobs related to green technologies will take a long time to 
develop. For instance, jobs related to wind turbine installations and 
high-voltage electrical infrastructure can only be made available after 
a long planning process.
    A 30-year old research agenda regarding opposition to wind projects 
by local citizens yields interesting insights into citizens' thinking. 
A recent academic paper summarizing such research suggests that while, 
``North American support for wind has been consistently high,'' the 
strict interpretation of opposition cannot be tied solely to NIMBY 
behavior by local residents or lack of concern for the environment.\1\ 
Distance from turbines obviously matters, but its effect is unclear, 
and sound and visual impacts are tied to annoyance and opposition.
---------------------------------------------------------------------------
    \1\ Rand, Joseph and Hoen, Ben. ``Thirty years of North American 
wind energy acceptance research: What have we learned?'' Energy 
Research & Social Science 29 (2017), 135-148.
---------------------------------------------------------------------------
    Less obvious, however, are conclusions that suggest that the 
strongest influences on successful placements relate to the process by 
which wind turbine sites are selected. Sound and visual impacts can be 
overcome if those aspects are not ignored, but are acknowledged. 
``Issues of fairness, participation, and trust during the development 
process influence acceptance,'' and ``[v]iewing opposition as something 
to be overcome prevents meaningful understandings and implementation of 
best practices.'' \2\
---------------------------------------------------------------------------
    \2\ Id.
---------------------------------------------------------------------------
    All that said, however, the authors note that ``[i]mplementation of 
research findings into practice has been limited.'' \3\ Similar 
research finds nearly identical intricacies to citing high-voltage 
transmission lines required for green energy installations.\4\
---------------------------------------------------------------------------
    \3\ Id.
    \4\ Cain, Nicholas L. and Nelson, Hal T. ``What drives opposition 
to high-voltage transmission lines?'' Land Use Policy 33 (2013), 204-
213.
---------------------------------------------------------------------------
    Those points are important because, ``the `low hanging fruit' wind 
sites (those that have good wind resources and are close to loads and 
transmission, yet far from communities) have largely been developed, 
implying that future wind development likely will happen increasingly 
near communities.'' \5\
---------------------------------------------------------------------------
    \5\ Rand and Hoen (2017). For a more complete review of constraints 
to wind power development, see the U.S. Department of Energy, Wind 
Vision: A new era for wind power in the United States. 2015.
---------------------------------------------------------------------------
    Up to now, considerations regarding reactions of local citizens to 
wind turbine placements and high-voltage infrastructure have not been a 
significant concern. The Green New Deal 10-year mandate, therefore, 
means that wind turbine installations and needed transmission towers 
will be coming to residents' neighborhoods soon, regardless of local 
concerns. The proposed policy is almost designed to alienate local 
citizens in the name of unfunded federalism. The costs of such 
policies--like those incurred by locals in the Camp Fire--will be borne 
by locals while the benefits will be enjoyed elsewhere. Such dispersion 
violates concerns of distributional justice and fairness, counter to 
the bill's own stated goals.

B. Green Energy Curtails CO<INF>2</INF> , but Increases Concentrations 
        of Other Pollutants That Damage Soil and Water

    While it is obvious that wind turbines don't produce when the wind 
doesn't blow and solar doesn't produce when the sun doesn't shine and 
many have suggested batteries as a solution, few have thought about 
where the batteries come from or the batteries' own impact on the 
environment.
    Batteries pollute. Rechargeable batteries, including lead-acid, 
nickel-metal hydride, nickel-cadmium, and lithium-ion batteries, all 
contain toxic materials. ``Spent rechargeable batteries contain heavy 
metal elements, including nickel (Ni), cobalt (Co), and [lead] Pb, 
which are hazardous to human health and the environment if disposed of 
inappropriately. . . . Ni, Co, and Pb are all classified as 
carcinogenic and mutagenic materials. In addition to heavy metals, the 
organic and strong acid/alkaline electrolytes of rechargeable batteries 
are also polluting.'' \6\
---------------------------------------------------------------------------
    \6\ Renjie Chen et al. ``Toward sustainable and systematic 
recycling of spent rechargeable batteries.'' Chemical Society Reviews, 
47 (2018), 7239-7302.
---------------------------------------------------------------------------
    So, while the Green New Deal promises clean air, little attention 
is being paid to increased concentration of other pollutants in the 
quest to decrease CO<INF>2</INF>.

C. Resources Needed for Green Energy Will Require Transportation and 
        Handling of Toxic Materials in High Concentrations in Trade 
        With Conflict Nations Worldwide

    Large-scale battery production also consumes other scarce 
resources. Among the above-mentioned elements, ``Co is considered 
strategically important because it is widely used in industry and by 
the military.'' \7\ Yet, Co, in particular, is in short supply and some 
two-thirds of that comes from one of the poorest countries in the 
world, the Democratic Republic of Congo, under contract to Glencore. 
Illustrating the Democratic Republic of Congo's global influence, the 
Financial Times reported last week that Co prices ``hit their lowest 
level in 2 years after a supply surge from the Democratic Republic of 
Congo,'' after falling some 40 percent since November 2018.\8\ The 
Democratic Republic of Congo's uncertain political environment, 
demanding increased royalties and taxes on international mining 
companies, has led mining companies such as Glencore to reduce their 
exposure to the sector.\9\
---------------------------------------------------------------------------
    \7\ Id.
    \8\ Sanderson, Henry. ``Cobalt hits 2-year low as DRC ramps up 
supply.'' Financial Times, February 5, 2019.
    \9\ Sanderson, Henry and Hume, Neil. ``Glencore to cut workers at 
key DR Congo copper and cobalt mine.'' Financial Times, February 8, 
2019.
---------------------------------------------------------------------------
    Resource pressures have led to increased concerns about materials 
recycling. Yet U.S. battery recycling programs are lax in comparison 
with those in the EU and China.\10\
---------------------------------------------------------------------------
    \10\ Renjie Chen et al. (2018).
---------------------------------------------------------------------------
    It is important to recognize further that such recycling concerns 
are not only about the environment. The needs span all manner of green 
technologies not just batteries. ``Wind power demands important amounts 
of rare earth elements (REE) like neodymium and dysprosium to build 
permanent magnets for electric generators and some studies have shown 
that demand of both elements might increase by 700 percent and 2600 
percent, respectively, in the next decades. Additionally, solar 
photovoltaic demands high quantities of silver for electrical 
connections, and other materials like cadmium, tellurium, or indium are 
used for manufacturing p-n junctions in solar thin film technologies 
like CIGS or CdTe. Solar thermal power (STP) also requires silver for 
manufacturing reflectors or nickel and molybdenum for manufacturing 
high strength steel alloys needed in structures.'' \11\
---------------------------------------------------------------------------
    \11\ Valeroa, Alicia; Valerob, Antonio; Calvob, Guiomar; and 
Ortegoa, Abel. ``Material bottlenecks in the future development of 
green technologies.'' Renewable and Sustainable Energy Reviews 93 
(2018), 178-200. (Citations omitted.)
---------------------------------------------------------------------------
    All of those are in short supply, but little of those are recycled. 
``[C]urrent recycling rates of some of these materials are almost 
negligible because more often than not the specific required recycling 
processes do not pay off. [Even where recycling is profitable], current 
recycling rates are still very low. For instance, less than 3 percent 
of the lithium contained in a battery is currently recycled. . . . 
[Still] only 42 percent of the total battery waste mass can be recycled 
with current available technology. . . . As a result, the concern 
regarding the impact of green technologies on raw material availability 
is becoming an important issue for countries aiming at guaranteeing 
their sustainability and for the development of green technologies.'' 
\12\
---------------------------------------------------------------------------
    \12\ Valeroa et al. (2018). (Citations omitted.)
---------------------------------------------------------------------------
    There will be jobs. But these will be no better (and arguably, 
worse) than those in the existing fossil fuels sector. Those jobs will 
deal with the new pollutants from green energy sources. Even recycling 
programs--to the extent that those are mandated--will require handling 
concentrated quantities of heavy metals and other carcinogenic and 
mutagenic materials, risking human lives and soil and groundwater 
contamination. It would only make sense to put in place occupational 
safety rules to deal with new environmental hazards before mandating 
energy goals. Otherwise, we may repeat prior problems like those 
arising from black lung disease, asbestos exposure, birth defects and 
cancer arising from chemical and heavy metals disposal, and the failed 
remediation efforts of the EPA's Superfund, all in the name of 
CO<INF>2</INF> reduction.

II. The Green Brand Is Already Being Co-Opted

    The Green New Deal sets as a goal ``net-zero greenhouse gas 
emissions,'' but does not define what that means. Green is already a 
marketing tool in many sectors and even where the term is defined, it 
leads people to charge high fees and do bad things in the name of 
``green.''

A. Solar Installations Face a Complex Web of Laws and Regulations That 
        Are Not Being Taken Into Account in the Mandate

    Take, for instance, the residential solar industry. Many homes have 
installed solar panels. But a large number of those have been bad deals 
for consumers and investors alike.
    Solar contracts are causing a variety of frictions in the real 
estate industry, some of which may turn out to be systemic. For 
instance, the contractual arrangements surrounding the installations--
often in the form of loans or leases and contracts to provide energy to 
the grid via net metering arrangements--may not transfer with the home 
because they are technically independent of the property upon sale. 
Ancillary negotiations can be necessary to effectuate such transfer, 
but those negotiations can delay closing and raise the costs of real 
estate transactions.
    Consumer and business solar installation contracts are sold and 
securitized just like subprime mortgages, with the cash-flows ``sliced 
and diced'' and sold to investors so that the company can sell more 
solar installations. In 2017, solar securitizations topped $1.5 billion 
and in 2018, they topped $2 billion.\13\ The sector continues to grow 
rapidly.
---------------------------------------------------------------------------
    \13\ Mendelsohn, Mike. ``Raising capital in very large chunks: The 
rise of solar securitization.'' PV Magazine, November 16, 2018.
---------------------------------------------------------------------------
    In January 2019, Mosaic--which has over $1 billion in 
securitizations outstanding--completed its largest solar securitization 
to date. Mosaic's consumer loans are regulated by, ``CFPB, FTC and 
various state agencies. Loans originated by Mosaic must comply with 
applicable Federal and State law including (but not limited to): Truth 
in Lending Act (``TILA''); Truth in Advertising; Fair Credit Reporting 
Act (``FCRA''); Fair Debt Collection Practices Act (``FDCPA''); Equal 
Credit Opportunity; [and] Privacy and Data Security Laws.'' \14\ While 
securitization is not in and of itself bad, one of the key risk factors 
noted in Mosaic's securitization is that the loans and leases can 
contain unique features like payments that rise over time, which ``may 
potentially invite the scrutiny of consumer protection regulators.'' 
\15\
---------------------------------------------------------------------------
    \14\ ABS New Issue Report, ``Mosaic Solar Loan Trust 2019-1,'' 
Kroll Bond Rating Agency, February 6, 2019.
    \15\ Id.
---------------------------------------------------------------------------
    Green energy installations, therefore, intertwine with consumer 
protections and energy transmission regulations in a web of Federal and 
state combinations whose interaction will be affected by the proposed 
mandate. Mandating green energy without protecting consumers in those 
sectors, therefore, violates the notion of a ``just and fair 
transition.''
B. Green Bond Funds Sell at a Premium and Charge High Fees for the 
        Brand
    Although there is no established formal criteria for the 
qualification of a green bond, the development of the International 
Capital Market Association ``green bond principles'' has promoted a 
modicum of agreement in the sector.\16\ Those principles, while 
voluntary, have formed a process around transparency and disclosure 
with four specific components, namely Use of Proceeds, Process for 
Project Evaluation and Selection, Management of Proceeds, and 
Reporting.
---------------------------------------------------------------------------
    \16\ https://www.icmagroup.org/green-social-and-sustainability-
bonds/green-bond-principles-gbp/.
---------------------------------------------------------------------------
    While green investment funds have proved popular with special 
interests they ignore simple marketing realities: when something is 
more popular it can be sold for a higher price. Existing fossil-free 
funds' demonstrated performance history shows that the funds usually 
underperform even their own chosen benchmarks and charge high fees to 
investors. Like the tech bubble ``glamour stocks'' in the 1990s, a 
green investment bubble could arise that--when popped--could devastate 
the sector and forestall needed development of green technologies.
    Despite such concerns, green bond issuance is growing rapidly. The 
World Bank reported that green bond issuance grew from almost nothing 
in 2012 to over $150 billion in 2017.\17\ After being initially led by 
supra-nationals like the World Bank and International Monetary Fund, 
volumes have shifted to ``a wide range of issuers including corporates, 
banks and local authorities. While 50 percent of supply has come in 
Euro-denominated format, other bonds have been issued in USD, GBP, SEK, 
CAD, AUD and others including PEN'' (Malaysia).\18\ Issue currency is 
dominated in some regions by USD because the United States is the 
largest investor country worldwide. For instance, over 85 percent of 
Latin American green bonds issued since the inception of the green bond 
market were denominated in USD.\19\
---------------------------------------------------------------------------
    \17\ The World Bank at https://www.ifc.org/wps/wcm/connect/
news_ext_content/ifc_external_ corporate_site/news+and+events/news/
perspectives/perspectives-i1c2.
    \18\ Reichelt, Heike and Keenan, Colleen. The Green Bond Market: 10 
years later and looking ahead. Washington, DC: The World Bank, December 
2017.
    \19\ Mullin, Keith. `` LatAm green bonds--Building Momentum.'' 
Environmental Finance (supported by the World Bank and the Swiss 
Federation).

C. Green Power Isn't Always Green: Offsets Cannot be Relied Upon to 
---------------------------------------------------------------------------
        Decrease Global CO<INF>2</INF> Emissions

    The troubling aspect of the USD concentration is that the United 
States is the key market for many of the green products produced by 
some nations. One of those products is CO<INF>2</INF> offsets.
    If the proposed mandate of carbon neutrality cannot be met with 
production cuts, then achieving that goal will have to rely upon 
offsets. But offsets, at best, aren't locally green (merely reflecting 
somebody else's green achievements) and, at worst, merely reflect 
unjust enrichment and outright fraud.
    For instance, in February 2016, the New York State Public Service 
Commission issued its ``Order Resetting Retail Energy Markets and 
Establishing Further Process,'' which, in part, required that companies 
selling renewable energy packages to consumers actually obtain such 
energy from such sources rather than just using offsets purchased from 
the market.\20\ While the issue remains unsettled, the point is that 
green energy should actually come from green energy sources, not just 
offsets purchased from somewhere else.
---------------------------------------------------------------------------
    \20\ Giannasca, N. ``New York Public Service Commission's ESCO 
order set for preliminary injunction hearing.'' Energy and 
Environmental Law Blog. May 4, 2016. ``. . .to ensure that these 
products contribute to greater renewable energy achievement . . . 
energy labels are based on the environmental attributes of the energy 
purchased by the load serving entity and are not affected by the 
separate purchase of Renewable Energy Certificates (``RECs''). 
Currently, to meet this requirement the ESCO must guarantee that at 
least 30 percent of the energy provided to the customer will be 
generated by deliverable renewable energy resources, including biomass, 
biogas, hydropower, solar energy, and wind energy, and will include 
renewable attributes.'' [Emphasis added.]
---------------------------------------------------------------------------
    The reasoning behind the requirement is sound, because it is often 
not clear where the offsets come from or whether they are meaningful. 
For instance, EU Clean Development Mechanism (``CDM'') projects are 
granted carbon credits based on the extent to which the project is 
expected to result in fewer emissions than would otherwise have 
occurred. ``Companies, therefore, have an incentive to either inflate 
the estimate of emissions that would have occurred without the project 
or claim that the project will reduce emissions by more than it 
actually does.'' \21\
---------------------------------------------------------------------------
    \21\ Mason, Joseph R. ``Financial regulation and fraud in CO2 
markets.'' Research Handbook of Investing in the Triple Bottom Line, 
Sabri Boubaker, Douglas Cummings and Doc Nguyen, eds., Cheltenham: 
Edward Elgar, 2018, 9-28.

---------------------------------------------------------------------------
    According to Mason (2018):

        In order to constrain firms from mischaracterizing their 
        projects, the CDM mechanism requires third-party validation and 
        verification before a project receives carbon credits. Third-
        party verification is carried out by Designated Operation 
        Entities (``DOEs'') certified by the CDM Executive Board. Even 
        independent third-party auditors, however, may be susceptible 
        to bribes or collusion to manipulate the results.

        In 2008 and 2009, respectively, the U.N. temporarily suspended 
        two independent organizations--Norwegian company Det Norske 
        Veritas and Swiss firm SGS--after `spot checks found flaws in 
        their methodologies'. At the time, these two companies were 
        dominating the validation/verification market (see Szabo, 
        2008). Investigations showed that both companies had approved 
        projects without sufficient review.

        The U.N. inspection found one company had a flawed review 
        process, inadequate preparation and training of their auditing 
        staff, and an overall failure to assign auditors with the 
        proper technical skills. The other was suspended after an 
        inspection raised concerns about staff qualifications and the 
        quality of its internal reviews.

        In a follow-up review in 2009, the five largest DOEs' 
        validation processes were scored on an A-to-F scale. None 
        received a score higher than a D. \22\
---------------------------------------------------------------------------
    \22\ Id. (Citations omitted.)

    Even when they are valid, offsets are usually issued as part of a 
political process to spur economic development. Using offsets judged as 
a valid tradeoff for development in one country as a basis for 
achieving carbon neutrality in another runs the risk of ``robbing Peter 
---------------------------------------------------------------------------
to pay Paul,'' with no net decrease in global emissions.

III. Energy Is Provided in a Complex International Marketplace

    The point of the above is that setting a mandate before setting the 
rules of the game--or even some of the rules of the game--is a recipe 
for disaster. That disaster will relate to highly complex markets that 
supply inputs to every home and business in America and the world. Such 
a disruption could have far larger effects on economic growth and green 
development than even the recent credit crisis. Sound rules, therefore, 
are more important than a blanket mandate.
    The production and delivery of energy takes place within a complex 
system of three interacting layers: (1) the physical layer consisting 
of the hard assets used for production, transportation, and storage of 
primary energy sources, and for the transformation of one form of 
energy into another; (2) markets for energy that consist of interacting 
spot, forward, option and long-term structured transactions; and, (3) 
the system of national laws, regulations, and international treaties. 
Federal energy policy, market policy, and infrastructure policy, 
therefore, go hand in hand so that policies in one area affect the 
others.

A. Infrastructure Policy Will Involve Not Just Local, But Global, 
        Decisions

    Changes to Federal policy will affect not just local, but global 
energy infrastructure. Energy markets have evolved through history into 
a highly integrated, global system. In any such system, shocks such as 
the proposed energy mandate propagate across different geographic 
locations and specific commodity markets through very complicated and 
constantly evolving channels of transmission.

[GRAPHIC] [TIFF OMITTED] T5198.012


    .epsFor instance, the graph above shows global oil and natural gas 
trade routes in 2017. If the United States uses less oil, those trade 
routes will change as other countries use the oil we produce as well as 
that which we choose not to import. Nearly every country views energy 
as a strategic resource. As a result, global treaties and trade 
relationships will affect such flows, necessitating negotiations and 
international diplomacy regarding such changes.

B. Market Trading Will Require Policy, Too

    Energy products are actively traded, in which the market 
transactions can be financial or physical. Financial transactions are 
settled in cash, while physical contracts are settled in delivery of 
the related commodity. Infrastructure is crucially related to delivery, 
in that delivery cannot occur without scheduling necessary 
infrastructure well in advance. Thus, there exists a fundamental inter-
relationship between infrastructure and markets.
    In addition, there exist several market layers of derivatives 
products, including futures, options, and swaps that may be combined 
with each other in a wide variety of combinations. Those often trade in 
conjunction with a wide variety of weather derivatives that are 
associated with resource demand.
    Such products are traded on organized markets around the world. 
Many such markets have consolidated in recent years, providing 
financial market efficiency by virtue of centralized trading that can 
more efficiently drive out price anomalies.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Such consolidation, however, does not prevent market failures. 
Electricity markets, for instance, use complex arrays of products to 
trade around probable shortfalls in production and infrastructure.

    Sometimes traders and markets get things wrong. For instance, last 
fall a trader on NASDAQ's Nordpool electricity market left the exchange 
holding over =100 million in trading losses.\23\
---------------------------------------------------------------------------
    \23\ Stafford, Philip and Sheppard, David. ``Trader blows =100m 
hole in Nasdaq's Nordic power market,'' Financial Times. September 13, 
2018.

        Nasdaq said the size of his positions blew through several 
        layers of safeguards designed to protect the clearing house 
---------------------------------------------------------------------------
        from hefty losses.

        The catalyst for the trading loss was a series of backfiring 
        bets on the price difference between German and Nordic power 
        markets, according to multiple sources in the industry. Mr 
        Aas's trades were positioned for the gap between the two to 
        narrow, but instead it widened sharply to a level 17 times 
        larger than normal.

        That move was triggered, in part, by a jump in the price of 
        carbon allowances in Europe that have been the best performing 
        commodity so far this year and a source of bumper profits for 
        hedge funds and investment banks. Rising carbon prices, which 
        are trading at a decade high, have dragged up natural gas and 
        electricity markets in continental Europe.

        At the same time, a forecast of wetter than previously 
        anticipated weather in the Nordic region, where hydropower is a 
        big contributor to electricity supplies, pushed prices on the 
        so-called Nordpool market far lower. \24\
---------------------------------------------------------------------------
    \24\ Id.

    There will be high-stakes trading in energy around the transition. 
Policy uncertainties, weather uncertainties, and market risks will 
commingle to create risky conditions in the very energy markets that 
U.S. consumers and businesses rely upon every day for their energy 
needs. A disruption to those markets can devastatingly cripple U.S. 
prosperity and economic security, two of the main goals of the 
---------------------------------------------------------------------------
resolution.

C. Different States Will Be Affected Differently

    Disruptions to trade and costs will also be felt differently across 
the United States. The mandate will require states to reduce fossil 
fuel use by 55 percent to 150 percent of their current consumption (see 
below). Such wide differentials will have varying effects upon states 
and their citizens, with states facing costlier transitions paying more 
of the price than others.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    The costs imposed upon individual states in the transition are 
a complex function of fossil fuel production, fossil fuel reliance, and 
infrastructure that supports the transition in any chosen geographical 
region. Any one state should not be penalized if sufficient regional 
infrastructure does not exist to support its own transition.
    Because those costs are a complex function of local fossil fuel use 
as well as energy imports from other states, the sponsors of this 
resolution cannot, today, say which states will suffer worse losses 
than others and cannot, therefore, guaranty social or distributional 
justice (or even the basis by which such justice will be meted out).

IV. Summary and Conclusion

    The New Deal created jobs that left a lasting imprint on American 
infrastructure, such as the San Francisco Bay Bridge, the Lincoln 
Tunnel, and the Hoover Dam. Those projects provided jobs in an 
environment of more than 20 percent unemployment, nationally. We don't 
have 20 percent unemployment today. According to Fed Vice Chairman 
Jerome Powell, ``The U.S. economy is now in a good place. At the 
moment, unemployment is low, prices are near 2 percent inflation, so 
we' re in a good place now.'' \25\
---------------------------------------------------------------------------
    \25\ Condon, Christopher; Oguh, Chibuike; and Boesler, Matthew. 
``Fed's Powell Says Economy in `Good Place' With Low Unemployment,'' 
Bloomberg, February 6, 2019.
---------------------------------------------------------------------------
    While unemployment may be high in some areas, those areas are not 
necessarily where any new jobs will be. Moreover, the skills required 
for any new jobs are not guaranteed to be associated with any skills 
possessed by workers displaced in the transition. Even assuming enough 
new jobs are created to make up for the old jobs, new jobs requiring 
different skills will render workers in the old sectors obsolete and 
leave a ``lost generation'' behind.
    The proposed mandate is no foundation for a New Deal. The funding 
and aid provided in the real New Deal took place in a very different 
institutional environment.
    The RFC--created by President Hoover as the main means of New Deal 
funding--was a flexible mechanism that ultimately allocated more than 
$50 billion in stimulus money (about $900 billion in 2017 dollars using 
a CPI-based inflator, $2.1 trillion using the value of a consumer 
bundle, or $13.2 trillion using the relative share of GDP \26\).
---------------------------------------------------------------------------
    \26\ The change in the value of the dollar is measured from 1935 to 
the most recent year available, 2017. See https://
www.measuringworth.com/calculators/uscompare/result.php?year_source 
=1935&amount=1&year_result=2018.
---------------------------------------------------------------------------
    Such flexibility was crucial for success in a time of economic 
emergency. The flexibility was achieved by making the RFC part of the 
Executive branch of the U.S. Government so that changes in the scale or 
scope of RFC powers could be enacted by Executive Order.
    The ``operation was too large to fund directly out of Federal 
budget allocations, so the RFC was founded as a government-owned 
corporation with an initial appropriation from Congress and the right 
to borrow more money from the public at large.'' \27\ Because it was 
not part of the government, it was not required to adhere to Civil 
Service regulations for hiring and promotion and was not subject to 
congressional General Accounting Office audits.\28\
---------------------------------------------------------------------------
    \27\ Id.
    \28\ Mason, Joseph R. ``Reconstruction Finance Corporation 
Assistance to Financial Institutions and Commercial & Industrial 
Enterprise in the U.S. Great Depression, 1932-1937.'' Resolution of 
Financial Distress, Stijn Claessens, Simeon Djankov, and Ashoka Mody, 
eds., Washington: World Bank Press, 2001, 167-204.
---------------------------------------------------------------------------
    RFC decisions were largely made at local levels. Field office 
managers had authority to approve loans up to $100,000 (about $1.8 
million in 2017 dollars using a CPI-based inflator, $4.3 million using 
the value of a consumer bundle, or $26 million using the relative share 
of GDP \29\). In practice, each field office was almost completely 
independent and only major problems were taken up with Washington.'' 
\30\
---------------------------------------------------------------------------
    \29\ The change in the value of the dollar is measured from 1935 to 
the most recent year available, 2017. See https://
www.measuringworth.com/calculators/uscompare/result.php?year_source 
=1935&amount=1&year_result=2018.
    \30\ Mason (2001).
---------------------------------------------------------------------------
    Like a private equity firm, there were, two guiding principles. 
First, RFC programs only gave credit or other assistance to 
``reasonably sound institutions.'' \31\ Second, successful RFC programs 
often ``took a measure of control over institutions to calm junior 
creditors and nurse firms to profitability and recovery over the long 
run. . . . If a field office showed a profit, everything was fine; if 
not, someone would be detailed from Washington to see what was the 
matter, and possibly a new field office manager would be appointed.'' 
\32\
---------------------------------------------------------------------------
    \31\ Id.
    \32\ Id.
---------------------------------------------------------------------------
    The government didn't just give money away in the New Deal. It made 
money.

    Maybe, if we give the environment the attention that the President 
and Congress gave the New Deal back in the 1930s, we could come to a 
more meaningful solution. The current mandate does not show sufficient 
depth of thought to set a foundation upon which to move forward.
    In order to establish such a foundation, a better historical 
analogy might be the National Monetary Commission. Following the 
Financial Panic of 1907, Congress convened the Commission to study best 
central banking practices around the world in depth in order to make 
recommendations for meaningful reform. The result of that 
investigation, the Federal Reserve System, still stands as a major 
innovation that is one of the leading central banks in the world in 
terms of both effectiveness and stability.
    Our environment deserves the same thought and consideration.

                                 ______
                                 

    Dr. Lowenthal. Thank you very much.
    And I want to thank the panel for their testimony. I remind 
the members of the Committee, as a Committee Rule, we impose a 
5-minute limit on questions.
    I am going to now begin to recognize Members for any 
questions they may wish to ask.
    I am going to defer my questions and begin with Congressman 
Levin for the first set of questions.
    Mr. Levin. Thank you, Chair Lowenthal. I appreciate you 
holding today's hearing. And I am pleased that our Committee 
continues to discuss the broad impacts of climate change.
    This month so far, we have held hearings highlighting both 
the incredibly important science that underpins our 
understanding of climate change as well as the way our 
communities have been directly affected by the changing 
climate.
    Dealing with climate change in a bold and aggressive way is 
no fairytale. Doing nothing and expecting this problem to take 
care of itself is the real fairytale. Our discussions have 
clarified the urgent need to accelerate the country's clean 
energy production in order to reduce greenhouse gas intensive 
fossil few use. I would also add that the carbon footprint of 
renewables is negligible when compared to fossil fuels. As an 
example, the carbon emissions per unit of PV electricity is 
one-tenth or less of even the most efficient natural gas power 
plant.
    A change to renewables is absolutely essential. However, we 
must account for the way that this change will affect 
communities across the Nation and ensure a just transition. 
Clean energy production is an incredible economic opportunity 
that should be shared by all, especially those that have been 
dependent on fossil fuel production.
    Further, we need to account for communities of color, rural 
communities, and others who haven't historically been afforded 
equal economic opportunities. In California, our economy has 
grown because of the clean energy revolution.
    I look forward to working with my colleagues and friends on 
this Committee to ensure as many communities as possible can 
share these benefits.
    With that, I do have a couple of questions for Mr. Dennison 
and Mr. Hille. And I would be interested to get both of your 
perspective on this.
    Mr. Dennison and Mr. Hille, in his written testimony, Dr. 
Mason says, and I quote, ``Even assuming enough new jobs are 
created to make up for the old jobs, new jobs requiring 
different skills will render workers in the old sectors 
obsolete and leave a `lost generation' behind.''
    Mr. Dennison and Mr. Hille, what is wrong with this 
mentality? Should we, as a society, just write off coal miners 
or oil and gas workers as a ``lost generation''?
    Mr. Dennison. No. The solar energy already employs more 
than the oil industry and the coal industry combined in our 
country. That is a key point. At Coalfield Development, we 
incubated the first solar installation company in southern West 
Virginia. Our first crew chief was a former underground miner 
whose skills parlayed actually quite well. He was already a 
licensed electrician. Because of the nature of the equipment 
that he worked in, it only took 2 months to get him trained up. 
And the work ethic is phenomenal. Work ethic is not our 
problem. And because we can be adaptive and creative and we 
have that gumption and grit, I don't think the current work 
force has to be obsolete, no.
    Mr. Hille. I would add that, because of the technical 
nature of these jobs, as Brandon said, there is a very fast 
adoption curve. There is also a lot of work in addition to the 
work in renewables in energy efficiency, and that can also be 
picked up very quickly.
    The former miners that we have been working with in our new 
energy interns program go through 6 months of training at the 
end of which they are certified by the Business Professionals 
Institute, BPI certified, in order to do this same work. Some 
of them have been placed with housing organizations working on 
some of the deficient housing stock that we have in Appalachia. 
And also, some of them are interested in starting their own new 
businesses, which, as you know, is the path to prosperity and 
the great American Dream.
    I will just mention too that this is an investment that 
pays for itself. When you do energy efficiency, particularly 
commercial energy efficiency, that can pay for itself very 
quickly, because commercial energy meters charge both a demand 
rate and a usage rate. And when you implement efficiency 
measures, you reduce both of those. Often the demand rate is 
half of a commercial energy bill.
    As an example, we helped a grocery warehouse in London, 
Kentucky, do a lighting retrofit. It was a $200,000 investment. 
They are saving $100,000 a year on their utility costs. It paid 
for itself in 2 years, and they are now seeing that as a direct 
add to their bottom line.
    A lot of this new investment can pay for itself.
    Mr. Levin. Mr. Hille and Mr. Dennison, I thank you both 
very much for your work to accelerate our transition to a 
sustainable economy and for your work on a just transition.
    With that, Mr. Chair, I will yield my time.
    Dr. Lowenthal. Thank you.
    I now recognize the Ranking Member, Mr. Gosar, for 5 
minutes.
    Dr. Gosar. Thanks, Mr. Chairman.
    First of all, I would like to enter into the record two 
articles from the Financial Times, ironically today, ``China's 
demand for electric vehicles charges copper.'' That is always 
great for my state because we are known as the Copper State, 
one the five C's. And ``Australia hopes to cash in on new 
cobalt rush.''
    I would like to have those entered in the record.
    By the way, for everybody that is wondering why I have this 
up there, anybody want to gather what that is? That is a nodule 
of rare earth that comes from the Mojave Desert in my district. 
It is particularly high in nvidium, by the way. OK.
    Mr. Dennison, you made some comments, that we need to 
correct the record. You said that there were by far more solar 
jobs in the country. That is not correct. The oil and gas 
natural industry supports 10.3 million U.S. jobs and nearly 8 
percent of the U.S. economy. As of 2017, 250,271 American 
workers worked in the solar industry. This is 9,000 jobs fewer 
than in 2016. AWEA has or this wind area has 105,000. So, be 
careful with the facts.
    And, by the way, this is from the Solar Foundation, so 
these are facts from yours.
    And I am really glad that you brought up the overburden 
area because it is very pertinent to these things, these rare 
earths, because overburden has been found to have lots of rare 
earths that are attainable here.
    I mean, repurposing miners for the new advent of that 
mining industry is very, very important to me, particularly 
when we are so dependent on these.
    Dr. Mason, you mentioned in your testimony that renewable 
technology, such as wind farms and solar panels, require 
various critical minerals and rare earth elements to function. 
The Green New Deal calls for the United States to run 
exclusively on clean and renewable energy in 10 years.
    Can you remark how the global market for critical minerals 
may respond to a surge in demand of this magnitude? And, also, 
talk to me about who controls the marketplace for these rare 
earths.
    Dr. Mason. Well, the article in the Financial Times this 
morning was very, very interesting in that regard. It named 
zero American companies involved in the Democratic Republic of 
Congo. If you are familiar with the results of their elections 
that were kind of muscled through last week, you will note they 
are not democratic at all.
    It also focused on the artisanal mining, people just 
digging in the ground to get this valuable cobalt to sell it to 
make more money than they can make from anywhere else. You can 
call that small business if you want and entrepreneurial, but 
it is tremendously dirty. There are no safety regulations. We 
have children working in these artisanal mines, just as we had 
in West Virginia many, many years ago, and tried to regulate 
out the United States and did so ultimately successfully with 
safety regulations.
    These metals are extremely valuable. They are in demand 
throughout the world. China is beating us to the rush, as are 
European mining conglomerates operating in these countries with 
virtually no safety regulations or environmental protections, 
and those need to be calculated in to the overall environmental 
footprint, not just carbon footprint, of these technologies.
    And I would also like to note, even with regard to the 
carbon footprint of solar, that doesn't factor in what is 
called the rejected energy, as long as we keep wasting energy 
and having it go out in the form of unused heat, which is where 
66 percent of energy goes, according to the Lawrence Livermore 
National Laboratory. We are going to be in the same problem for 
a long time.
    Dr. Gosar. Well, in fact, you bring it up, that we are 
going to be 100 percent dictated. I mean, China has this 
policy, One Belt, One Road, and they are actually extorting 
much of the discipline and oversight and control of these rare 
critical minerals. You bring up the causticness of particularly 
smeltering these rare earths. They are bound, so current 
technology uses high concentrations of sulfuric acid, in which 
China is very lackadaisical. The United States is much more 
disciplined within it.
    In fact, a good friend of mine right now is experimenting 
with high concentrations of citric acid in order to extract it. 
So, we do these better than anybody else in the world, and if 
new technology is so predicated upon it, we ought to be 
investing in this. And overburden is one of those areas, if I 
am not mistaken. Am I not correct, Dr. Mason?
    Dr. Mason. Yes, absolutely. All energy is dirty. We need to 
conserve energy.
    Dr. Gosar. I am running out of time, but I have always been 
one of those that believes in all of the above. In fact, my 
good friend actually has a power company in north Scottsdale 
that runs on solar during the day and gas at night, utilizing 
that baseload principle. Not all energy is the same. You have 
to be able to have a continual output, wattage, along those 
lines, to make sure that everybody--when they flip the switch, 
they can actually have power.
    With that, I will yield back and wait for a second round.
    Dr. Lowenthal. Thank you, Mr. Gosar.
    Before I recognize Mr. Brown, I would like to say, my staff 
has just supplied me--at the risk of just taking it to another 
level, this discussion between Mr. Dennison and Mr. Gosar, in 
terms of exactly the jobs that are impacted--and my 
understanding, if we are talking about direct jobs, that is, 
jobs where people are hired in or by the oil and gas industry, 
versus direct jobs in solar, there are approximately 150,000, 
at this moment, direct jobs where people are hired by the 
industry in oil and gas, and 50,000 direct jobs where they are 
hired by the industry in coal, which is still less than the 
242,000 which are directly hired by solar at this moment.
    But there is a discussion, and I think it is a reasonable 
one, in terms of the impact and those are the direct jobs.
    Dr. Gosar. If the gentleman would yield.
    Dr. Lowenthal. Certainly.
    Dr. Gosar. A lot of those jobs are for the construction of 
solar fields, so they are temporary. They are not long lasting.
    Dr. Lowenthal. I appreciate that. It is important that we 
kind of clarify and we realize how complex these issues really 
are.
    Representative Brown, you have 5 minutes.
    Mr. Brown. Thank you, Mr. Chairman. In the spirit of 
Representative Bishop who is not here today, I am not going to 
read my statement, yes, indeed. Although I may make reference 
to it, or refer to it, I should say.
    So, for the record, this hearing is not about the Green New 
Deal. This hearing is about what are some of the things we need 
to do to account for, make adjustments--as the energy sector 
continues a kind of conversion or transition to renewable 
energy sources and whether we are on the same pace that we are 
on or whether we, through legislation and policy changes, 
accelerate that pace. It is important for us to ask and answer 
the questions, what does it mean for the labor force; what does 
it mean for poor and communities of color; and how does 
everyone benefit from this conversion, regardless of the rate 
in which it occurs.
    My question, which I think almost anyone can speak to--but, 
Mr. Dennison, I certainly would like to hear your thoughts; Ms. 
Farley, yours; and Ms. Shrader, yours--what are some specific, 
and, Mr. Dennison, you mentioned the 33-6-3 model. What are 
some specific Federal authorizations or appropriations, whether 
in higher education, work force development, or Federal 
procurement, that can assist the development of that work force 
as we convert from carbon-based to renewable energy sources, or 
that assist the creation of businesses, that might replace a 
coal industry in a particular community? What are some of the 
specific Federal authorizations and appropriations that we 
might consider?
    Thank you.
    Mr. Dennison. I would be happy to answer that. For the 
record, I am quoting a Forbes article from January 25, 2017, 
with my figures. It is specific to electricity generation, 
specific to that process, but also a lot of pipeline jobs, a 
lot of gas jobs----
    Mr. Brown. Mr. Dennison, are you responding to----
    Mr. Dennison. Yes, sir.
    Mr. Brown. Not on my time, please.
    Mr. Dennison. The 33-6-3, the Appalachian Regional 
Commission has been indispensable. It is an example of a place-
based Federal policy that I think is really important to this 
transition, rather than broad policies that treat every region 
the same. I will also say the RECLAIM Act is a really important 
piece of legislation for our region, and so is the 
reauthorization of the Abandoned Mine Lands Program in the 
first place.
    Something that happened a few years back was the AML Pilot 
Program for my lands, which allowed for much more local 
flexibility, to be innovative and to help start some new 
businesses. I think that level of flexibility really is 
critical.
    Mr. Brown. Thank you.
    Ms. Farley. Thank you. I would also offer--we talked a lot 
about energy efficiency today, and just like reduce, reuse, and 
recycle, that first R is reduce. I think when we have 
conversations about the energy transition, we must remember the 
importance of energy efficiency and the role energy efficiency 
plays in reducing our demand and consumption for energy first.
    And there are many opportunities on the national, state, 
and local level to support energy policies, specifically 
focused on increasing energy efficiency programs, as well as 
weatherization assistance programs that have often suffered 
from reduced Federal funding. These programs are specifically 
tied to increased job opportunities in the energy efficiency 
sector. As we have heard a couple of times today from Mr. 
Dennison and Mr. Hille, energy efficiency can reduce high-
energy burdens on working families, which, in turn, supports 
community wealth-building.
    Energy efficiency improves economic stability by increasing 
entrepreneurship and thriving wage/job opportunities. Energy 
efficiency also increases health by reducing harmful carbon 
emissions that pollute our air. And also again, energy 
efficiency promotes economic development and community wealth-
building----
    Mr. Brown. Thank you, Ms. Farley. I am sorry for 
interrupting, but I do want to hear from Ms. Shrader. These 5 
minutes go real fast.
    Ms. Farley. Sure thing.
    Ms. Shrader. The outdoor recreation economy is really 
important in this piece, because I think a lot of rural 
communities can transition to this outdoor recreation economy 
and then build a diversified economy with manufacturing 
companies and tech companies and health care right in their 
communities, in these rural places. So, one of the things that 
is really important to us is to take a lead on protecting 
public lands.
    The reauthorization of the Land and Water Conservation 
Fund, and the public lands package, and also the CORE Act that 
was just introduced by Congressman Neguse and Senator Bennet, 
is really important in making sure that we have a diversified 
economy that is going to be a great place for families to 
thrive.
    Mr. Brown. Thank you, Mr. Chairman.
    Dr. Lowenthal. Thank you. And next, Mr. Westerman.
    Mr. Westerman. Thank you, Mr. Chairman. Thank you to the 
witnesses for being here today.
    As the gentleman said, this isn't about the Green New Deal, 
but obviously everything about energy would play into this idea 
of a Green New Deal. So, I have been trying to look at the 
scope of what we are talking about. If we truly are trying to 
replace all fossil fuels in 10 years, and if we are looking at 
world energy production or world energy use, the data that I 
found shows--and this was 2006 data, so it is a little bit 
old--but the world used 471 quads of energy--a quad is 1 with 
15 zeros after it--a quadrillion BTUs of energy, and the world 
use is projected in 2020 to use 500 quads of energy.
    Of those 471 quads, 408 of it were produced from fossil 
fuels, and only 63 quads of the energy consumed in the world 
came from renewables. So, if you look globally, that is quite a 
challenge to replace 408 quads--actually, more than that now--
of fossil fuels in a 10-year time frame.
    But if we look at it just here in the United States--in 
2017, the United States used 98 quads of energy. And of that, 
77 percent of it, or 76 quads, came from fossil fuels. And the 
highest rate was from natural gas, about 32 percent; petroleum, 
about 28 percent; and coal, about 18 percent. So, here in the 
United States, we still only have a little over 20 percent of 
our energy that comes from renewables, and that includes 
nuclear.
    And I know a lot of people don't like to include nuclear in 
it. If you take the nuclear out, it is only less than 13 
percent of all of our energy comes from renewables right now.
    So, we are talking about a huge transition to go to 100 
percent renewables, no fossil fuels in 10 years, especially if 
we don't like nuclear, which is a very clean form of energy as 
well.
    But I was interested in what Mr. Dennison said about the 
number of jobs in solar versus coal and petroleum. He contends 
that there are more jobs in solar now than coal and petroleum 
combined, which creates a bit of a conundrum, because we are 
trying to figure out what to do with displaced coal workers. 
And since solar is only a tiny fraction of the renewables that 
are out there now, yet there are more people in that field than 
in coal and petroleum combined, it seems like there would be a 
huge demand and jobs available for these displaced coworkers, 
if you just train them to be in the solar field.
    Can any of our panelists tell me why there is not a huge 
demand for workers in the solar field and why we are having to 
come up with tourism and other forms of employment to help 
these displaced workers?
    Mr. Dennison. There is demand. We just certified 20 of them 
last year, and although renewables still make up a small piece 
of the pie, renewables have been the fastest growing piece of 
the pie. There is lots of innovation and investment in 
renewables.
    Mr. Westerman. Dr. Mason, can you address, from an economic 
standpoint, the manpower per million BTUs it takes to do 
renewable energy versus fossil fuel energy? And would there be 
a lot more workers required in the renewable field?
    Dr. Mason. Now you are getting into math that makes more 
sense. From an economic perspective, it is not just number of 
jobs, it is the value of those jobs, whether denominated in 
dollars or denominated in energy production, as you just did 
with your mathematics.
    The examples quoted here, one required 6 months of 
additional training. It is wonderful that that is provided. I 
come originally from Gary, Indiana, and have faced a severe 
transition in that region of the country through the 1980s and 
1990s. Retraining is absolutely crucial. We can overcome some 
of these humps, but currently, none of the legislation plans 
for that. We have programs in place in small places of the 
country. We do need to expand those to make this a meaningful 
transition.
    Mr. Westerman. If it takes more workers per unit of output, 
won't that drive the price extremely high?
    Dr. Mason. Well, either the price has to be high or the 
payment to workers has to be low, but we are not neutral with 
respect to price.
    Mr. Westerman. I am out of time.
    Dr. Lowenthal. Representative Case, you have 5 minutes.
    Mr. Case. Thank you, Mr. Chair, and thank you for the 
courtesy of letting me join you today.
    Dr. Bissett--did I say that right?
    Dr. Bissett. Yes, sir.
    Mr. Case. OK. Thank you. My questions to you have two big 
assumptions built into them, that I am asking you to get beyond 
for a little bit. Number 1, climate change is real; Number 2, 
energy transition is inescapable, it is just when and how we do 
it. That is my working assumption. You may not agree with what 
I just put forward, but I want to focus on, if I am correct, 
and if Congress as a result, a majority of Congress, enacts 
policies that are purposely designed to move us to renewable 
energy at the expense of coal, and if there is, therefore, a 
tremendous consequence to the businesses and communities that 
you represent, how do we best transition those communities?
    That is my critical question. I am not asking you whether 
we have to transition or not. I am just asking you, for now, 
how do we do it? How do we best do it?
    And as a prelude, just tell me a little bit more about your 
chamber. You have 550 businesses. How many of those businesses 
are directly or indirectly dependent on coal?
    Dr. Bissett. When I took the job, Congressman, I didn't 
think many were, and I quickly learned I was wrong. Again, my 
chamber is outside of the coalfields and a great many are. And 
again the lawyers, engineers, and accountants like I talked 
about, land holding company, barges, all those things kind of, 
not the coal mining jobs, but the indirect jobs.
    As to your question, my big concern would be that you can't 
just look at those direct jobs that direct impact, you have to 
look beyond that.
    Mr. Case. OK.
    Dr. Bissett. Because when the downturn occurred, 
Congressman, it really affected us there, and we don't really 
mine coal where my chamber is located.
    Mr. Case. I see. So, has your chamber institutionally 
considered the best form of transition for a post-coal energy 
world? Have you actually undertaken the worst-case scenario 
discussion, from your perspective, of how do we best 
transition?
    Mr. Dennison, in his testimony, had three bullets. His 
bullets were: (1) create a national just transition task force; 
(2) create a national program to support coal communities to 
include the POWER Act; and (3) pass Federal legislation to 
improve the conditions of former coal workers in distressed 
communities, to include the RECLAIM Act. Is that a good 
program, from your perspective? Do you think that will get the 
job done? How do we plan for a transition in a way that will 
best assist other communities that will be negatively impacted 
if we don't get ahead of the transition now?
    Dr. Bissett. It is a great question. It will take time to 
do that. Coalfield Development is a dues paying member of my 
chamber. Brandon is a board member of my chamber, and we 
support a lot of his work force development programs and 
recently adopted a resolution in support of it.
    We may disagree on the position we are in, and I am not 
trying to move away from your assumptions, but Appalachia needs 
more educational team and Appalachia needs livelihoods. And 
that goes back to my concern. When we saw the downturn 
previously, we were wondering when it would stop. Seeing it 
return now, our concern again is that there are going to be 
votes made here that will put us back in that jeopardy.
    It is a very tenuous time, a fragile time, like I was 
talking about. But, no, we are supportive of other economic 
development. I think we can do both, Congressman. I think we 
can mine coal, I think we can have a new economy. I think we 
can do it all. Because that new economy will benefit from low-
cost, reliable electricity generated by natural gas and coal.
    Mr. Case. I am not sure I agree with your assumption over 
the long term. I think you are taking a bit of a short- to mid-
term view of it. I am looking out not 10, but 20-plus years. If 
you had the time to plan for some kind of a transition where 
coal would be not acceptable anymore in any major scale, how do 
we get ahead of that? That is really my question, how do we 
together plan the best possible transition here? Going back to 
one question, you haven't undertaken that scenario within the 
chamber or anything like that, like, how do we actually move 
beyond this?
    Dr. Bissett. We haven't currently, because right now, there 
has been this expansion, this growth, especially in the 
southern coalfields. Northern coalfields have not been that way 
in West Virginia, but they have had the natural gas----
    Mr. Case. Has anybody in the coal industry done this 
transition thinking and planning in the coal communities? Has 
anybody actually come together for a larger picture, how do we 
transition out of this, if, in fact, we do have to have an 
energy transition away from fossil fuel----
    Dr. Bissett. I am sure as they look at long-term 
investments in their coal mines and wells, I am sure there is 
concern about that. But at the same time, the market is 
currently there and they are feeding that market. If they don't 
feed it in the United States, they are going to feed it 
internationally.
    Mr. Case. No, I understand that. That is currently.
    Dr. Bissett. Yes, sir.
    Mr. Case. And I am trying to think out into the future for 
the most orderly way of doing this as opposed to having 
circumstances thrusted upon you, which is not a very good time 
to do emergency transition planning.
    Dr. Lowenthal. Thank you.
    And now we turn to Representative Graves for your 5 minutes 
of questions.
    Mr. Graves. Thank you, Mr. Chairman. I appreciate you 
holding this hearing, and I appreciate all of your testimony 
and appreciate you being here today.
    Ms. Farley, I represent south Louisiana, and I was looking 
at your testimony where you made mention that Birmingham, 
Atlanta, New Orleans, and Memphis hold the greatest--and I am 
quoting your testimony--hold the greatest energy burdens for 
low-income households.
    I pulled some data that we had used last week in a hearing 
showing the different energy prices per kilowatt hours in the 
states. Alabama, for example, is 12.41 per kilowatt hour; 
Georgia is 12.26; Tennessee is 10.79; and Louisiana, coming in 
at the lowest cost in the Nation, is 9.37. Whereas other 
states--we had the governor of Massachusetts here last week who 
was here advocating for renewable policies. The state of 
Massachusetts is 21.11 cents per kilowatt hour, more than 
double that of Louisiana and nearly double that of the other 
states.
    Other states that are fun to pick on sometimes, Mr. Huffman 
and Mr. Lowenthal, just for fun, 19.9 cents per kilowatt hour. 
So, I guess I am just trying to understand, it seems like lower 
prices would----
    Mr. Huffman. Would the gentleman yield for a correction?
    Mr. Graves. Can I get an answer first?
    Mr. Huffman. On California? Well, we will get back to that.
    Mr. Graves. All right. Does that make sense? It seems like 
lower prices would be helpful versus the higher prices that 
other states have. I just wonder if you could respond to that.
    Ms. Farley. Yes, absolutely. Rates alone do not equal 
bills. When we are talking about energy burden, we are talking 
about the fully burdened cost of a bill to households and 
ratepayers. So, yes, there are some states in the South that do 
boast lower rates, but that does not make a bill.
    Mr. Graves. It doesn't, but so if we had Massachusetts 
rates more than doubled, do you think that would make it easier 
to afford?
    Ms. Farley. I am not familiar with the numbers of 
Massachusetts. I do applaud their efforts in their shift to 
renewable energy and saw that testimony last week. But in the 
South, again, while many states and investor-owned utilities 
boast lower than average national rates, rates alone do not 
equal utility bills. There are many fees and sometimes punitive 
in regards to solar across many states in the South that do 
equal higher bills and, ultimately, higher burdens on lower 
income households.
    Mr. Graves. Mr. Chairman, I would ask to submit for the 
record the documents showing the various rates. I am not sure 
that I understand how energy efficiency would be the burden of, 
how actions of a state could prevent an individual from 
pursuing energy efficiency improvements in their own homes, but 
again----

    Dr. Lowenthal. That will be accepted without objection.

    [The information follows:]

Submission for the Record by Rep. Graves

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


Trends & Observations from State Data

From this data, we can see the state with the lowest electric rates is 
Louisiana. On average, homes in Louisiana pay 9.53 cents per kWh. 
Residential customers in Texas, the country's largest deregulated 
market for electricity, pay a relatively low price for electricity as 
well of 11.68 cents per kWh.

The state that saw the great increase in prices for electricity is 
Rhode Island. Rhode Island customers are paying nearly 20% more for 
electricity in 2018.

                                 ______
                                 

    Mr. Graves. Thank you. And secondly, Mr. Chairman, I would 
ask, while I am doing UCs for fun, this is a document, May 
2018, from the National Association of State Energy Officials, 
showing that the jobs from coal, natural gas, oil, as compared 
to solar, aren't even kind of close. As a matter of fact, when 
you add them up quickly, it looks like you are about three 
times more jobs in those fields than in the solar market.
    Dr. Lowenthal. Without objection.
    Mr. Graves. Thank you.
    Last, Dr. Mason, I understand you have worked for the 
Office of the Comptroller of the Currency, Federal Reserve, 
European Union, and other impressive places and, of course, 
also professor at LSU. So, thank you very much for being here. 
I just want to quickly ask you to comment on the Green New Deal 
or other concepts where the United States unilaterally takes 
aggressive actions to reduce emissions, just comparatively 
talking about the low kilowatt hour in Louisiana that largely 
is a natural gas fuel source for electricity generation. What 
happens globally when you squeeze the United States in terms of 
emissions, what happens globally when you do something like 
that?
    Dr. Mason. Well, these are strategic resources recognized 
worldwide, and just socioeconomically, when you start 
redistributing strategic resources around the world, countries 
will fight for strategic resources. They will fight through 
negotiating processes, through international relations 
processes, and sometimes even physically fight for those 
resources.
    So, when we start moving around the distribution of those 
resources, we really put the world at risk in a lot of 
different ways. I am not saying that that should prevent us 
from doing so.
    Mr. Graves. Sure.
    Dr. Mason. I am merely saying that we need to look at this 
problem in a holistic, multi-dimensional way to even try to 
understand the multiple tentacles that reach out.
    I want to point out that the jobs issue, for instance, is 
really not just an energy jobs issue. It is relating to the 
hollowing out of the middle of America, and that hollowing out 
is occurring fundamentally through access to education, which 
isn't equally attainable in the middle of the country right 
now. We need to develop this country overall, and this is a 
much larger problem than energy, although it kind of starts 
with energy, because if we have efficient energy from a variety 
of sources, we can better develop.
    So, these things are what we call endogenous process. There 
are various feedback loops involved with them. It is very 
complex. There are sciences dealing with analyzing these. And I 
think, Chairman Lowenthal, please begin those discussions, 
respectful discussions, so that we can work out some of these 
feedback mechanisms and put in place meaningful policies to not 
just help coalfields, but expand some of these programs 
nationwide to the core of America, and think about how much 
that is going to take, where the money is going to come from, 
and let's get moving.
    Mr. Graves. I yield back. Thank you.
    Dr. Lowenthal. Thank you.
    Now, Representative Huffman.
    Mr. Huffman. Thanks.
    And, Mr. Graves, the witness gave part of my correction 
that I wanted to send your way, but we have to look at energy 
bills and not just rates. That is super important when you look 
at a state like California that has invested tremendously in 
energy efficiency. Because of those investments, bills have 
come way down, even though if you look at the unit cost of 
energy in rates, it would appear to be higher. So, I would 
really urge you to take a look at that and then let's see where 
the states compare with each other.
    Mr. Graves. Thank you. And we will also take your moderate 
temperatures.
    Mr. Huffman. Right. We can do all kinds of interesting 
cultural exchanges. I want some of your gumbo.
    I was interested in the discussion that I just caught 
involving Mr. Bissett. And, Mr. Hille, I noticed you shaking 
your head a little bit during some of the testimony regarding 
this coal renaissance that I would argue is kind of a temporary 
thing. The Trump administration has gone out of its way, 
engaged in herculean efforts to breathe life into what I think 
most other objective observers would say is a dying industry, 
coal.
    One of the many indications of this huge effort across the 
aisle to prop up coal against all of the other forces that are 
causing it to be a declining industry involves the zombie coal 
earmark that Mr. McClintock and I even worked on in prior 
years. There was actually this earmark from the height of the 
cold war that required U.S. military bases in Germany to buy a 
specific type of coal from Pennsylvania, and it was not 
efficient. It was absolutely corporate cronyism of the worst 
order, and Mr. McClintock and I worked together to eliminate 
that from the Defense budget.
    It is back in this year. And once again, American military 
bases in Germany are buying Pennsylvania coal because Congress 
says they have to and the Trump administration says they have 
to. So, there is an incredible effort to prop up coal for a 
little while longer. I would argue it is a little bit like 
these warm days in February we have here in Washington. The 
cherry blossoms will kind of start to come out, but it is not 
really spring.
    I want to hear your thoughts, Mr. Hille, because you were 
shaking your head.
    Mr. Hille. I think what is important to understand about 
what has been a fairly small uptick in coal production is that 
it is largely in metallurgical coal. And I think Bill would 
agree with me on that. And it is important to understand, 
metallurgical coal is geologically a different type of coal 
that doesn't exist everywhere. There is some in southern West 
Virginia. There is some in Virginia. There is a very narrow 
band of it in far eastern Kentucky, but most of Kentucky's coal 
is thermal coal or steam coal, which is used to generate 
electricity, and that has simply not come back.
    We had a minor increase in 2017 of about 30 jobs in 
Kentucky, and then in 2018, we lost another 200. So, the 
thermal coal is not coming back in Appalachia. And to the 
extent that it will continue to be a part of our energy mix--
and it will for some time--it is not going to come from 
Appalachia, because our coal is harder to get. It is more 
expensive to mine. The good accessible seams have been mined 
out, and it is not cost effective to blow off the top of a 
mountain when you can go somewhere else and scoop it off the 
surface of the ground.
    So, Appalachia is not going to be competitive, and that is 
why this work of creating a just transition for these 
communities is critical, and we have the means and the 
processes to do that.
    Mr. Huffman. And to not do that long-term transition 
planning just because there appears to still be a market right 
now, how would you characterize that?
    Mr. Hille. I think short-sighted would be a good way to 
describe it. And, in fact, there are a lot of significant 
efforts going on. Congressman Rogers and then Governor Beshear 
in Kentucky created the SOAR initiative, which has been a large 
planning process, recognizing that thermal coal wasn't going to 
come back, that Kentucky coal wasn't going to come back.
    We have the largest concentration of distressed counties in 
Appalachia, and there is broad recognition that we need to do 
this. And the plan that SOAR has put together is a broad plan 
and it has a strong emphasis on entrepreneurship, as does the 
Appalachian Regional Commission.
    Mr. Huffman. All right, so while I have you, I know you 
have been a huge supporter of solar deployment in Appalachia. 
Do you see a future for broader adoption of solar in the 
region, and can you describe some of the ways the Federal 
Government can help with solar deployment in the region?
    Mr. Hille. We are actually seeing an interesting uptick in 
demand for solar in small commercial enterprises. MACED is a 
CDFI. We are a small business lender. We work with our clients 
to do energy efficiency first because that is the low-hanging 
fruit, but many of them are now coming to us first saying, no, 
I want solar. We say, OK, but if you do the efficiency, you 
don't have to put as much solar on your roof. But they see it 
as part of marketing. They also see it as a way to respond to 
rising energy bills. I think there are probably a lot of things 
the Federal Government could do to support and encourage that.
    Mr. Huffman. Thank you very much. I yield back.
    Dr. Lowenthal. Thank you.
    I now recognize Ms. Cheney for 5 minutes of questions.
    Ms. Cheney. Thank you very much, Mr. Chairman.
    Mr. Chairman, I would like to ask unanimous consent to 
enter a document into the record that is titled, ``Overview and 
Frequently Asked Questions'' that initially appeared on 
Congresswoman Ocasio-Cortez's website and was submitted to NPR.
    Dr. Lowenthal. Without objection.

    [The information follows:]

LAUNCH: Thursday, February 7, at 8:30 AM.

                                Overview

We will begin work immediately on Green New Deal bills to put the nuts 
and bolts on the plan described in this resolution (important to say so 
someone else can't claim this mantle).

This is a massive transformation of our society with clear goals and a 
timeline.

          <bullet>   The Green New Deal resolution a 10-year plan to 
        mobilize every aspect of American society at a scale not seen 
        since World War 2 to achieve net-zero greenhouse gas emissions 
        and create economic prosperity for all. It will:

                  <bullet>  Move America to 100% clean and renewable 
                energy

                  <bullet>  Create millions of family supporting-wage, 
                union jobs

                  <bullet>   Ensure a just transition for all 
                communities and workers to ensure economic security for 
                people and communities that have historically relied on 
                fossil fuel industries

                  <bullet>   Ensure justice and equity for frontline 
                communities by prioritizing investment, training, 
                climate and community resiliency, economic and 
                environmental benefits in these communities

                  <bullet>   Build on FDR's second bill of rights by 
                guaranteeing:

                      <bullet>   A job with a family sustaining wage, 
                family and medical leave, vacations, and retirement 
                security

                      <bullet>   High-quality education, including 
                higher education and trade schools

                      <bullet>  Clean air and water and access to 
                nature

                      <bullet>  Healthy food

                      <bullet>  High-quality health care

                      <bullet>  Safe, affordable, adequate housing

                      <bullet>  Economic environment free of monopolies

                      <bullet>  Economic security for all who are 
                unable or unwilling to work

There is no time to waste.

          <bullet>   IPCC Report said global emissions must be cut by 
        by 40-60% by 2030. US is 20% of total emissions. We must get to 
        0 by 2030 and lead the world in a global Green New Deal.

Americans love a challenge. This is our moonshot.

          <bullet>   When JFK said we'd go to the by the end of the 
        decade, people said impossible.

          <bullet>   If Eisenhower wanted to build the interstate 
        highway system today, people would ask how we'd pay for it.

          <bullet>   When FDR called on America to build 185,000 planes 
        to fight World War 2, every business leader, CEO, and general 
        laughed at him. At the time, the U.S. had produced 3,000 planes 
        in the last year. By the end of the war, we produced 300,000 
        planes. That's what we are capable of if we have real 
        leadership.

This is massive investment in our economy and society, not expenditure.

          <bullet>   We invested 40-50% of GDP into our economy during 
        World War 2 and created the greatest middle class the US has 
        seen.

          <bullet>   The interstate highway system has returned more 
        than $6 in economic productivity for every $1 it cost.

          <bullet>   This is massively expanding existing and building 
        new industries at a rapid pace--growing our economy.

The Green New Deal has momentum.

          <bullet>   92 percent of Democrats and 64 percent of 
        Republicans support the Green New Deal.

          <bullet>   Nearly every major Democratic Presidential 
        contender say they back the Green New deal including: Elizabeth 
        Warren, Cory Booker, Kamala Harris, Jeff Merkeley, Julian 
        Castro, Kirsten Gillibrand, Bernie Sanders, Tulsi Gabbard, and 
        Jay Inslee.

          <bullet>   45 House Reps and 330+ groups backed the original 
        resolution for a select committee.

          <bullet>   Over 300 local and state politicians have called 
        for a federal Green New Deal.

          <bullet>   New Resolution has 20 co-sponsors, about 30 groups 
        (numbers will change by Thursday).

                                  FAQs

Why 100% clean and renewable and not just 100% renewable? Are you 
saying we won't transition off fossil fuels?

    Yes, we are calling for a full transition off fossil fuels and zero 
greenhouse gases. Anyone who has read the resolution sees that we spell 
this out through a plan that calls for eliminating greenhouse gas 
emissions from every sector of the economy. Simply banning fossil fuels 
immediately won't build the new economy to replace it--this is the plan 
to build that new economy and spells out how to do it technically. We 
do this through a huge mobilization to create the renewable energy 
economy as fast as possible. We set a goal to get to net-zero, rather 
than zero emissions, in 10 years because we aren't sure that we'll be 
able to fully get rid of farting cows and airplanes that fast, but we 
think we can ramp up renewable manufacturing and power production, 
retrofit every building in America, build the smart grid, overhaul 
transportation and agriculture, plant lots of trees and restore our 
ecosystem to get to net-zero.
Is nuclear a part of this?
    A Green New Deal is a massive investment in renewable energy 
production and would not include creating new nuclear plants. It's 
unclear if we will be able to decommission every nuclear plant within 
10 years, but the plan is to transition off of nuclear and all fossil 
fuels as soon as possible. No one has put the full 10-year plan 
together yet, and if it is possible to get to fully 100 percent 
renewable in 10 years, we will do that.
Does this include a carbon tax?
    The Green New Deal is a massive investment in the production of 
renewable energy industries and infrastructure. We cannot simply tax 
gas and expect workers to figure out another way to get to work unless 
we've first created a better, more affordable option. So we're not 
ruling a carbon tax out, but a carbon tax would be a tiny part of a 
Green New Deal in the face of the gigantic expansion of our productive 
economy and would have to be preceded by first creating the solutions 
necessary so that workers and working class communities are not 
affected. While a carbon tax may be a part of the Green New Deal, it 
misses the point and would be off the table unless we create the clean, 
affordable options first.
Does this include cap and trade?
    The Green New Deal is about creating the renewable energy economy 
through a massive investment in our society and economy. Cap and trade 
assumes the existing market will solve this problem for us, and that's 
simply not true. While cap and trade may be a tiny part of the larger 
Green New Deal plan to mobilize our economy, any cap and trade 
legislation will pale in comparison to the size of the mobilization and 
must recognize that existing legislation can incentivize companies to 
create toxic hotspots in frontline communities, so anything here must 
ensure that frontline communities are prioritized.
Does a GND ban all new fossil fuel infrastructure or nuclear power 
        plants?
    The Green New Deal makes new fossil fuel infrastructure or nuclear 
plants unnecessary. This is a massive mobilization of all our resources 
into renewable energies. It would simply not make sense to build new 
fossil fuel infrastructure because we will be creating a plan to 
reorient our entire economy to work off renewable energy. Simply 
banning fossil fuels and nuclear plants immediately won't build the new 
economy to replace it--this is the plan to build that new economy and 
spells out how to do it technically.
Are you for CCUS?
    We believe the right way to capture carbon is to plant trees and 
restore our natural ecosystems. CCUS technology to date has not proven 
effective.
How will you pay for it?
    The same way we paid for the New Deal, the 2008 bank bailout and 
extended quantitative easing programs. The same way we paid for World 
War II and all our current wars. The Federal Reserve can extend credit 
to power these projects and investments and new public banks can be 
created to extend credit. There is also space for the government to 
take an equity stake in projects to get a return on investment. At the 
end of the day, this is an investment in our economy that should grow 
our wealth as a nation, so the question isn't how will we pay for it, 
but what will we do with our new shared prosperity.

Why do we need a sweeping Green New Deal investment program? Why can't 
we just rely on regulations and taxes and the private sector to invest 
alone such as a carbon tax or a ban on fossil fuels?

    <bullet> The level of investment required is massive. Even if every 
            billionaire and company came together and were willing to 
            pour all the resources at their disposal into this 
            investment, the aggregate value of the investments they 
            could make would not be sufficient.

    <bullet> The speed of investment required will be massive. Even if 
            all the billionaires and companies could make the 
            investments required, they would not be able to pull 
            together a coordinated response in the narrow window of 
            time required to jump-start major new projects and major 
            new economic sectors. Also, private companies are wary of 
            making massive investments in unproven research and 
            technologies; the government, however, has the time horizon 
            to be able to patiently make investments in new tech and 
            R&D, without necessarily having a commercial outcome or 
            application in mind at the time the investment is made. 
            Major examples of government investments in ``new'' tech 
            that subsequently spurred a boom in the private section 
            include DARPA-projects, the creation of the internet--and, 
            perhaps most recently, the government's investment in 
            Tesla.

    <bullet> Simply put, we don't need to just stop doing some things 
            we are doing (like using fossil fuels for energy needs); we 
            also need to start doing new things (like overhauling whole 
            industries or retrofitting all buildings to be energy 
            efficient). Starting to do new things requires some upfront 
            investment. In the same way that a company that is trying 
            to change how it does business may need to make big upfront 
            capital investments today in order to reap future benefits 
            (for e.g., building a new factory to increase production or 
            buying new hardware and software to totally modernize its 
            IT system), a country that is trying to change how its 
            economy works will need to make big investments today to 
            jump-start and develop new projects and sectors to power 
            the new economy.

    <bullet> Merely incentivizing the private sector doesn't work--e.g. 
            the tax incentives and subsidies given to wind and solar 
            projects have been a valuable spur to growth in the US 
            renewables industry but, even with such investment-
            promotion subsidies, the present level of such projects is 
            simply inadequate to transition to a fully greenhouse gas 
            neutral economy as quickly as needed.

    <bullet> Once again, we're not saying that there isn't a role for 
            private sector investments; we're just saying that the 
            level of investment required will need every actor to pitch 
            in and that the government is best placed to be the prime 
            driver.

                           Resolution Summary

Created in consultation with multiple groups from environmental 
community, environmental justice community, and labor community

5 goals in 10 years:

    <bullet> Net-zero greenhouse gas emissions through a fair and just 
            transition for all communities and workers

    <bullet> Create millions of high-wage jobs and ensure prosperity 
            and economic security for all

    <bullet> Invest in infrastructure and industry to sustainably meet 
            the challenges of the 21st century

    <bullet> Clean air and water, climate and community resiliency, 
            healthy food, access to nature, and a sustainable 
            environment for all

    <bullet> Promote justice and equity by stopping current, preventing 
            future, and repairing historic oppression of frontline and 
            vulnerable communities

National mobilization our economy through 14 infrastructure and 
industrial projects. Every project strives to remove greenhouse gas 
emissions and pollution from every sector of our economy:

    <bullet> Build infrastructure to create resiliency against climate 
            change-related disasters

    <bullet> Repair and upgrade U.S. infrastructure. ASCE estimates 
            this is $4.6 trillion at minimum

    <bullet> Meet 100% of power demand through clean and renewable 
            energy sources

    <bullet> Build energy-efficient, distributed smart grids and ensure 
            affordable access to electricity

    <bullet> Upgrade or replace every building in US for state-of-the-
            art energy efficiency

    <bullet> Massively expand clean manufacturing (like solar panel 
            factories, wind turbine factories, battery and storage 
            manufacturing, energy efficient manufacturing components) 
            and remove pollution and greenhouse gas emissions from 
            manufacturing

    <bullet> Work with farmers and ranchers to create a sustainable, 
            pollution and greenhouse gas free, food system that ensures 
            universal access to healthy food and expands independent 
            family farming

    <bullet> Totally overhaul transportation by massively expanding 
            electric vehicle manufacturing, build charging stations 
            everywhere, build out high-speed rail at a scale where air 
            travel stops becoming necessary, create affordable public 
            transit available to all, with goal to replace every 
            combustion-engine vehicle

    <bullet> Mitigate long-term health effects of climate change and 
            pollution

    <bullet> Remove greenhouse gases from our atmosphere and pollution 
            through afforestation, preservation, and other methods of 
            restoring our natural ecosystems

    <bullet> Restore all our damaged and threatened ecosystems

    <bullet> Clean up all the existing hazardous waste sites and 
            abandoned sites

    <bullet> Identify new emission sources and create solutions to 
            eliminate those emissions

    <bullet> Make the US the leader in addressing climate change and 
            share our technology, expertise and products with the rest 
            of the world to bring about a global Green New Deal

Social and economic justice and security through 15 requirements:

    <bullet> Massive federal investments and assistance to 
            organizations and businesses participating in the green new 
            deal and ensuring the public gets a return on that 
            investment

    <bullet> Ensure the environmental and social costs of emissions are 
            taken into account

    <bullet> Provide job training and education to all

    <bullet> Invest in R&D of new clean and renewable energy 
            technologies

    <bullet> Doing direct investments in frontline and deindustrialized 
            communities that would otherwise be hurt by the transition 
            to prioritize economic benefits there

    <bullet> Use democratic and participatory processes led by 
            frontline and vulnerable communities to implement GND 
            projects locally

    <bullet> Ensure that all GND jobs are union jobs that pay 
            prevailing wages and hire local

    <bullet> Guarantee a job with family sustaining wages

    <bullet> Protect right of all workers to unionize and organize

    <bullet> Strengthen and enforce labor, workplace health and safety, 
            antidiscrimination, and wage and hour standards

    <bullet> Enact and enforce trade rules to stop the transfer of jobs 
            and pollution overseas and grow domestic manufacturing

    <bullet> Ensure public lands, waters, and oceans are protected and 
            eminent domain is not abused

    <bullet> Obtain free, prior, and informed consent of Indigenous 
            peoples

    <bullet> Ensure an economic environment free of monopolies and 
            unfair competition

    <bullet> Provide high-quality health care, housing, economic 
            security, and clean air, clean water, healthy food, and 
            nature to all

                                 ______
                                 

    Ms. Cheney. Thank you very much, Mr. Chairman.
    Mr. Chairman, I appreciate very much the opportunity to 
discuss this issue today of how we transition our communities 
to a so-called green economy. My state of Wyoming, as I am sure 
our witnesses know, is the Nation's largest coal-producing 
state, and we also know in Wyoming that coal is going to 
continue to be a crucially important source of baseload power 
for the Nation, that the reliability is something that simply 
cannot be replaced, and it is a national security issue in 
addition to an economic issue.
    My constituents are obviously very concerned about this 
notion that we are somehow going to transition over the course 
of 10 years here to an economy that is entirely run on green 
energy. And certainly, they have concerns about the fossil fuel 
aspect of that, but I have to say, one of the issues that 
people are particularly concerned about is the extent to which 
we are no longer going to have air travel, apparently, 
according to some of the frequently asked question answers we 
have seen.
    So, I guess I would like to start by asking each witness to 
tell me exactly how they arrived in Washington, DC, for this 
hearing. And it is just a one-word answer, and I will start 
with you, Ms. Farley.
    Ms. Farley. On a plane.
    Ms. Shrader. On a plane.
    Dr. Bissett. A big white pick-up truck.
    Mr. Hille. A truck.
    Mr. Dennison. Plane.
    Dr. Mason. Air and Metro.
    Ms. Cheney. Thank you very much. I would assume that each 
of the witnesses who believes that we should, in fact, move 
toward net zero emissions, would say that we ought to do so 
gradually, not suddenly. So, I would ask--and again I will 
start with you, Ms. Farley--if you could describe for me, 
perhaps, exactly how we will do that gradually? I would assume 
we are not just going to wait 10 years and then all of a sudden 
tell people they can't fly, but that we will be in a situation 
where, over the course of 10 years, we would somehow gradually 
work our way out of air travel. And I would also have to guess 
that that would involve some sort of prioritization.
    I assume even my colleagues on the other side of the aisle 
who support the Green New Deal and perhaps the witnesses who 
support the Green New Deal wouldn't advocate, for example, that 
we cancel things like life flights. They wouldn't advocate that 
we immediately move away from being able to transport people 
who have life-threatening illnesses by plane, but that there 
would be some other prioritization there.
    So, Ms. Farley, could you tell me exactly how the 
government should prioritize air travel and the gradual move 
away from all air travel?
    Ms. Farley. I would depend on the FAA and other Federal 
agencies that focus on air travel to tackle that question. The 
Green New Deal is a sweeping collection of recommendations and 
policies----
    Ms. Cheney. Thank you very much, Ms. Farley.
    So, the FAA then, I would assume, I guess we are going to 
set up a situation where the FAA then can tell individual 
citizens which of their air travel is worthy and important and 
which isn't? And it would seem to me, I guess we would then 
have a situation where the FAA could say, for example, you know 
what, vacation travel, that is not essential. We have to make 
sure that we can do the air travel for the people that really 
need it, so no vacation travel.
    Would you say we are going to have some sort of a vacation 
commissar set up in the government to determine what kind of 
air travel makes sense and what kind doesn't? Ms. Shrader, 
maybe I will go to you on that question.
    Ms. Shrader. With all due respect, I came here to talk 
about my community and how we have transitioned----
    Ms. Cheney. So, you don't support the Green New Deal then?
    Ms. Shrader. I haven't, I am not an expert on the Green New 
Deal.
    Ms. Cheney. OK.
    Mr. Huffman. Will the gentlelady yield for a correction on 
how she is badly mischaracterizing the resolution on the Green 
New Deal?
    Ms. Cheney. No, I won't yield, Mr. Huffman. Mr. Huffman, 
you had plenty of time----
    Mr. Huffman. This is fiction. This entire line of 
questioning is fiction.
    Ms. Cheney. I would like to have my time restored, please, 
Mr. Chairman.
    Let me ask you then, are there any other witnesses on the 
panel who do support the Green New Deal?
    Nobody supports the Green New Deal on this panel? 
Interesting.
    Ms. Farley. I support many of the policies and 
recommendations in the Green New Deal, specifically the support 
to make sure that any climate solution strategy is centered in 
equity. I do not see anything about----
    Ms. Cheney. Thank you very much. I appreciate that.
    Reclaiming my time, I would just say that I think it is 
going to be crucially important for us to recognize and 
understand, when we outlaw plane travel, we outlaw gasoline, we 
outlaw cars, I think actually probably the entire U.S. military 
because of the Green New Deal, that we are able to explain to 
our constituents and to people all across this country what 
that really means. And even when it comes down to something 
like air travel, which the frequently asked questions say they 
want to eliminate within the next 10 years, that means that the 
government is going to be telling people where they can fly to 
and where they can't. And I would assume I guess that means our 
colleagues from California are going to be riding their 
bicycles back home to their constituents.
    Thank you very much. I yield back.
    Dr. Lowenthal. Thank you. I am going to yield the first 1 
minute of my 5 minutes to Representative Huffman.
    Mr. Huffman. Thank you. It is not really enough time to 
fully fact check what we just heard, which was an entire line 
of questioning based on absolute hooey. I am co-sponsor of the 
Green New Deal resolution, and you have to read the resolution, 
OK? Not take extrapolations from some unofficial FAQs that 
actually were taken off an individual Congress Member's 
website, because they do not reflect what is actually in the 
resolution. But the notion that any of us who are supporting 
the actual resolution, which you need to read, that we want to 
ban all air travel, that is crazy. That is absolutely crazy. 
None of us want to do that.
    I was just listening as the gentlelady said that we want to 
outlaw cars and get rid of the military. There comes a point 
where this type of questioning is so disingenuous and so 
completely disconnected from anything factual that there ought 
to be a mechanism to strike it from the record.
    So, with that, I yield back.
    Dr. Lowenthal. Thank you. And I will resume the rest of my 
time.
    My first question is for Ms. Farley. I am trying to 
understand or for you to help us reconcile some differences. In 
your written testimony, you talked about, and I will just read 
the first sentence: ``We know that with data-informed certainty 
that systemically disenfranchised, under-resourced communities 
and communities of color in the South bear a disproportionate 
burden of the negative impacts of climate change and carbon-
based energy production.''
    How do you reconcile that statement with a statement that 
we heard in last week's presentation, which you indicated you 
also listened to, where this Committee heard testimony from a 
witness who argued that the increased use of fossil fuels is 
the best way to address high-energy costs in low-income African 
American communities? This is completely at odds. Can you kind 
of help us reconcile that difference?
    Ms. Farley. Yes, absolutely. I agree that is completely at 
odds. And similar to the rates versus bills question, I believe 
that it is imperative that we understand that costs of energy 
are not just about the energy costs. The disproportionate 
burdens that people in the South and communities of color bear 
when located within 30 miles of coal-fired power plants--
approximately 68 percent, actually, of African Americans live 
within 30 miles of a coal-fired power plant--suffer from low 
property values, increased accounts of lung disease, asthma, 
and asthma-associated attacks.
    These asthma-associated attacks also impact the healthcare 
and education sectors as emergency room visits, 
hospitalizations, and missed school days from children lead to 
missed work and job insecurity for their parents. All of these 
things are increased due to the harmful, life-threatening 
emissions of fossil fuel-based energy production.
    So, that is where I would say there is no reconciliation 
between the ability of fossil fuels to provide benefit to 
under-resourced communities or communities of color.
    Dr. Lowenthal. Thank you.
    Ms. Shrader, you mentioned in your testimony, how economies 
that are dependent upon commodities such as oil and gas and 
coal are highly vulnerable, repeated cycles of boom or bust. 
Not the image that we hear today, but that has really been what 
the history has been. And then you offer to us another 
alternative--outdoor recreation and others, in terms of 
protection of public lands, how to use public lands. Does 
outdoor recreation have the similar boom-or-bust cycles? Or can 
you talk to us about that? Because you are offering a different 
view of the economy year to year also. If you can explain that 
to us.
    Ms. Shrader. Yes, that is a great question. We have not 
seen a boom-bust cycle on outdoor recreation because it is an 
industry that is so important, engrained in the quality of 
life. So, what we are seeing in a community like Grand Junction 
is that we are attracting manufacturing, aviation, tech 
businesses, to relocate to our community because they want the 
quality of life and the investments we have made in outdoor 
recreation, and so it is sort of this broad scope.
    The other thing that I heard at the beginning was that 
these outdoor recreation jobs are underpaid and we are just 
coffee shop workers. I would tell you that my company pays 130 
percent of the Mesa County average salary, and there are other 
outdoor recreation companies like this, like Leitner-Poma, like 
Mountain Racing Products, I mean, product companies, 
manufacturers, that do the same. So, we are not seeing that 
boom-bust cycle that is so decimating and devastating for a 
community in oil and gas. And this has been happening for 70 
years in Mesa County, so it is really important to transition 
to this sustainable, diversified economy.
    Dr. Lowenthal. Thank you.
    Now I ask Representative Kevin Hern from Oklahoma, you have 
5 minutes to ask questions. And thank you for being so patient.
    Mr. Hern. Thank you, Mr. Chairman. This is great.
    Thank you all for your testimony today, and your honesty, 
how you got here, is good.
    As an engineer and a business person, I strongly believe in 
data and budgets, and I wish we all did. At some point in time, 
we have to pay for this. I am also a member of the Budget 
Committee, by request, because I want to know where all the 
money goes. Currently we are at $22 trillion in debt, and it is 
forecast, the next 10 years, if we don't do anything, we are 
going to be at $35 trillion. And U.S. small business people 
appreciate the fact that I am concerned about our national 
debt, which I think is a travesty. We don't have to have much 
science to look at that.
    Bloomberg--since we are talking about New Green Deal, 
Bloomberg estimates it is going to cost roughly a trillion 
dollars a year over the next 10 years, the implementation of 
the New Green Deal. But I am a person, as you all are, that 
believes that in business, nothing operates in a silo onto 
itself. Whatever you do affects other things. It affects our 
ability to take money and help other issues, whether it is our 
needy, our poor.
    So, we have a real opportunity here to try to figure out 
how we are going to pay for this. One of the things that is 
interesting, I also talked to the OMB Director the other day, 
we had a hearing, and asked him how much it cost to pay for 
this. And it would be almost doubling of the income tax on 
every individual in America to pay for the initiatives that my 
friends across the aisle want to implement.
    The other thing is, I don't look at static numbers, and I 
am sure you don't either. You look at trends. And when you look 
at the trends, the population is growing in this country, the 
GDP is growing, and our emissions per GDP and per capita are 
declining, which is the direction we want them to go, in a 
national free market way, which is a great sign that my 
colleagues across the aisle should love that we are going. All 
of our debate is causing free market ideas, and demands for 
renewables is being met with free enterprise, development 
supply without exacerbating our national debt issue.
    So, that should be something that we all like in here and 
we all should be applauding, we all stand up and all just 
leave, that we are all accomplishing our mission.
    Ms. Farley, you did say something, and my colleague from 
California mentioned this a minute ago, which was from my 
colleague, Mr. Graves, about that a bill is more than just a 
cost per kilowatt hour. And we talked about Massachusetts, who 
was pushing renewables, that their costs are going up.
    And, Mr. Huffman, I think you said that there are a lot of 
energy efficient things that are driving up costs. I find that 
a little bit ironic, and I would ask you to quote on this, how 
when we are driving efficiency it is costing the individual 
more. How does that work, how do the American people get 
excited about that?
    Ms. Farley. Thank you. I don't think I understand the 
question.
    Mr. Hern. Well, Mr. Chairman, it goes back to Mr. 
Lowenthal's question of how we reconcile what Mr. Hollie said 
last week, that renewables actually cost Americans more, not 
less. I grew up very poor. When I was young, I grew up with 
food stamps, so you have to make a decision, do I feed my 
family or pay my electric bill.
    So, how do you reconcile when you get more efficient that 
it costs you more to have energy?
    Ms. Farley. I don't believe that the more efficient you are 
that it costs you more. The whole point of efficiency is to 
reduce your utility bills.
    Mr. Hern. Well, I was just mentioning what Mr. Huffman 
said, the more efficient we got----
    Mr. Huffman. Will the gentleman yield for 5 seconds?
    Mr. Hern. Sure.
    Mr. Huffman. It is the difference between unit cost and 
out-of-pocket cost to the consumer on their bill. The unit cost 
may go up, but the bill itself does not go up and in some cases 
can go down.
    Mr. Hern. But somebody is paying for that, correct? I mean, 
it is not free.
    Mr. Mason, can I ask you a question? In your testimony, you 
state the concerns we have is energy curtails CO<INF>2</INF>, 
it increases the concentration of other pollutants, such as, if 
you have no wind, you can't have wind energy; if you have no 
sun, you have no sun energy, so in those times you have to 
store it by batteries, or issues of that. Would you agree that 
we need to have some analysis on the impact of an environment 
before we just take off down this road?
    Dr. Mason. Absolutely, though analysis will not get us 
there. There are going to be substantial uncertainties with 
regard to the environment and substantial uncertainties with 
regard to the interaction of different energy products with 
regard to that environment.
    A point in case that I made in my written testimony was 
that a trader that posed the electricity exchange in Northern 
Europe with a hundred million euro loss in September 2018, 
because while Europe was experiencing a drought, Northern 
Europe, who is based primarily on hydro, experienced excess 
rainfall.
    So, you can't understand, no matter how much analysis you 
do, a meteorologist won't tell you what the----
    Mr. Hern. Dr. Mason, if you don't mind. We tried to get 
into the rules so that we had not had an analysis of impact--
economic impact on anything that we did related to the 
transition, and that rule was struck down, was not allowed to 
enter into the rules of this Congress or this Committee.
    I appreciate everyone being here. It has been a long day, a 
lot longer than you thought. Thank you for your witness.
    I yield back, Mr. Chairman.
    Dr. Lowenthal. Yes, I would like to kind of bring the 
hearing to a close, but I would like to follow up on something 
that Mr. Gosar, when he was the chair of the Subcommittee and I 
was the Ranking Member, he used to, at the end of the hearing, 
ask all the panelists if there is one question they would have 
liked to have been asked and what their answer would be. Now 
this is very brief. I am not asking for another 5 minutes--just 
what question would you like to have been asked or we should 
have, and how would you quickly and simply answer that 
question.
    Let's begin again across with the first witness, Ms. 
Farley. What would you like to have been asked? And if you 
don't have anything, if you think you have been asked 
everything, Ms. Farley, that is fine too.
    Ms. Farley. I would have liked to have been asked how we 
ensure that the same business model used in the fossil fuel 
industry, which hurts communities, doesn't simply get placed by 
the same system that will be used to run the renewable energy 
industry. And I believe, as many do, and have access to data 
that proves it, that any solution meant to mitigate the impacts 
of climate change on lower income under-resourced communities 
must be centered in equity and must be centered in a reckoning 
with the reasons that these disparities exist.
    Dr. Lowenthal. Thank you.
    Ms. Shrader, what question?
    Ms. Shrader. The question I would have liked to have been 
asked is, how can Grand Junction be sort of a template for 
other rural communities in the United States that have 
diversified to outdoor recreation? And I would say that we in 
the Grand Valley, we have built a lot of partnerships. The oil 
and gas industry has supported so much of our trail 
infrastructure. Our government leaders, from the commissioners 
in the county, to the city officials, to our state 
representatives, have really focused on rebuilding and 
rebranding our community. And this has been a community that 
has been really long entrenched in oil and gas, and that 
culture change has created a lot of pride and excitement for 
the community and for the state. And we are becoming sort of 
this template for other communities in Colorado, but also in 
the rural West that have really suffered economically.
    And bringing that kind of prosperity back to a community is 
extremely gratifying, and I hope we can do that across the 
United States.
    Dr. Lowenthal. Thank you.
    Dr. Bissett?
    Dr. Bissett. Mr. Chairman, it would be very simple. We talk 
a lot about cost of energy production, but we rarely talk about 
reliability, or more importantly, scope. And I think the 
question of scope has to be in there, because when you look at 
what a hundred coal miners can do, or a hundred people that are 
installing solar panels or windmills, you have to look at that 
energy produced. And I think a lot of times that is the last 
thing we talk about. Thank you.
    Dr. Lowenthal. Thank you.
    Mr. Hille?
    Mr. Hille. Mr. Chair, first I need to clarify my response 
to Ms. Cheney's question. I did arrive here by car this 
morning. I flew to DC. I wanted to be transparent about that. I 
wasn't intentionally misleading, but that was going pretty 
fast.
    The question that I wish had been asked is, what is the 
role of the electric utilities in this transition? And the 
electric utilities can play a transformative, positive role as 
they have when we have partnered with them for an on-bill 
financing program for residential energy efficiency so that the 
customer pays nothing upfront. The utility pays for the 
retrofit and recovers that investment, plus interest, from a 
charge on the customer's bill.
    They can also play a negative role when they try to reverse 
statutes that support things like our solar net metering 
statute in Kentucky.
    So, the role of the utilities is really important. They do 
have a monopoly on the service, and they need to be held 
accountable for their role in the transition.
    Dr. Lowenthal. Thank you.
    Mr. Dennison?
    Mr. Dennison. I wish there was more time on the how. The 
transition is already happening. We have seen the trend in coal 
employment since the 1970s. We need to be into detailed 
problem-solving and have focus on creating opportunity for 
people in Appalachia and elsewhere. I wish I had time to 
provide other examples.
    There is a honey business that is also helping to pollinate 
reforestation on mine lands, how reforestation of mine lands 
can contribute to climate change mitigation and create 
thousands of jobs.
    And the role of the market, that was a great discussion we 
almost got to there at the end. Fantastic market innovation, 
for-profit entrepreneurs with social and environmental triple 
bottom line really leading the way.
    Dr. Lowenthal. Thank you.
    And, finally, Dr. Mason?
    Dr. Mason. I think the question would be, do we all believe 
that all green is clean? Because the answer is no. There are a 
lot of green albatross players out there. A good example is 
mining young, or cutting down young growth cypress in 
Louisiana, forests that were devastated years ago, in order to 
pelletize it and send it on ships over to Europe to burn it as 
environmentally friendly biofuel over there, encouraged by 
subsidies. That is just wrong. And there are many other 
examples.
    I think if we can drop the notion that all green is clean, 
and we need to define our terms to begin with, we can start 
with that meaningful conversation that you started with today.
    Dr. Lowenthal. Thank you. Thank you to all the panelists 
for your valuable testimony, Members for their questions, and 
for the climate that we created. I think people felt like they 
were listened to and at least got their chance. I mean, we are 
just beginning, and I think it was a great beginning.
    If members of this Committee have additional questions for 
the witnesses, we will ask you to respond to these in writing. 
Under Committee Rule 3(o), members of the Committee must submit 
witness questions within 3 business days following the hearing, 
and then the hearing record will be open for 10 business days 
for these responses.
    If there is no further business, without objection, this 
Committee stands adjourned.

    [Whereupon, at 11:59 a.m., the Committee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

  Prepared Statement of the Hon. Joe Cunningham, a Representative in 
               Congress from the State of South Carolina

    Thank you, Chairman Lowenthal, for holding this hearing today, to 
discuss an issue that's been on the minds of my constituents and is 
near and dear to my heart.
    South Carolina's 1st District is home to most of the state's nearly 
3,000 miles of serpentine coastline and barrier islands. Having lived 
near the coast, I've witnessed the impacts of rising sea levels 
firsthand. Folks in my district aren't even able to get across town to 
get to work when it's high tide and the city is flooded. So this is 
clearly something that affects the Low Country, which is why on my 
fourth day on the job, I introduced my bipartisan bill--H.R. 291, the 
Coastal Economies Protection Act, which would place a 10-year 
moratorium on oil and gas preleasing, leasing, and related activities 
on the Outer Continental Shelf in the North Atlantic, Mid-Atlantic, 
South Atlantic, and Straits of Florida planning areas and in the 
Eastern Gulf of Mexico. I've made protecting the coast of South 
Carolina from the risk of offshore drilling my highest priority, and I 
intend to continue advocating on behalf of this issue.

    In addition to the environmental impacts (sea level rise, coastal 
erosion, ocean acidification), the energy transition that the country 
needs to make to address climate change will impact certain communities 
that have relied on fossil fuel jobs.

    And with that, I want to turn to some questions.

  1.  Mr. Dennison or Mr. Hille, what advice would you give to leaders 
            in coal-reliant communities in western states that are only 
            now beginning to confront the recent downturn in coal 
            production?

  2.  Ms. Shrader, a lot of people argue that recreation and tourism 
            jobs pay a lot less than oil and gas, so they're not nearly 
            adequate replacements. How do you respond to that?

  3.  Mr. Dennison and Mr. Hille, we've heard testimony that jobs 
            produced by the clean energy transition will be more 
            harmful to worker health and the environment than jobs in 
            fossil fuel industries. Do you agree with this conclusion?

                                 ______
                                 

Submissions for the Record by Rep. Gosar

China's demand for electric vehicles charges copper,
    Financial Times, February 12, 2019 by Henry Sanderson
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    

Copper is a very ordinary building material that has become 
entwined in every facet of our lives, from the wires in our homes to 
our smartphones and, critically, electric cars, which use three times 
the amount of the metal as those in a conventional vehicle.

The start of a long-term demand trend is occurring in China, where 
copper in electric cars is set to offset a sharp fall associated with 
sales of petrol cars this year, according to analysts at Citigroup.

The number of petrol cars made in China this year is expected to drop 
by 9 per cent, according to Citi, while electric car production is set 
to rise by 53 per cent. That results in net copper demand growth of 0.3 
per cent for the sector.

``[For copper] it's an EV story into the 2020s and we're just getting a 
really early taste of that now,'' said Oliver Nugent, of Citi. ``Thanks 
to the higher intensity of copper in EVs we're going to sail through 
that very weak auto demand number this year.''

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


Over the longer term, the bank said copper for electric cars would 
make up two-thirds of demand growth for the metal between 2018 and 
2030.

Copper prices have rallied by 5 per cent this year to trade at $6,139 a 
tonne, suggesting that investors have become less fearful of the impact 
of a slowdown in China, the world's largest consumer.

Citi expects copper prices to hit $6,700 in 2019 driven by an overall 2 
per cent growth in Chinese demand and a resolution to the trade dispute 
between the US and China.

                                 ______
                                 


Australia hopes to cash in on new cobalt rush,
    Financial Times, February 12, 2019 by Jamie Smyth and Henry 
Sanderson
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

It is one of Australia's oldest mining towns that has built its 
wealth from a huge deposit of silver, lead and zinc. Now, Broken Hill 
is aiming to tap into the fast growing electric vehicle market by 
becoming a vital source of cobalt.

Mining groups in the outback town, 1,000km from Sydney, are lured by 
forecasts that demand for cobalt--the main power source for mobile 
devices and electric vehicles (EVs)--will quadruple by 2029.

Supply concerns have further stoked their interest as two-thirds of the 
world's cobalt is mined in the Democratic Republic of Congo, a poor 
country that suffers from political instability and corruption and 
which has been criticised for the use of child labour in its artisanal 
mines.

``No one can predict politics in the DRC, the country presents 
logistical challenges and there is a question mark over the efficacy of 
the 10 to 15 per cent of cobalt produced there from artisanal 
sources,'' said Joe Kaderavek, chief executive of Cobalt Blue, an ASX-
listed miner with an operation in Broken Hill.

``Increasingly, Asian battery makers are looking for the stability that 
Australian sources of cobalt can offer.''

Cobalt Blue is one of dozens of small miners in Australia, Canada and 
elsewhere that are rushing to explore cobalt deposits and raise funds 
to develop new mines and processing plants to produce the blue-grey 
metal.

Last year Kinshasa's dominance over the cobalt supply chain rose above 
70 per cent as Chinese-owned mines in the DRC and new entrant Eurasian 
Resources Group, a Luxembourg-based miner, ramped up production. It is 
expected to hit 75 per cent this year, according to Darton Commodities.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

``The DRC is to the cobalt world what Saudi Arabia is to oil when 
it comes to availability of supply, there's nowhere else where you can 
get large volumes like you can in the Congo,'' said George Heppel, an 
analyst at consultancy CRU.

This leaves battery makers, electric vehicle manufacturers and western 
miners exposed to sudden shifts in DRC government policy and consumer 
boycotts focused on child exploitation. Last year a new mining code 
imposed a series of taxes on western miners and Glencore was forced to 
write off $5.6bn in debt to safeguard its joint venture with Gecamines, 
the DRC's state mining company.

The London-listed miner is embroiled in a separate dispute with the DRC 
government over plans to build a new plant to remove uranium from its 
cobalt ore. This month Katanga Mining, a subsidiary of Glencore which 
owns a large cobalt and copper mine in the DRC, warned it may not be 
able to sell any cobalt until 2020 due to governmental concerns.

Analysts at Darton Commodities recently warned that increased resource 
nationalism in the DRC continued to present a significant supply risk.

``Continued stability in the DRC will therefore be of vital importance, 
ensuring a secure and transparent cobalt supply chain which in turn is 
critical for the global transition to EVs to materialise,'' they added.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

Due to these concerns, Asian battery makers are now building 
alliances with miners in Australia.

Last year LG International, the investment arm of the South Korean 
battery maker, bought a 6 per cent stake in Cobalt Blue. Shanghai 
Pengxin, a Chinese conglomerate, paid A$81m ($57m) for a 16 per cent 
stake in Clean TeQ, an ASX-listed company also aiming to develop a 
nickel-cobalt-scandium mine about 350km west of Sydney.

``International NGOs are focused on the issue of child labour in DRC 
and they are likely to single out multinational companies, the battery 
makers and the car companies, to clean up their act,'' said Sam 
Riggall, Clean TeQ's chief executive. ``Australia will play an 
important role in the diversification of the cobalt supply chain,'' he 
said.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

However, there are currently no large new cobalt mines in the 
pipeline outside of the DRC.

Canadian-listed First Cobalt aims to build a North American supply of 
cobalt by developing a mine in Idaho and processing the metal at a 
refinery it has reopened in Ontario.

Trent Mell, chief executive of First Cobalt, said the publication by US 
president Donald Trump of a ``critical minerals'' list last year had 
helped the company gain political support for US-based cobalt supply.

``With the US putting cobalt on the critical minerals list, we have a 
lot of friends in Washington,'' Mr Mell said. ``If you picture a boxing 
ring, you've got Glencore in one corner and China in the other; it's a 
small market, it's a tight market. I don't think cobalt prices really 
reflect the structural outlook that many of us see.''

Another country that could be a source of cobalt is Kazakhstan. Kenes 
Rakishev, a Kazakh businessman and entrepreneur, is aiming to mine 
cobalt and nickel in eastern Kazakhstan, using low-cost leaching 
techniques already used to mine uranium in the country. The company, 
KazCobalt, aims to eventually list on the stock market.

``If this technology can work for nickel and cobalt, it will be the 
lowest cost in the world,'' Mr Rakishev said. ``You need to just dig--
that's it.''

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

Cobalt is mined alongside copper in the DRC, while outside the 
country it is mostly a byproduct of nickel mining. Brazilian miner Vale 
is spending $2bn on an underground expansion of its mine at Voisey's 
Bay, Canada , which will also produce cobalt.

``There will be no shortage of cobalt but we're going to have better 
cobalt and nickel prices to get the mines [outside the DRC] built,'' 
said Anthony Milewski, chief executive of Cobalt 27, which has acquired 
the right to buy future cobalt production from the Vale mine.
FT Archive
Echoing this view, Gavin Montgomery, an analyst at Wood Mackenzie, said 
companies outside of the DRC would struggle to raise finance in the 
face of falling cobalt prices, which are down more than 40 per cent 
since mid-November.

Prices are likely to fall further given there was a ``tsunami'' of new 
cobalt supply coming online in the DRC over the next few years, Mr 
Montgomery said.

``In the medium-term it is all DRC,'' Mr Montgomery added. ``There's no 
shortage of supply.''

Outside of the DRC the most promising project is a giant $700m nickel-
processing project being built in Indonesia by a consortium of 
investors including Chinese stainless steel giant Tsingshan and China 
's largest battery maker CATL.

As well as nickel, the Indonesian project hopes to produce about 20,000 
tonnes of cobalt sulphate for batteries a year and has already secured 
financing.

``We're probably more bullish about Indonesia becoming the new frontier 
for cobalt and nickel supply than Ontario or Zambia or Australia,'' Mr 
Montgomery said.

                                 ______
                                 

Submission for the Record by Rep. Lowenthal

Energy Jobs--Bureau of Labor Statistics, February 13, 2019
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                 

Submissions for the Record by Mr. Dennison

Solar Employs More People In U.S. Electricity Generation Than Oil, Coal 
        And Gas Combined
Niall McCarthy, Contributor, Data journalist covering technological, 
        societal and media topics
Forbes--January 25, 2017

In the United States, more people were employed in solar power last 
year than in generating electricity through coal, gas and oil energy 
combined. According to a new report from the U.S. Department of Energy, 
solar power employed 43 percent of the Electric Power Generation 
sector's work force in 2016, while fossil fuels combined accounted for 
just 22 percent. It's a welcome statistic for those seeking to refute 
Donald Trump's assertion that green energy projects are bad news for 
the American economy.

Just under 374,000 people were employed in solar energy, according to 
the report, while coal, gas and oil power generation combined had a 
work force of slightly more than 187,000. The boom in the country's 
solar work force can be attributed to construction work associated with 
expanding generation capacity. The gulf in employment is growing with 
net generation from coal falling 53 percent over the last decade. 
During the same period, electricity generation from natural gas 
increased 33 percent while solar expanded 5,000 percent.

Fuel production and electricity generation together directly employed 
1.9 million workers last year, according to the report; with 55%, or 
1.1 million, working with fossil fuels. The DoE identifies another 2.3 
million jobs associated with energy transmission, distribution and 
storage.

Solar energy added 73,615 new jobs to the U.S. economy over the past 
year while wind added a further 24,650.

(charted by Statista)
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                 
Statement by Mr. Dennison in Response to Dr. Mason

I also want to note, responding to Mr. Mason: while the entire country 
is not facing Depression era unemployment, many extraction communities 
are. We have an employment crisis. High unemployment is a problem, say 
in Mingo County, WV, but the even more concerning stats are in labor 
force participation . . . these are people who have permanently left 
the work force and given up looking.

WVU economists John Deskins has published work on these troubling 
economic stats.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Submission for the Record by Rep. Graves

  --U.S. Energy and Employment Report from the National 
            Association of State Energy Officials, May 2018

Submissions for the Record Mr. Dennison

  --The Nature Conservancy Report--Natural Climate Solutions in 
            West Virginia

  --``Many Voices, Many Solutions: Innovative Mine Reclamation 
            in Central Appalachia''--Report

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
